                                          Compendium of Unimplemented Office of Inspector General Recommendations
                                                                                                                      Compendium of
Department of Health and Human Services
Office of Inspector General

330 Independence Avenue, S.W.
Washington, D.C. 20201
                                                                                                                    Unimplemented
                                                                                                                      Office of Inspector General
                                                                                                                     Recommendations




                                          May 2007




www.hhs.gov
www.oig.hhs.gov
                                                   www.oig.hhs.gov




                                                                                                                                        May 2007
This inaugural edition of the “Compendium
of Unimplemented Office of Inspector General
Recommendations” combines our previously
issued “Red Book” and “Orange Book,” which
presented unimplemented monetary and
nonmonetary recommendations, respectively.
In combining the two publications, our objective
is to create a more useful tool for Congress,
the Administration, and the Department in
their respective efforts to identify ways to contain
costs, maximize the effectiveness of programs
and services, and improve the efficiency of
departmental programs. Full implementation
of the recommendations in this document could
achieve substantial savings and increase the
effectiveness of the Department’s programs.
Compendium of
Unimplemented
Office of Inspector General
Recommendations




                  May 2007
Office of Inspector General

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those programs.
This statutory mission is carried out through a nationwide network of audits, investigations,
and inspections conducted by the following operating components:


Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for the Department, either
by conducting audits with its own audit resources or by overseeing audit work done by
others. Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement, and to promote economy and efficiency throughout the Department.


Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
the Department, Congress, and the public with timely, useful, and reliable information
on significant issues. Specifically, these evaluations focus on preventing fraud, waste,
or abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.


Office of Investigations

The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust
enrichment by providers. These investigative efforts lead to criminal convictions, civil False
Claims Act recoveries, administrative sanctions, or civil monetary penalties.


Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal
support in OIG’s internal operations. OCIG imposes program exclusions and civil monetary
penalties on health care providers and litigates those actions within the Department. OCIG
also represents OIG in the global settlement of cases arising under the civil False Claims
Act, develops and monitors corporate integrity agreements, develops compliance program
guidance, renders advisory opinions on OIG sanctions to the health care community, and
issues fraud alerts and other industry guidance.
Introduction

Purpose

The “Compendium of Unimplemented Office of Inspector General Recommendations”
combines the “Red Book” (unimplemented monetary recommendations) and the “Orange
Book” (unimplemented nonmonetary recommendations) into one publication. The “Red
Book” was a compendium of significant Department of Health and Human Services (HHS),
Office of Inspector General (OIG) cost-saving recommendations that had not been fully
implemented. The “Orange Book” focused on OIG recommendations to improve the oper-
ation of HHS programs.

The “Compendium of Unimplemented Office of Inspector General Recommendations” lists
and describes selected significant OIG recommendations that have not been implemented as
of December 31, 2006. It does not include all unimplemented OIG recommendations. For
example, it does not include recommendations addressed to specific non-Federal entities and
recommendations that involve sensitive security issues. Detailed information about the issues
examined and the recommendations are available in the relevant OIG audit and evaluation
reports. This publication contains citations to those reports.

The estimated value of each monetary recommendation is based on the specifics of each
review and is not extrapolated beyond the scope of the original review or adjusted to current-
year dollars. For some recommendations, estimated savings are unknown and “TBD” (to be
determined) is indicated.

Full implementation of these recommendations could produce substantial savings for the
Federal Government and, in turn, the American taxpayer, as well as improve the operation
of HHS programs. We hope that this compendium will prove useful to decision makers
in the Department and Congress.




Introduction                                                                                     i
Priority Recommendations

Below is a list of unimplemented recommendations that we refer to as “priority recommen-




                                                                                                        Priority Recommendations
dations” because they represent, in our view, the most significant opportunities to positively
impact the Department’s programs. The priority recommendations are comprised of both
monetary and non-monetary recommendations, representing various time frames. The list
comprises three categories: savings, integrity and efficiency, and quality of care. These areas
reflect OIG’s mission to ensure the appropriate expenditure of Federal dollars; protect the
integrity of the Department’s programs against waste, fraud, and abuse; improve program
efficiency; and protect the health and safety of program beneficiaries.


• Reduce the Rental Period for Medicare Home Oxygen Equipment, savings TBD (p. 2)
Savings:

• Improve Coding and Reimbursement for Medicare Consultation Services, estimated savings
  $1.1 billion (p. 4)
• Reduce Improper Use of Modifier 25, estimated savings $538 million (p. 5)
• Modify Payment Policy for Medicare Hospital Bad Debts, estimated savings $340 million
  (p. 14)
• Establish More Consistent Medicare Outpatient Surgery Rates That Reflect Only Necessary
  Costs, estimated savings $1.1 billion (p. 17)
• Ensure the Medical Necessity of Medicare Ambulance Claims, estimated savings
  $402 million (p. 26)
• Limit Upper Payment Limit Payments to Cost and Require That Medicaid Payments
  Returned by Public Providers Used To Offset the Federal Share, estimated savings
  $120 million (p. 31)
• Address and Resolve Excessive Medicaid Disproportionate Share Hospital Payments,
  savings TBD (p. 33)
• Require That Medicaid Reimbursement for Brand-Name and Generic Drugs Accurately
  Reflects Pharmacy Acquisition Costs, estimated savings $1.08 billion for brand-name drugs
  (p. 35) and $470 million for generic drugs (p. 36)
• Establish Connection Between the Calculation of Medicaid Drug Rebates and Drug
  Reimbursement, estimated savings $1.15 billion (p. 39)


• Ensure That Prescription Drug Plan Sponsors’ Compliance Plans Address All Requirements
Integrity and Efficiency:

  (p. 57)
• Improve Centers for Medicare & Medicaid Services Performance Evaluation Process for
  Program Safeguard Contractors (p. 58)
• Improve Monitoring of Patient Safety Grants (p. 59)
• Update and Maintain an Accurate New Drug Code Directory (p. 60)
• Improve Postmarketing Oversight (p. 61)
• Improve Oversight and Review of Outside Activities of Senior-Level National Institutes
  of Health Employees (p. 62)
• Improve Oversight of State Standards and Practices for Content and Frequency of
  Caseworker Visits to Children in Foster Care (p. 68)




Introduction                                                                                      iii
     Priority Recommendations


     • Improve Hospital Reporting of Deaths Related to Restraint and Seclusion (p. 49)
     Quality of Care:

     • Improve the Availability of Quality-of-Care Data in the Medicare End Stage Renal Disease
       Program (p. 51)
     • Strengthen Food and Drug Administration Oversight of Clinical Investigators (p. 95)
     • Protect Human Research Subjects by Strengthening Institutional Review Boards (p. 96)




iv   Introduction
Department of Health and Human Services

HHS promotes the health and welfare of Americans and provides essential services to people




                                                                                                          Priority Recommendations
of every age. The Department’s major operating divisions are described below:

• The Centers for Medicare & Medicaid Services (CMS) administers the Medicare and
  Medicaid programs, as well as the State Children’s Health Insurance Program (SCHIP)
  programs. These programs, which account for well over 80 percent of the HHS budget,
  provide medical care coverage for senior citizens, people who have disabilities or who are
  economically disadvantaged, and children whose families have limited income.

• The public health operating divisions include the National Institutes of Health (NIH), the
  Food and Drug Administration (FDA), the Centers for Disease Control and Prevention
  (CDC), the Health Resources and Services Administration (HRSA), the Indian Health
  Service (IHS), the Agency for Healthcare Research and Quality (AHRQ), and the Substance
  Abuse and Mental Health Services Administration (SAMHSA). These divisions promote
  biomedical research and disease cure and prevention; ensure the safety and efficacy of
  marketed food, drugs, and medical devices; and conduct other activities designed to ensure
  the general health and safety of Americans.

• The Administration for Children and Families (ACF) provides Federal direction and funding
  for State-administered programs, including a variety of social service programs, designed to
  promote stability, economic security, responsibility, and self-support for the Nation’s families.

• The Administration on Aging (AoA) awards grants to States for establishing comprehensive
  community-based systems that, through services such as congregate and home-delivered
  meals and in-home care and family caregiver support, assist in maintaining the dignity and
  quality of life of older Americans and their families.


Organization of the “Compendium of Unimplemented Office of Inspector
General Recommendations”

This report is organized as follows: The first section contains monetary recommendations, and
the second section contains nonmonetary recommendations. Within both of these sections,
the recommendations are organized according to whether they are new or were published in
the previous editions and are further subdivided by health and human services issue area.

Each narrative contains a background summary, findings, recommendation(s), status, the report
number(s), and the report issue date(s). In the case of monetary recommendations, there is
also an estimate of the savings that may be achieved by implementing the recommendations.
OIG final reports, including the comments of the cognizant agency, are available upon
request and most can be found at http://www.oig.hhs.gov. Each report with monetary
recommendations also includes a methodology section detailing our process for estimating
cost savings. Readers interested in a particular recommendation are encouraged to review
the associated report(s).




Introduction                                                                                          v
Table of Contents


 New Monetary Recommendations                                                                1

 Medicare and Medicaid                                                                       1


    Improve Management and Oversight of Consecutive Medicare Inpatient Stays
 Medicare Hospitals                                                                          1
                                                                                             1


    Reduce the Rental Period for Medicare Home Oxygen Equipment
 Durable Medicare Equipment                                                                  2
                                                                                             2


    Reduce Improper Medicare Payments for Allergen Immunotherapy
 Other Medicare Reimbursement                                                                3

    Improve Coding and Reimbursement for Medicare Consultation Services
                                                                                             3

    Reduce Improper Use of Modifier 25
                                                                                             4

    Reduce Improper Use of Modifier 59 To Bypass Medicare’s National Correct Coding
                                                                                             5

      Initiative Edits
    Prevent Overpayment under Medicare’s Inpatient Rehabilitation Facility Transfer Policy
                                                                                             6
                                                                                             7


    Revise and Clarify Average Manufacturer Price Regulation
 Other Medicaid Reimbursement                                                                8
                                                                                             8


 Previous Monetary Recommendations                                                           9

 Medicare and Medicaid                                                                       11


    Continue Mandated Reductions in Hospital Capital Costs
 Medicare Hospitals                                                                          11

    More Accurately Reflect Base-Year Costs in Prospective Payment System’s Capital
                                                                                             11

      Cost Rates
    Revise Graduate Medical Education Payment Methodology
                                                                                             12

    Modify Payment Policy for Medicare Hospital Bad Debts
                                                                                             13

    Recover Overpayments and Expand the Diagnosis-Related Group Payment Window
                                                                                             14

    Adjust Base-Year Costs in the Prospective Payment System for Hospital Outpatient
                                                                                             15

      Department Services
    Establish More Consistent Outpatient Surgery Rates That Reflect Only Necessary Costs
                                                                                             16
                                                                                             17


    Limit Payment under Method II for Continuous Cycling Peritoneal Dialysis to Method I
 End Stage Renal Disease                                                                     18

      Rates
    Reduce Medicare End Stage Renal Disease Payment Rates
                                                                                             18
                                                                                             19


    Reduce the Medicare Reimbursement Amount for Category I Enteral Nutrition Formulas
 Medicare Durable Medical Equipment                                                          20

    Identify Medical Equipment/Supply Claims Lacking Valid, Active Unique Physician
                                                                                             20

       Identification Numbers
    Prevent Medicare Losses Resulting From Early Payments for Medical Equipment
                                                                                             21
                                                                                             22



Table of Contents                                                                                 vii
       Table of Contents


          Ensure Appropriate Medicare Reimbursement to Ambulatory Surgical Centers for
       Medicare Reimbursement                                                                 23

            Intraocular Lenses
          Reinstate the Beneficiary Coinsurance and Deductible Provisions for Laboratory
                                                                                              23

            Services
          Require Physician Examination Before Ordering Home Health Services
                                                                                              24

          Ensure the Medical Necessity of Ambulance Claims
                                                                                              25

          Recover Overpayments and Prevent Inappropriate Medicare Part B Payments for
                                                                                              26

            Nail Debridement and Related Services
          Ensure Appropriateness of Medicare Payments for Mental Health Services
                                                                                              27
                                                                                              28


          Modify Payments to Managed Care Organizations
       Medicare Managed Care                                                                  29

          Place a Ceiling on Administrative Costs Included in Managed Care Organizations’
                                                                                              29

             Rate Proposals                                                                   30


          Limit Upper Payment Limit Payments to Cost and Require That Medicaid Payments
       Medicaid Reimbursement                                                                 31

             Returned by Public Providers are Used To Offset the Federal Share
          Ensure Compliance With Requirements for Medicaid School-Based Health Services
                                                                                              31

          Address and Resolve Excessive Medicaid Disproportionate Share Hospital Payments
                                                                                              32

          Eliminate or Reduce Transition Periods for Compliance With Revised Medicaid
                                                                                              33

             Upper Payment Limits
          Require That Medicaid Reimbursement for Brand Name Drugs Accurately Reflects
                                                                                              34

             Pharmacy Acquisition Costs
          Require That Medicaid Reimbursement for Generic Drugs Accurately Reflect
                                                                                              35

             Pharmacy Acquisition Costs
          Add Qualified Drugs to the Medicaid Federal Upper Limit List
                                                                                              36
                                                                                              37


          Establish Connection Between the Calculation of Medicaid Drug Rebates and
       Medicaid Drug Rebates                                                                  39

            Drug Reimbursement
          Implement an Indexed Best Price Calculation in the Medicaid Drug Rebate Program
                                                                                              39
                                                                                              40


       Public Health                                                                          41


          Eliminate Excessive Costs in the 340B Drug Discount Program
       Health Resources and Services                                                          41
                                                                                              41


          Use Voluntary Contributions To Expand Services for the Elderly
       Aging                                                                                  43
                                                                                              43


          Advise States of Their Authorities To Collect From Noncustodial Parents With
       Departmentwide and Cross-Cutting Issues                                                44

            the Ability To Contribute Towards Their Children’s Medicaid or State Children’s
            Health Insurance Program Costs                                                    44




viii   Table of Contents
Table of Contents


 New Nonmonetary Recommendations                                                             47

 Medicare and Medicaid                                                                       49


    Improve Hospital Reporting of Deaths Related to Restraint and Seclusion
 Medicare Hospitals                                                                          49

    Improve Carrier Determination of Copayments for Medicare Mental Health Services
                                                                                             49

    Improve the Availability of Quality-of-Care Data in the Medicare End Stage Renal
                                                                                             50

      Disease Program                                                                        51


    Ensure That States Cease Imposing Fees on Nurse Aides Registration
 Nursing Homes                                                                               52

    Ensure That Only Registered Nurse Aides Without Substantiated Findings Are Registered
                                                                                             52

    Strengthen Oversight of Nursing Home Complaint Investigations
                                                                                             53

    Strengthen Federal Certification Standards for Nursing Home Emergency Plans Including
                                                                                             54

       Specific Elements for Emergency Planning Investigations                               55


    Evaluate the Calculation of Volume-Weighted Average Sales Prices for Medicare Part B
 Medicare Drugs                                                                              56

      Prescription Drugs
    Ensure That Prescription Drug Plan Sponsors’ Compliance Plans Address All Requirments
                                                                                             56
                                                                                             57


    Improve Centers for Medicare & Medicaid Services Performance Evaluation Process for
 Other Medicare and Medicaid Issues                                                          58

      Program Safeguard Contractor                                                           58


 Public Health                                                                               59


    Improve Monitoring of Patient Safety Grants
 Agency for Healthcare Research and Quality                                                  59
                                                                                             59


    Update and Maintain an Accurate New Drug Code Directory
 Food and Drug Safety                                                                        60

    Improve Postmarketing Oversight
                                                                                             60
                                                                                             61


    Improve Oversight and Review of Outside Activities of Senior-Level National Institutes
 National Institutes of Health                                                               62

      of Health Employees                                                                    62


    Improve Health Resources and Services Administration Alert List Practices
 Health Resources and Services                                                               63

    Report Medical Malpractice Cases to the National Practitioner Data Bank
                                                                                             63
                                                                                             64




Table of Contents                                                                                 ix
    Table of Contents

     Children, Families and Aging                                                       65


        Increase Participation in Cost Sharing of Older Americans Act Services
     Administration on Aging                                                            65
                                                                                        65

     Other Children, Families, and Aging Issues                                         66


        Improve Children’s Use of Health Care Services While in Foster Care Series
     Foster Care                                                                        66

        Improve Oversight of State Standards and Practices for Content and Frequency
                                                                                        66

          of Caseworker Visits to Children in Foster Care                               68


     Previous Nonmonetary Recommendations                                               71

     Medicare and Medicaid                                                              73


        Improve Oversight of Rural Health Clinics
     Hospitals                                                                           73

        Improve Quality Oversight of Ambulatory Surgical Centers in the Medicare Program 74
                                                                                         73

        Improve Oversight of Medicare-Approved Heart Transplant Centers                  75


        Develop Nurse Staffing Standards for Nursing Homes
     Nursing Homes                                                                      76

        Update Nursing Home Nurse Aide Training Curriculum
                                                                                        76

        Improve Guidance to State Agencies on Citing Nursing Home Deficiencies
                                                                                        77

        Improve Accuracy of Nursing Home Compare
                                                                                        78
                                                                                        79


        Improve Quality Improvement Processes in Dialysis Facilities
     End Stage Renal Disease                                                            80
                                                                                        80


        Improve Medical Equipment Suppliers’ Compliance With Medicare Standards
     Medicare Durable Medical Equipment                                                 81

        Ensure Appropriate Use of Surrogate Physician Identification Numbers
                                                                                        81
                                                                                        82


        Ensure That Appropriate Mental Health Services Are Delivered in Nursing Homes
     Medicare Reimbursement                                                             83

        Equalize Medicare Reimbursement for Home Dialysis
                                                                                        83

        Strengthen Managed Care (Part C) and Prescription Drug (Part D) Benefit
                                                                                        84

           Payment Cycles
        Eliminate Inappropriate Payments for Mental Health Services
                                                                                        85

        Ensure Accuracy of Carrier Payment Dates
                                                                                        87
                                                                                        88


        Improve Enrollment and Certification Processes in the Clinical Laboratory
     Medicare Managed Care                                                              89

          Improvement Amendments Program                                                89




x   Table of Contents
Table of Contents


    Provide Additional Guidance to Drug Manufacturers To Better Implement the Medicaid
 Prescription Drugs                                                                      90

      Drug Rebate Program                                                                90


    Establish a National Medicaid Credit Balance Reporting Mechanism
 Other Medicare and Medicaid Issues                                                      91

    Increase the Accountability of Dialysis Facilities for Quality of Services
                                                                                         91

    Improve Medicare Information Systems Controls
                                                                                         92
                                                                                         93


 Public Health                                                                           95


    Strengthen Food and Drug Administration Oversight of Clinical Investigators
 Food and Drug Safety                                                                    95
                                                                                         95


    Protect Human Research Subjects by Strengthening Institutional Review Boards
 Biomedical Research                                                                     96
                                                                                         96


    Improve Hospital Reporting to the National Practitioner Data Bank
 Health Resources and Services                                                           98

    Improve Monitoring of Ryan White CARE Act Grantees and Subgrantees
                                                                                         98
                                                                                         99

 Children, Families and Aging                                                            100


    Improve Methods of Recruiting Foster Parents
 Children, Youth and Family Services                                                     100
                                                                                         100


 Departmentwide and Cross-Cutting Issues                                                 101

    Update Cost Principles for Federally Sponsored Research Activities
    Improve Financial Analysis and Reporting Processes
                                                                                         101

    Strengthen State Protections for Persons With Disabilities in Residential Settings
                                                                                         102

    Improve Safeguards for Long Term Care Residents
                                                                                         103
                                                                                         104


 List of Acronyms                                                                        105




Table of Contents                                                                              xi
New Monetary Recommendations
Medicare and Medicaid
Medicare Hospitals

Improve Management and Oversight of Consecutive Medicare Inpatient Stays

Background: This evaluation assessed the quality of care and the medical necessity of
services within sequences of consecutive stays for Medicare beneficiaries. For the purposes
of this review, OIG defined “consecutive inpatient stays” as a sequence of three or more
individual inpatient facility stays for the same Medicare beneficiary when the admission date
for each successive stay occurs within 1 day of the discharge date for the preceding stay.
This evaluation focused on consecutive inpatient stays in fiscal year (FY) 2002 involving
acute care hospitals and three types of inpatient facilities that may be found within acute




                                                                                                       Recommendations
                                                                                                       New Monetary
care hospitals: rehabilitation units, psychiatric units, and skilled nursing swing beds.

Finding: Twenty percent of consecutive stay sequences were associated with quality of care
problems (medical errors, accidents, or patient care that did not meet professionally recognized
standards) that contributed to the need for multiple inpatient stays and/or unnecessary
fragmentation of health care services across multiple inpatient stays in a sequence. Medicare
paid an estimated $267 million for these stay sequences in FY 2002.

Recommendation(s): CMS should (1) direct the Quality Improvement Organizations (QIO)
to monitor the quality of inpatient services provided within sequences of consecutive inpatient
stays, (2) encourage the QIOs and fiscal intermediaries to monitor the medical necessity
and appropriateness of inpatient services provided within these consecutive inpatient stay
sequences, and (3) reinforce efforts to educate providers about the appropriate uses of skilled
nursing swing beds.

 Savings:     *TBD


*In FY 2002, $267 million was paid in association with quality-of-care problems that significantly
contributed to the need for multiple inpatient stays and/or unnecessary fragmentation of health care
services across multiple inpatient stays in a sequence. Some portion of this would be saved if our
recommendations were implemented.

Status: CMS concurred with our assessment of consecutive Medicare inpatient stays but
believes that existing mechanisms already address the issues. CMS stated that periodic
reviews of consecutive inpatient stay sequences are not warranted and contended that current
QIO activities functionally cover the first and second of our recommendations. CMS agreed
with the third recommendation and will prepare a Medlearn Matters provider education
article about the appropriate uses of skilled nursing swing beds.

 Report(s): OEI-03-01-00430; issued 08/05




New Monetary Recommendations                                                                           1
    Durable Medicare Equipment


    Reduce the Rental Period for Medicare Home Oxygen Equipment

    Background: Section 1834(a)(5) of the Social Security Act authorizes Medicare payment
    for home oxygen equipment under its durable medical equipment (DME) benefit. Medicare
    covers both stationary and portable oxygen delivery systems, which were payable on a rental-
    only basis from 1989 (the year in which Medicare implemented the DME fee schedule)
    until 2006. The current rental period is 36 months and the current rental period for capped
    rental items is 13 months.

    Findings: Based on the 2006 median fee schedule amount, Medicare will allow $7,215 for
    36 months for concentrators that cost $587, on average, to purchase. Based on our analysis,
    minimal servicing and maintenance for concentrators and portable equipment are necessary.

    Recommendation(s): OIG recommended that CMS work with Congress to further reduce
    the rental period for oxygen equipment, determine the necessity and frequency of nonroutine
    maintenance and servicing for concentrators, and determine whether a new payment
    methodology is appropriate for portable oxygen.

     Savings:    TBD


    Status: CMS agreed with OIG recommendations. With regard to the first recommendation,
    there was a proposal in Congress to reduce the monthly rental limit for oxygen from 36 to
    13 months, but the bill was never enacted. Concerning the second and third recommendations,
    both have been implemented by CMS.

     Report(s): OEI-09-04-00420; issued 09/06




2   New Monetary Recommendations
Other Medicare Reimbursement


Reduce Improper Medicare Payments for Allergen Immunotherapy

Background: In 2001, Medicare allowed approximately $130 million for allergen immunotherapy
and related services. By 2003, this amount had grown to $171 million. Allergen immunotherapy,
commonly known as allergy shots, is intended to reduce patients’ reactions to particular
allergens. Title XVIII of the Social Security Act limits Medicare coverage to services
that are medically necessary (section 1862(a)(1)(A)) and are supported by documentation
(section 1833e).




                                                                                                 Recommendations
                                                                                                 New Monetary
Finding: Sixty-two percent of the allergen immunotherapy and related services allowed by
Medicare in 2001 did not meet program requirements, resulting in $75 million in improper
payments. In addition, in the absence of national guidance, carriers have implemented policies
that are inconsistent with the standards of the Joint Task Force on Practice Parameters, which
represents 95 percent of all allergists and immunologists. Care provided to approximately
70 percent of Medicare beneficiaries who received allergen immunotherapy in 2001 was
inconsistent with professionally recognized standards of care.

Recommendation(s): CMS should require carriers to educate physicians who provide
allergen immunotherapy to Medicare beneficiaries about coverage, coding, and documentation
requirements and develop national coverage criteria for allergen immunotherapy based on
professionally recognized standards of health care.

 Savings:    *$75 million

*$75 million was improperly paid in 2001 based on a national projection of a sample of allergy
services randomly selected from the Medicare 2001 National Claims History Data File.

Status: CMS stated that it is prepared to develop and disseminate educational materials and
develop new coverage criteria for allergen immunotherapy services. CMS has identified two
possibilities for developing national coverage criteria for allergen immunotherapy and either
option would require up to 12 months to fully implement.

 Report(s): OEI-09-00-00531; issued 02/06




New Monetary Recommendations                                                                     3
    Other Medicare Reimbursement

    Improve Coding and Reimbursement for Medicare Consultation Services

    Background: Medicare reimbursement for consultations increased from $3.3 billion in 200l
    to $4.1 billion in 2004. We reviewed Medicare services billed as consultation in 2001. We
    contracted with certified professional coders to determine whether each service had been
    billed with the correct code and documented adequately and found a high rate of improper
    payments.

    Finding: Approximately 75 percent of services billed as consultation and allowed by
    Medicare in 2001 did not meet all applicable program requirements, resulting in $1.1 billion
    in improper payments. Services billed as consultations often did not meet Medicare’s
    definition of consultation, were billed as the wrong type or level of consultation, or were
    not substantiated by documentation.

    Recommendation(s): To reduce the incidence of improperly billed consultations through
    its Medicare carriers, CMS should educate physicians and other health care professionals
    about the criteria and proper billing for all types and levels of consultations.

     Savings:    *$1.1 billion

    *This is a national projection based on Medicare claims in 2001.

    Status: CMS agreed with our recommendations and outlined a plan to publish a Special
    Edition regarding consultations on its Web site. CMS also noted that codes for billing
    inpatient and confirmatory consultations have been eliminated from the Current Procedural
    Terminology effective January 1, 2006, which should reduce coding errors.

     Report(s): OEI-09-02-00030; issued 03/06




4   New Monetary Recommendations
Other Medicare Reimbursement

Reduce Improper Use of Modifier 25

Background: CMS does not generally allow additional payment for separate evaluation and
management (E/M) services performed by a provider on the same day as a procedure.
However, if on the same day as a procedure, a provider performs an E/M and the E/M
service is significant, separately identifiable, and above and beyond the usual preoperative and
postoperative care associated with the procedure, modifier 25 may be attached to the claim
to allow additional payment for the separate E/M service. In 2002, Medicare allowed
$1.96 billion for approximately 29 million claims using modifier 25.




                                                                                                   Recommendations
                                                                                                   New Monetary
Finding: Thirty-five percent of claims using modifier 25 that Medicare allowed in 2002 did
not meet program requirements, resulting in $538 million in improper payments. A large
number of claims submitted used modifier 25 incorrectly, such as by attaching the modifier
to an E/M claim when no other service was performed on the same day. Also, more than
one-third of carriers have not conducted oversight related to modifier 25.

Recommendation(s): CMS should work with carriers to reduce the number of claims
submitted using modifier 25 that do not meet program requirements.

 Savings:    *$538 million

*In 2002, $538 million was improperly paid based on all Medicare Part B provider claims.

Status: CMS concurred with the recommendations and plans to educate the provider
community about the need for documentation to support services billed to the Medicare
program. CMS will inform contractors of our findings so that they can take corrective
actions. CMS stated they will also modify the “Medical Claims Processing Manual” to clarify
that appropriate documentation must be maintained to support claims for payment, even
though providers are not required to submit the documentation with the claim.

 Report(s): OEI-07-03-00470; issued 11/05




New Monetary Recommendations                                                                       5
    Other Medicare Reimbursement


    Reduce Improper Use of Modifier 59 To Bypass Medicare’s National Correct Coding
    Initiative Edits

    Background: In January 1996, CMS began the Medicare National Correct Coding Initiative
    (NCCI) to promote correct coding by providers and to prevent Medicare payment for
    improperly coded services. The initiative consists of automated edits that are part of the
    carrier’s claims-processing systems. Specifically, NCCI edits contain pairs of Healthcare
    Common Procedure Coding System codes that generally should not be billed together by a
    provider for a beneficiary on the same date of services. All code pairs are arranged in a
    column 1 and column 2 format. Claims given the column 2 code are generally not payable
    with the column 1 code. Under certain circumstances, a provider may bill for two services in
    an NCCI code pair and include a modifier on that claim that would bypass the edit and allow
    both services to be paid. Modifier 59 could be attached in that instance. Modifier 59 is used
    to indicate that a provider performed a distinct procedure or service for a beneficiary on the
    same day as another procedure or service.

    Finding: Medicare allowed payments for 40 percent of code pairs in FY 2003 that did not
    meet program requirements, resulting in $59 million in improper payments. Modifier 59 was
    used inappropriately with 15 percent of the code pairs because the services were not distinct
    from each other. This study also found that 11 percent of code pairs billed with modifier 59
    were paid when modifier 59 was billed with the incorrect code. In addition, most carriers
    did not conduct reviews of modifier 59, but those that did found providers had an error rate
    of 40 percent or more for services billed with modifier 59.

    Recommendation(s): CMS should encourage carriers to conduct prepayment and postpayment
    reviews of the use of modifier 59. Also, CMS should ensure that the carrier’s claims-processing
    systems pay claims with modifier 59 only when the modifier is billed with the correct code.

     Savings:     *$59 million

    *Based on a national projection of Medicare claims, $59 million was improperly paid for services
    in FY 2003 that did not meet the Medicare program requirements.

    Status: CMS concurred with our recommendation to encourage carriers to conduct prepayment
    and postpayment reviews of the use of modifier 59 and to ensure that carriers’ claims-processing
    systems pay claims only when modifier 59 is billed with the secondary code. At this time,
    CMS is not able to implement an edit to ensure correct coding.

     Report(s): OEI-03-02-00771; issued 11/05




6   New Monetary Recommendations
Other Medicare Reimbursement


Prevent Overpayments Under Medicare’s Inpatient Rehabilitation Facility Transfer
Policy

Background: Under the prospective payment system (PPS) for inpatient rehabilitation
facilities (IRF), Medicare pays the full prospective payment to an IRF that discharges a
beneficiary to home. However, in certain situations, Medicare pays a lesser amount when
the IRF transfers the beneficiary to another facility.

Finding: We estimate that during FY 2003, the Medicare program paid approximately




                                                                                                  Recommendations
                                                                                                  New Monetary
$14.3 million in excessive payments to inpatient rehabilitation facilities as a result of the
facilities coding claims as discharges rather than as transfers. Our reviews indicated that the
Common Working File did not have the necessary edits in place to detect the miscoded
claims and prevent excessive payments.

Recommendation(s): CMS should establish edits in the Common Working File that match
beneficiary discharge dates with admission dates to other providers to identify potentially
miscoded claims.

 Savings:    *$14.3 million


*These estimated savings are based on an audit of FY 2003 claims.

Status: CMS concurred with our recommendation to establish edits in the Common
Working File. CMS expects to implement the edits in 2007.

 Report(s): OAS-04-04-00008; issued 9/06                OAS-04-04-00013; issued 11/06




New Monetary Recommendations                                                                      7
    Other Medicaid Reimbursement


    Revise and Clarify Average Manufacturer Price Regulation

    Background: Section 1927 of the Social Security Act (the Act) established the Medicaid
    drug rebate program. Section 1927(b)(3) of the Act requires a participating manufacturer
    to report quarterly to the CMS the average manufacturer price (AMP) for each covered
    outpatient drug. CMS uses the AMP to calculate a unit rebate amount for each covered
    outpatient drug and provides the unit rebate amounts to the States.

    The Deficit Reduction Act (DRA) of 2005 required OIG to (1) review the requirements for,
    and manner in which, AMPs are determined under section 1927 of the Act and (2) recommend
    appropriate changes by June 1, 2006.

    Pursuant to the DRA of 2005, CMS was required to promulgate, by July 1, 2007, a regulation
    that clarifies AMP requirements after considering our recommendations.

    Finding: Existing requirements for determining certain aspects of AMPs are not clear and
    comprehensive, and manufacturers’ methods of calculating AMPs are inconsistent. Our
    previous and ongoing work, which has focused primarily on how manufacturers calculate
    the AMP, has found that manufacturers interpret AMP requirements differently. Specifically,
    our findings demonstrated the need to clarify the definition of “retail class of trade” and
    the treatment of pharmacy benefit manager rebates and Medicaid sales in AMP calculations.
    Consistent with our findings, industry groups also emphasized the need to clarify certain
    AMP requirements. Further, they raised additional issues related to the implementation of
    DRA of 2005 provisions. Because the DRA of 2005 expands the use of AMPs and creates
    new reimbursement policy implications, future errors or inconsistencies in manufacturers’
    AMP calculations could lead to inaccurate or inappropriate reimbursement amounts as well
    as rebate errors.

    Recommendation(s): The Secretary should direct CMS, in promulgating the AMP regulation,
    to (1) clarify requirements in regard to the definition of retail class of trade and the treatment
    of pharmacy benefit manager rebates and Medicaid sales; (2) consider addressing issues raised
    by industry groups, such as administrative and service fees, lagged price concessions and
    returned goods, the frequency of AMP reporting, AMP restatements, and baseline AMP;
    (3) issue guidance in the near future that specifically addresses the implementation of the
    AMP-related reimbursement provisions of the DRA of 2005; and (4) encourage States to
    analyze the relationship between AMP and pharmacy acquisition cost to ensure that the
    Medicaid program appropriately reimburses pharmacies for estimated acquisition costs.

     Savings:    TBD


    Status: CMS published a proposed regulation on December 22, 2006, and is currently reviewing
    comments on the proposed rule. The final rule, which provides clarity to the definition of
    the AMP, is scheduled to be published in July 2007.

     Report(s): OAS-06-06-00063; issued 5/06




8   New Monetary Recommendations
Previous Monetary Recommendations
Medicare and Medicaid
Medicare Hospitals

Continue Mandated Reductions in Hospital Capital Costs

Background: In October 1991, CMS began a 10-year transition period for paying inpatient
hospital capital-related costs under a PPS. The rates are based on historical costs less a
mandated reduction of 7.4 percent under the Omnibus Budget Reconciliation Act (OBRA)
of 1993.

Finding: Hospital capital costs soared during the first 5 years of the PPS for inpatient hospital
costs, despite low bed occupancy. The Medicare system of reimbursing capital costs on a
pass-through basis (i.e., reimbursed outside the diagnosis-related group) was a major reason
for this increase. Paying capital costs prospectively, as required by regulation, should assist
in curbing escalating costs. However, the prospective rates are based on historical costs that
are inflated because (1) excess capacity in the hospital industry has caused more capital costs
to be incurred than economically necessary and (2) inappropriate elements, such as charges
for depreciation on federally funded assets, are included in the historical costs.

Recommendation(s): CMS should (1) seek legislative authority to continue mandated
reductions in capital payments beyond FY 1995 and (2) determine the extent to which capital




                                                                                                    Recommendations
                                                                                                    Previous Monetary
payment reductions are needed to fully account for hospitals’ excess bed capacity and report
the percentage of reduction to Congress.

 Savings:    TBD


Status: CMS did not agree with our recommendations. CMS believed that section
1886(g)(1)(B)(iv) of the Social Security Act, which states that the Secretary of the Department
of Health and Human Services may provide for an adjustment for occupancy rate, is intended
only to provide for an adjustment to capital PPS payments based on a hospital’s current
occupancy rate. Although the Balanced Budget Act of 1997 (BBA) reduced capital payments,
it did not include the effects of excess bed capacity and other elements included in the
base-year historical costs. The President’s FY 2001 budget proposed reducing capital payments
and saving $630 million from FY 2001 through FY 2005. A similar reduction was not
included in the President’s FY 2007 budget proposal. We plan to perform a follow-up audit
of this issue during FY 2007.

 Report(s): OAS-09-91-00070; issued 04/92                OAS-14-93-00380; issued 04/93




Previous Monetary Recommendations                                                                   11
     Medicare Hospitals

     More Accurately Reflect Base-Year Costs in Prospective Payment System’s Capital
     Cost Rates

     Background: Under section 1886(d) of the Social Security Act, the Medicare program pays
     for the operating costs attributable to hospital inpatient services under a PPS. The system
     pays for care using a predetermined specific rate for each discharge. Public Law 100-203
     required the Secretary of the Department of Health and Human Services to establish a PPS
     for capital costs for cost reporting periods beginning in FY 1992.

     Finding: Although CMS took care to devise and implement an equitable PPS for capital
     costs, some future cost items had to be estimated. A few years later, when actual data were
     available, we compared CMS’s estimates with the actual data and found, in some cases, that
     the estimates were too high. A 7.5-percent reduction would correct all forecasting estimates
     that CMS had to make in arriving at an anticipated rate to implement the capital cost
     PPS. The total effect of overpayments in relation to costs used as the basis for this system
     gradually increased from 1996 until the system was fully implemented in 2002.

     Recommendation(s): CMS should (1) consider seeking legislation to reduce payment rates
     by 7.5 percent to more accurately reflect costs of the base year used for the capital cost
     PPS and (2) continue to monitor the most current data and make any necessary further
     adjustments to the base rate.

      Savings:    TBD


     Status: CMS agreed that the capital rate reflected an overestimation of base-year costs and
     that the BBA of 1997 provided for a reduction of 2.1 percent in capital payments for FYs
     1998 through 2002. No additional adjustments have been made. CMS is continuing to
     monitor current capital payment and cost data to determine whether additional adjustments
     are warranted.

      Report(s): OAS-07-95-01127; issued 08/95




12   Previous Monetary Recommendations
Medicare Hospitals

Revise Graduate Medical Education Payment Methodology

Background: Section 9202 of the Consolidated Omnibus Budget Reconciliation Act of
1985 and section 9314 of the OBRA of 1986 changed the way Medicare reimburses hospitals
for the direct costs of graduate medical education (GME). Under the revised methodology,
costs are reimbursed on a “hospital-specific” prospective payment basis, which is based on a
hospital’s graduate medical education costs per resident in a base year, usually the cost-reporting
period that began during FY 1984.

Finding: CMS estimated that the revised graduate medical education methodology would
result in substantial Medicare savings. Our review indicated that because of two factors
within the methodology, Medicare will pay a disproportionate share of GME costs. First,
the revised system allows hospital cost centers with little or no Medicare patient utilization to
receive increased importance in the calculation of graduate medical education reimbursement.
Second, the Medicare patient load percentage used to compute Medicare’s share of these
costs is based on inpatient data only and is higher than Medicare’s overall share of graduate
medical education costs as determined under the previous method, which also included
ancillary and outpatient data.




                                                                                                      Recommendations
                                                                                                      Previous Monetary
Recommendation(s): CMS should (1) revise the regulations to remove from a hospital’s
allowable graduate medical education base-year costs any cost center with little or no
Medicare utilization and (2) submit a legislative proposal to compute Medicare’s percentage
of participation under the former method or a similarly comprehensive system.

 Savings:     *Factor 1 $39.2 million                    *Combined $157.3 million
              *Factor 2 $125.6 million


*Estimated savings are based on 4 years of cost reporting beginning October 1, 1985. When the
two proposed changed are handled as one combined calculation, the savings are less than those from
calculating the effect of the changes separately.

Status: CMS did not concur with our recommendations. Although the BBA of 1997 and
the Balanced Budget Refinement Act of 1999 (BBRA) contained provisions to slow the
growth in Medicare spending on graduate medical education, we continue to believe that
our recommendations should be implemented and that further savings can be achieved.

 Report(s): OAS-06-92-00020; issued 04/94




Previous Monetary Recommendations                                                                     13
     Medicare Hospitals

     Modify Payment Policy for Medicare Hospital Bad Debts

     Background: Under Medicare’s inpatient hospital PPS, hospitals are reimbursed for inpatient
     services rendered to Medicare beneficiaries by a fixed payment amount based on a diagnosis-
     related group (DRG). However, bad debts related to unpaid Medicare deductible and
     coinsurance amounts are reimbursed separately as pass-through items (i.e., reimbursed outside
     the DRG) under reasonable cost principles, subject to a 30-percent reduction. Most provider
     types are also entitled to have their bad debts reimbursed at this rate.

     Finding: CMS records showed that total Medicare hospital bad debts increased from
     $159 million in FY 1984 to almost $399 million in FY 1987. During this same period, hospitals
     continued to earn significant profits. Although regulations provide that hospitals must
     be able to establish that they made reasonable bad debt collection efforts, such efforts
     have often been inadequate; hospitals have little incentive to aggressively collect the unpaid
     deductible and coinsurance amounts when Medicare pays these amounts. As a result,
     hospitals have received unallowable bad debt payments.

     Recommendation(s): CMS should consider options including eliminating bad debt payments,
     reimbursing PPS hospitals for bad debts only if the hospitals lost money on their Medicare
     operations and including a bad debt factor in the DRG rates. CMS should seek legislative
     authority to further modify bad debt policies.

      Savings:     Savings: *$340 million


     *Savings shown in the President’s FY 2001 budget, proposing to eliminate bad debt payments.
     Savings of $7.15 billion for FYs 2008-2012 in the President’s FY 2008 budget proposes to eliminate
     bad debt payments to all providers.

     Status: CMS did not agree with our recommendations. The BBA of 1997 provided for some
     reduction of bad debt payments to providers. The Medicare, Medicaid, and SCHIP Benefits
     Improvement and Protection Act of 2000 subsequently increased bad debt reimbursement.
     Currently, Medicare pays 70 percent of allowable bad debts for hospitals. Medicare inpatient
     hospital bad debts totaled $781 million in FY 2004. Our subsequent work shows hospitals
     continue to claim unallowable bad debts. Additional legislative changes are required to imple-
     ment the modifications that we recommended. The President’s FY 2008 budget proposes to
     eliminate Medicare bad debt payments for all providers over a 4-year period.

      Report(s): OAS-14-90-00339;        issued   06/90        OAS-05-02-00052;      issued   10/02
                 OAS-04-00-06005;        issued   12/01        OAS-04-02-02011;      issued   10/02
                 OAS-03-02-00002;        issued   06/02        OAS-06-02-00027;      issued   10/02
                 OAS-03-01-00022;        issued   07/02        OAS-01-02-00515;      issued   01/03
                 OAS-09-02-00057;        issued   07/02        OAS-02-02-01031;      issued   01/03
                 OAS-02-02-01016;        issued   09/02        OAS-04-02-02016;      issued   01/03
                 OAS-05-02-00039;        issued   10/02




14   Previous Monetary Recommendations
Medicare Hospitals

Recover Overpayments and Expand the Diagnosis-Related Group Payment Window

Background: Under the PPS for inpatient hospital services, Medicare fiscal intermediaries
reimburse hospitals a predetermined amount for inpatient services furnished to Medicare
beneficiaries depending on the illness and its classification under a DRG. Effective January 1,
1991, separate payments for nonphysician outpatient services (such as diagnostic tests and
laboratory tests) provided to a patient during the 3 days immediately preceding the patient’s
admission are not permitted under the OBRA of 1990, section 4003. Prior to that, separate
payments for nonphysician outpatient services provided before admission for an inpatient
stay were not permitted.

Finding: For the period November 1990 through December 1991, our review identified
approximately $83.5 million in admission-related nonphysician outpatient services rendered
4 to 7 days immediately before an inpatient admission. A subsequent review identified
$37 million in preadmission services provided to patients for 10 selected DRGs 4 to 14 days
prior to admission during calendar year (CY) 2000. Because the intent of the PPS has always
been to include related services under one prospective payment, it would seem appropriate
that the DRG payment window encompass a longer period.




                                                                                                      Recommendations
                                                                                                      Previous Monetary
Recommendation(s): CMS should propose legislation to expand the DRG payment window
to at least 7 days immediately before the day of admission.

 Savings:     Diagnostic services provided:                4 - 14 days $37.0 million**
              4 - 7 days $83.5 million*


*The savings estimate is based on nonphysician outpatient services rendered 4 to 7 days immediately
before an inpatient admission during the period November 1990 through December 1991.

**The savings estimate is based on the 10 selected DRGs associated with nonphysician outpatient
services rendered 4 to 14 days prior to inpatient admission during CY 2000.

Status: CMS concurred with our recommendation; however, CMS noted that some additional
factors would have to be considered before a legislative change could be advanced.

 Report(s): OAS-01-92-00521; issued 07/94                  OAS-01-02-00503; issued 08/03




Previous Monetary Recommendations                                                                     15
     Medicare Hospitals

     Adjust Base-Year Costs in the Prospective Payment System for Hospital Outpatient
     Department Services

     Background: The BBA of 1997 required CMS to develop a PPS for hospital outpatient
     department services. This legislation required CMS to use 1996 hospital claims data and the
     most recent available cost report data to develop the rates.

     Finding: We are concerned about the reliability of the claims and cost data that CMS used
     in the prospective payment rate calculations. Our prior audit work identified substantial
     unallowable costs in hospitals’ Medicare cost reports and several areas of payment improprieties
     in Medicare reimbursement for outpatient department services. Because the outpatient
     PPS is based on prior Medicare outpatient reimbursement, we believe that the payment rates
     may be inflated.

     Recommendation(s): CMS, in conjunction with OIG, should further examine the extent
     to which the base-period costs used in the outpatient prospective payment rate calculations
     included unallowable costs and improper payments. If this work reveals that excessive
     unallowable costs and improper payments were included in the calculations, appropriate
     adjustments should be made.

     Savings:     TBD


     Status: CMS agreed with our recommendations, but no additional analysis has been done to
     examine the adequacy of base-year costs.

      Report(s): OAS-14-98-00400; issued 11/98




16   Previous Monetary Recommendations
Medicare Hospitals

Establish More Consistent Outpatient Surgery Rates That Reflect Only Necessary
Costs

Background: The Medicare program covers hospital outpatient department services under
the Medicare Supplemental Medical Insurance Program. Medicare reimbursement for services
in these settings varies and has evolved over time. Hospital outpatient departments were
historically reimbursed for services using a facility fee based on the lesser of costs or charges.
In 1980, recognizing that some surgical procedures provided on an inpatient basis could be
safely performed in less intensive and less costly settings, Congress added coverage for services
provided in ambulatory surgical centers (ASC). In 2000, CMS implemented an outpatient
PPS for hospital outpatient services. Medicare regulations establish different reimbursement
rates for the same procedures performed in different settings (outpatient or ASC).

Finding: Our review of 424 ASC-approved procedure codes showed that Medicare paid an
estimated $1.1 billion more for services provided in settings with higher reimbursement in
2001. For similar procedures, CMS could have saved an estimated $1 billion if the lower
ASC rate had been used instead of the outpatient department rate. Likewise, CMS could
have saved $100 million if the lower outpatient department rate had been used instead of the




                                                                                                     Recommendations
                                                                                                     Previous Monetary
ASC rate. Additionally, if CMS had removed 72 procedure codes meeting the criteria for
removal from the ASC list, it could have saved almost $8 million.

Recommendation(s): CMS should (1) seek authority to set rates that are consistent across
sites and reflect only the costs necessary for the efficient delivery of health services and (2)
remove the procedure codes that meet its criteria for removal from the ASC list of covered
procedures.

 Savings:     *$1.1 billion


*In 2001, an additional $1.1 billion was paid by the Medicare program because of variations
between ASC and the Outpatient Department reimbursement rates for 424 ASC-approved
procedure codes.

Status: CMS agreed to consider seeking authority to set rates that are consistent across sites
as it develops its legislative program. The Medicare Prescription Drug, Improvement, and
Modernization Act of 2003 (MMA) requires CMS to implement a revised payment system
for ASCs beginning on or January 1, 2006, but not later than January 1, 2008.

On November 24, 2006, CMS issued a final rule (CMS-1506-FC) for Medicare payments for
hospital outpatient services in CY 2007 that implemented new steps to make payments more
accurate and to promote higher quality and value in outpatient care. The rule requires reporting
of quality measures in CY 2009. CMS also proposed a major revision of payments for ASCs
that would better align payments for surgical procedures in ASCs and hospital outpatient
departments. The proposed reforms are intended to address rapid growth in hospital
outpatient services.

 Report(s): OEI-09-88-01003; issued 05/89                OAS-14-98-00400; issued 11/98
            OAS-14-89-00221; issued 03/91                OEI-05-00-00340; issued 01/03



Previous Monetary Recommendations                                                                    17
     End Stage Renal Disease


     Limit Payment Under Method II for Continuous Cycling Peritoneal Dialysis to Method
     I Rates

     Background: The Omnibus Budget Reconciliation Act (OBRA) of 1989 amends the Social
     Security Act to limit payment for continuous cycling peritoneal dialysis under any method
     other than the composite rate (referred to as Method I) to no more than 130 percent of the
     composite rate. Under Method I, dialysis facilities receive a set payment for each dialysis
     treatment and related supplies. Alternately, under Method II, a beneficiary may elect to
     receive all dialysis supplies from a durable medical equipment (DME) supplier to perform
     self-dialysis. At 42 CFR § 414.330(c)(2), payment limits for continuous cycling peritoneal
     dialysis under Method II are established at 130 percent of the national median amount for
     hospital-based facilities.

     Finding: Medicare regulations for reimbursement for home dialysis are inconsistent.
     Medicare pays for two types of dialysis, hemodialysis and continuous ambulatory peritoneal
     dialysis, at the same rate, whether payment is made to a dialysis facility under Method I or to
     a DME supplier under Method II. A third type, continuous cycling peritoneal dialysis, is paid
     under Method I when payment is made to a dialysis facility. However, when the service is
     provided by a DME supplier, the supplier may bill under Method II, which permits payment
     up to 130 percent of the Method I rate. This 30-percent premium resulted in additional
     annual payments of $12.2 million for Medicare and $3.1 million for beneficiaries in CY 2000.

     Recommendation(s): CMS should change the regulation to limit payment for Method II
     continuous cycling peritoneal dialysis supplies to no more than the payment allowed under
     Method I.

      Savings:     *$15.3 million


     *This includes potential savings to Medicare and its beneficiaries if continuous cycling peritoneal
     dialysis kits for Method II were limited to the same payment rate used under Method I in 2000.

     Status: Believing that Congress intended that DME suppliers should have a higher payment
     limit, CMS does not concur with this recommendation. CMS has eliminated billing for kits
     under Method II and requires suppliers to itemize supplies, which are reimbursed based on
     reasonable charges up to a monthly payment limit.

      Report(s): OEI-07-01-00570; issued 5/03




18   Previous Monetary Recommendations
End Stage Renal Disease


Reduce Medicare End Stage Renal Disease Payment Rates

Background: The OBRA of 1981 established a PPS for outpatient dialysis treatments under
Medicare’s end stage renal disease (ESRD) program. To reimburse facilities for these treat-
ments, CMS pays a composite rate per treatment based on audited median costs. In FY 1989,
payments averaged $125.05 per treatment for freestanding facilities and $129.11 for hospitals.

Finding: Both 1985 and 1988 audited data justify a decrease in the payment rate. The 1985
data showed a median cost, including home dialysis costs, of $108.19 per treatment. Even
after considering the effect of home dialysis services, the in-facility costs decreased from
1980 to 1985 without a corresponding reduction in the prospective rates. In addition, our
audit of the 1988 home office costs of a major chain of freestanding facilities showed that its
costs decreased from $117 per treatment in 1980 to $89 in 1988. Because of the prominence
of this chain, these audited costs have a significant impact on the median cost of dialysis
treatments. We estimated that this chain was earning $36 per treatment, a 29-percent profit
margin for each treatment in 1988.




                                                                                                    Recommendations
                                                                                                    Previous Monetary
 Savings:     $45 million*


*This estimate, which is based on 2003 Medicare payments for dialysis treatments, represents
program savings of $45 million for each dollar reduction in the composite rate.

Recommendation(s): CMS should reduce the payment rates for outpatient dialysis
treatments to reflect current efficiencies and economies in the marketplace.

Status: CMS agreed that the composite payment rates should reflect the costs of outpatient
dialysis treatment in efficiently operated facilities, and the BBA of 1997 required the Secretary
of the Department of Health and Human Services to audit the cost reports of each dialysis
provider at least once every 3 years. The BBRA of 1999 increased each composite rate
payment for dialysis services furnished during 2000 by 1.2 percent above the payment for
services provided on December 31, 1999. The Benefits Improvement and Protection Act of
2000 increased the payment rate for services provided in 2001 by 2.4 percent and required
the Secretary to develop a composite rate that includes, to the maximum extent feasible,
payment for clinical diagnostic laboratory tests and drugs that are routinely used in dialysis
treatments but are currently separately billable by dialysis facilities. The MMA of 2003, Title
VI, section 623, increased the composite rate by 1.6 percent for 2005, restored the composite
rate exception for pediatric facilities, and required the Secretary to establish a basic case-mix
adjusted PPS for dialysis services. Once CMS has implemented a bundled PPS for ESRD
services, we will reexamine whether the payment rates for outpatient dialysis services reflect
current efficiencies and economies in the marketplace.

 Report(s): OAS-14-90-00215 Management Advisory Report; issued 7/90




Previous Monetary Recommendations                                                                   19
     Medicare Durable Medical Equipment

     Reduce the Medicare Reimbursement Amount for Category I Enteral Nutrition
     Formulas

     Background: Medicare covers enteral nutrition therapy, commonly called tube feeding, for
     beneficiaries who cannot swallow because of a permanent medical problem or an impairment
     of long and indefinite duration. Medicare Part B coverage of enteral nutrition therapy is
     provided under the prosthetic device benefit for beneficiaries residing at home or in a nursing
     facility when the stay is not covered by Medicare Part A.

     Medicare groups enteral nutrition formula products into seven classes based on their
     composition. Products falling within these classes are identified by one of seven Healthcare
     Common Procedure Codes for reimbursement purposes. A wide variety of enteral nutrition
     formulas are grouped under Category I (code B4150).

     Finding: We compared the amount Medicare reimburses for Category I enteral nutrition
     formulas with prices available to the supplier community in CY 2001. We found that the
     amount Medicare reimburses for Category I formulas exceeded median contract prices
     available to suppliers from the sources we reviewed by 70 to 115 percent. We estimate that if
     Medicare’s payment amount for these formulas had been set at the median of purchase prices
     reviewed, the program and its beneficiaries could have saved over $82 million in CY 2001.

     Recommendation(s): CMS should consider using the inherent reasonableness authority to
     reduce the Medicare reimbursement amount for Category I enteral nutrition formulas.

      Savings:    *$82 million


     *Estimated savings are based on the difference between Medicare reimbursement and median
     contract prices.

     Status: CMS concurred with our recommendation but must wait to initiate inherent
     reasonableness reviews until written procedures for conducting these reviews are developed
     according to statute and regulation. In accordance with the MMA of 2003, competitive
     acquisition of enteral nutrition will be phased in beginning of 2007.

      Report(s): OEI-03-94-00021; issued 4/96               OEI-03-02-00700; issued 2/04




20   Previous Monetary Recommendations
Medicare Durable Medical Equipment

Identify Medical Equipment/Supply Claims Lacking Valid, Active Unique Physician
Identification Numbers

Background: The OBRA of 1985 required CMS to establish unique physician identification
numbers for all physicians who provide services to Medicare beneficiaries. Medicare
requires that medical equipment and supplies be ordered by a physician or another
qualified practitioner.

Finding: Our review of 1999 claims identified $32 million in Medicare payments for claims
with invalid unique identification numbers (UPIN) listed for the ordering physicians.
Another $59 million was paid for claims with inactive identification numbers. A small
number of suppliers accounted for a substantial portion of these claims.

Recommendation(s): CMS should create claims-processing edits to identify medical
equipment and supply claims that do not have a valid and active physician identification
number listed for the ordering physician.




                                                                                                 Recommendations
                                                                                                 Previous Monetary
 Savings:    *$91 million


*Estimated savings based on allowed charges for claims with invalid or inactive UPINs in 1999.

Status: CMS concurred with our recommendation and implemented an edit to reject claims
listing a deceased physician’s identification number. CMS decided not to implement edits for
inactive and invalid physician identification numbers. Instead, the agency initiated provider
education efforts and issued two program memorandums.

 Report(s): OEI-03-01-00110; issued 11/01




Previous Monetary Recommendations                                                                21
     Medicare Durable Medical Equipment


     Prevent Medicare Losses Resulting From Early Payments for Medical Equipment

     Background: Medicare covers DME, prosthetics, orthotics, and supplies under Medicare
     Part B. Medicare allowed approximately $6 billion for these claims in 1998.

     Finding: We found that Medicare could have earned an additional $7.2 million in interest on
     1998 payments for claims that were billed before the end of the service period. Only four of
     seven insurers surveyed did not pay for services before the service period was completed.

     Recommendation(s): CMS should not pay for DME, prosthetics, orthotics, and supply
     claims before the service period has been completed.

      Savings:     *$7.2 million


     *Estimated savings are based on the difference in interest earned between Medicare payments made
     at the end of the service period as opposed to payments made prior to the service completed in 1998.

     Status: CMS did not concur with our recommendation and stated that delaying payment of
     DME, prosthetics, orthotics, and supply claims until the end of the service period would not
     be a desirable practice.

      Report(s): OEI-03-99-00620; issued 6/00




22   Previous Monetary Recommendations
Medicare Reimbursement


Ensure Appropriate Medicare Reimbursement to Ambulatory Surgical Centers for
Intraocular Lenses

Background: Section 1833(i)(2)(A)(iii) of the Social Security Act requires that Medicare pay-
ment to ASCs for intraocular lenses (IOL) be “reasonable and related to the cost of acquiring
the class of lens involved.” The OBRA of 1993 set the price of $150 per lens for the period
from 1994 through 1998. The payment rate has remained unchanged, despite 1994 cost data
suggesting that it substantially exceeds the cost of the IOLs. The MMA of 2003 requires CMS
to implement revised payment systems for ASCs to be effective no later than January 1, 2008.

Finding: Payment at the time of the evaluation was set at $150 per lens for all types of lenses
except for certain “new technology intraocular lenses.” We found that in 2002, although the
average cost of a lens was $90.30, this varied significantly by the type of material used to
make the lens. The cost of soft acrylic lenses averaged $124.77, silicone lenses averaged
$69.37, and polymethyl methacrylate averaged $39.10.

Recommendation(s): We recommended that CMS reduce Medicare payment to ASCs for
IOLs in a manner that takes into account the different types and costs of intraocular lenses.




                                                                                                  Recommendations
                                                                                                  Previous Monetary
Savings:     *$34.8 million


*This estimated savings could have been achieved in 2002 if CMS had reduced Medicare payments
to ASCs for IOLs to the weighted 90th percentile for each lens type.

Status: CMS is deferring action to reduce Medicare payment for IOLs until it can implement
section 626 of the MMA, which requires implementation of a revised system of payment for
ASC services by January 1, 2008.

Report(s): OEI-06-02-00710; issued 03/04




Previous Monetary Recommendations                                                                 23
     Medicare Reimbursement

     Reinstate the Beneficiary Coinsurance and Deductible Provisions for Laboratory Services

     Background: Medicare pays for most clinical laboratory tests based on fee schedules. These
     schedules, effective July 1, 1984, generally were established by each carrier at 60 percent of
     the Medicare prevailing charge (the charge most frequently used by all suppliers). Over the
     years, the Medicare fee schedule has gone through several adjustments. The OBRA of 1993
     reduced the cap for the Medicare clinical laboratory fee schedule from 84 percent beginning
     in 1994 to 76 percent by 1996. The BBA of 1997 reduced fee schedule payments by lowering
     the cap to 74 percent of the median for payment amounts beginning in 1998, but the Benefits
     Improvement and Protection Act of 2000 raised the fee schedule amounts to 100 percent of
     the median for “new tests” performed on or after January 1, 2001. Also, no inflation update was
     permitted between 1998 and 2002. The MMA of 2003 mandated that the annual adjustment
     to the clinical laboratory fee schedule for 2004 through 2008 be 0 percent.

     Finding: Our 1996 follow-up report found that, generally, Medicare continued to pay clinical
     laboratories more than physicians pay for the same tests. Our previous work indicated that
     the clinical laboratories marketed customized panels to physicians at less than what Medicare
     paid for the same tests. This contributed to a significant increase in the use of laboratory
     services. Because of the potential for overutilization and the fact that beneficiaries are not
     always aware of the tests being performed, we believe that CMS should reconsider our
     recommendation to study the reinstatement of beneficiary coinsurance and deductible
     provisions for laboratory services.

     Recommendation(s): We have continually recommended that CMS (1) review payment
     levels for laboratory services and (2) reinstate the beneficiary coinsurance and deductible
     provisions for laboratory services as a means of controlling utilization.

      Savings:     Copayment                                 *$1.25 billion
                   Fee Schedule Adjustment                   TBD

     *The savings estimate is based on the 20-percent copay applied to FY 2005 Medicare payments for
     clinical laboratory services totaling $6.28 billion.

     Status: Although legislation is reducing prices on individual tests, we continue to recommend
     that payments for laboratory services be evaluated. CMS has taken corrective actions to
     reduce payments for laboratory services. A proposal to reduce payment updates from FYs
     2003 through 2005 was included in the President’s FY 2001 budget, as was a proposal to
     reinstate laboratory cost sharing. Neither of these proposals was enacted. In addition, the
     BBA of 1997 required the Secretary of the Department of Health and Human Services to
     request that the Institute of Medicine conduct a study of Part B laboratory test payments.
     As a result of the Institute of Medicine’s recommendations, the MMA of 2003 mandated
     that CMS conduct a demonstration that applies competitive bidding to clinical laboratory
     services. CMS awarded a task order contract in September 2004 for the design and operation
     of the demonstration. The initial report to Congress on the demonstration was submitted in
     December 2005. The MMA of 2003 also set the laboratory fee schedule updates at
     0 percent for 2004 through 2008. The competitive bidding demonstration for independent
     clinical laboratory services was scheduled to begin April 2007 in one geographic area.

      Report(s): OAS-09-89-00031; issued 01/90               OAS-09-93-00056; issued 01/96

24   Previous Monetary Recommendations
Medicare Reimbursement

Require Physician Examination Before Ordering Home Health Services

Background: Section 1861 of the Social Security Act authorized Medicare payments for
home health services. Since October 1, 2000, home health agencies have been reimbursed
under a PPS.

Finding: Audits and investigations have identified medically unnecessary care and
inappropriate or fraudulent billing by specific home health agencies. We have conducted
other studies that describe extreme variations and broad patterns of billing by these agencies,
which raise questions about the appropriateness of some billings. We, therefore, find that it
is necessary to place systematic controls on the home health benefit to prevent abuse.

Recommendation: CMS should revise Medicare regulations to require that physicians
examine patients before ordering home health care. As discussed under “Status,” other
recommendations to correct abusive and wasteful practices are being addressed.

Savings:     TBD




                                                                                                  Recommendations
                                                                                                  Previous Monetary
Status: Although the BBA of 1997 included provisions to restructure home health benefits,
CMS still needs to revise regulations to require that physicians examine Medicare patients
before ordering home health services. After the enactment of the BBA of 1997, our four-
State review found that unallowable services continued to be provided because of inadequate
physician involvement. Although agreeing in principle, CMS said that it would continue to
examine both coverage rules and conditions of participation to develop the discipline
necessary for ensuring proper certification. CMS also provided additional payments for
physician care plan oversight and education for physicians and beneficiaries.

 Report(s): OAS-04-94-02078; issued 02/95               OAS-04-95-01107;     issued   09/96
            OEI-12-94-00180; issued 05/95               OAS-03-95-00011;     issued   11/96
            OEI-02-94-00170; issued 06/95               OAS-04-96-02121;     issued   07/97
            OAS-04-94-02087; issued 06/95               OAS-02-97-01026;     issued   09/97
            OEI-04-93-00260; issued 07/95               OAS-04-97-01166;     issued   04/99
            OEI-04-93-00262; issued 09/95               OAS-04-97-01170;     issued   04/99
            OAS-04-95-01103; issued 03/96               OAS-02-97-01034;     issued   09/99
            OAS-04-95-01106; issued 03/96               OAS-04-98-01184;     issued   09/99
            OAS-04-95-01104; issued 06/96               OAS-04-99-01194;     issued   11/99
            OAS-04-95-01105; issued 09/96               OAS-04-99-01195;     issued   03/01




Previous Monetary Recommendations                                                                 25
     Medicare Reimbursement

     Ensure the Medical Necessity of Ambulance Claims

     Background: Medicare-covered ambulance transport must be reasonable and medically
     necessary. Medicare covers and pays for emergency and nonemergency ambulance transports
     only when a beneficiary’s medical condition, at the time of transport, is such that other
     means for transportation, such as taxi, private car, wheelchair van, or other type of vehicle,
     would endanger the beneficiary’s health. The beneficiary’s medical condition must require
     both the ambulance transportation itself and the level of service provided for the billed
     service to be considered medically necessary. That is, the transport must be provided to
     reach a Medicare-covered service facility or to return from such a service facility.

     Finding: We conducted this study as a followup to previous work that identified high
     payment error rates for ambulance transports. This study indicated that 25 percent of
     ambulance transports did not meet Medicare’s program requirements, resulting in an
     estimated $402 million of improper payments in CY 2002.

     Recommendation(s): CMS should implement program integrity activities designed to reduce
     improper payments for ambulance transports at greatest risk of error.

     Savings:     *$402 million


     *In CY 2002, Medicare paid an estimated $402 million for improper payments for ambulance
     transports that did not meet Medicare program requirements based on a sample of Medicare claims.

     Status: CMS concurred with our recommendation. CMS indicated that it will advise all
     contractors to consider implementing prepayment edits for trips with an origin or destination
     modifier for a dialysis facility, as well as nonemergency transports to and from a hospital,
     nursing home, or physician’s office. In addition, CMS will encourage contractors to consider
     obtaining documentation from ambulance suppliers and third party providers to determine
     that ambulance transports meet program requirements on postpayment review and educating
     suppliers and third party providers who initiate ambulance transports about the appropriate
     use of Medicare’s nonemergency ambulance transport benefit.

     Report(s): OEI-09-95-00412; issued 12/98                OEI-05-02-00590; issued 01/06




26   Previous Monetary Recommendations
Medicare Reimbursement

Recover Overpayments and Prevent Inappropriate Medicare Part B Payments for Nail
Debridement and Related Services

Background: Podiatry services, including nail debridement, performed within the scope of
applicable State licenses are generally reimbursable under the Medicare program.

Finding: Based on our medical review of CY 2000 claims, we estimated that
$51.2 million was inappropriately paid for nail debridement services. Over half of these nail
debridement claims contained related podiatry services. When a nail debridement service is
determined to be inappropriate, all podiatry payments for related services are also inappropriate.
Medicare paid $45.6 million for such related services.

Recommendation(s): CMS should (1) require Medicare carriers to recoup the overpayments
found in our sample and to carefully scrutinize payments for nail debridement services
through medical reviews, (2) require podiatrists to adequately document the medical necessity
of all nail debridement services, and (3) require CMS Regional Offices and carriers to educate
podiatrists on Medicare payment policies for nail debridement claims.




                                                                                                     Recommendations
                                                                                                     Previous Monetary
 Savings:    *$96.8 million


*In CY 2000, Medicare inappropriately paid $96.8 million for nail debridement and related
podiatry services based on a projection from a sample of claims.

Status: CMS concurred with our recommendations. CMS indicated that they will continue
to maximize the effectiveness of its medical review strategy and collect the overpayments
identified in our sample. CMS prepared a provider education article to educate podiatrists on
Medicare policy for paying nail debridement claims.

 Report(s): OEI-04-99-00460; issued 06/02




Previous Monetary Recommendations                                                                    27
     Medicare Reimbursement

     Ensure Appropriateness of Medicare Payments for Mental Health Services

     Background: Section 1862(a)(1)(A) of the Social Security Act requires all services, including
     mental health services, to be reasonable and necessary for the diagnosis or treatment of an
     illness or injury or to improve the functioning of a malformed body member.

     Finding: We estimated that claim error rates for mental health services have exceeded
     34 percent, suggesting widespread problems across a variety of provider types and care settings.
     Billing abuses involving beneficiaries who are unable to benefit from psychotherapy demonstrate
     a special need for enhanced program and beneficiary protections. Also, beneficiaries with
     mental illness sometimes do not receive all the services that they need, so that both
     underutilization and overutilization problems exist.

     “Partial hospitalization” services, which may be provided by both hospitals and community
     mental health centers, have been particularly troublesome. These intensive services are
     designed to reduce the need for hospitalization of beneficiaries with serious mental illness.
     We estimated that payment error rates for partial hospitalization in community mental health
     centers were as high as 92 percent. A number of these centers were terminated from the
     program after CMS determined that they did not meet certification requirements. Reviews of
     outpatient psychiatric services provided by both acute care and specialty psychiatric hospitals
     also revealed high payment error rates, particularly relating to partial hospitalization services.

     Recommendation(s): CMS should ensure that mental health services are medically
     necessary and reasonable; accurately billed; and ordered by an authorized practitioner by
     using a comprehensive program of targeted medical reviews, provider education, improved
     documentation requirements, and increased surveillance.

      Savings:     *$725 million


     *This figure includes $224 million for acute hospital outpatient service in 1997, $229 million
     in improper payments for partial hospitalization in community mental health centers in 1997,
     $57 million in improper payments for psychiatric hospital outpatient services in 1998, $30 million
     in improper payments for nursing home services in 1999, and $185 million in improper payments
     for other mental health services in 1998.

     Status: Concurring with the individual reports, CMS has initiated some efforts, particularly
     regarding community mental health centers, such as conducting site visits and terminating
     noncompliant providers from the Medicare program. Our work indicates that problems
     continue at community mental health centers.

      Report(s): OAS-04-98-02145; issued 10/98                OEI-03-99-00130; issued 05/01
                 OAS-01-99-00507; issued 03/00                OAS-06-04-00076; issued 03/06
                 OAS-01-99-00530; issued 12/00                OAS-04-04-02003; issued 04/06
                 OEI-02-99-00140; issued 01/01




28   Previous Monetary Recommendations
Medicare Managed Care

Modify Payments to Managed Care Organizations

Background: The BBA of 1997 established the Medicare+Choice (M+C) program with the
primary goal of providing a wider range of health plan choices to Medicare beneficiaries.
The Act also modified the payment methodology under the program to correct excess
payments, reduce geographic variations in payments, and align payments to reflect beneficiaries’
health status. The MMA of 2003 redesignated the M+C program as Medicare Advantage
(MA) and increased payments.

Finding: Based on numerous OIG reviews, studies by other agencies, and MA organization
data, we concluded that MA organizations receive more than adequate funds to deliver the
Medicare package of covered services. The basis used to calculate monthly capitation
payments to MA organizations was flawed, resulting in higher-than-necessary payments.
Medicare payments funded excessive administrative costs, and MA organizations did not
account for investment income earned on Medicare funds.

Another contributing factor to the flaw in the 1997 managed care base rates is the inclusion
of improper payments made in the Medicare fee-for-service (FFS) expenditures as identified




                                                                                                    Recommendations
                                                                                                    Previous Monetary
in OIG’s review of Medicare’s 1996 and 1997 financial statements. Because the standardized
county rates for 1997 were calculated using 1996 base FFS expenditure data, the overpayment
errors carried over the 1997 managed care rates. We estimated the 1996 error rate to be
about 14 percent of the total FFS benefit payments.

Recommendation(s): CMS should modify monthly capitation rates to a level fully supported
by empirical data.

 Savings:     *$1.97 billion


*Estimated savings are based on the 3.077-percent overstatement of 1997 base rates applied to the
2006 managed care payments.

Status: Subsequent to the BBA of 1997, the BBRA of 1999 increased payments to MA
organizations. We still have concerns that the Federal payment to MA organizations is
excessive because the 1997 base rate was flawed. We will be updating our work to examine
MA organization payments as a result of all legislative changes.

 Report(s): OAS-14-00-00212; issued 9/00




Previous Monetary Recommendations                                                                   29
     Medicare Managed Care


     Place a Ceiling on Administrative Costs Included in Managed Care Organizations’
     Rate Proposals

     Background: Each MA organization is required to submit a bid proposal (formerly adjusted
     community rate proposals) to CMS before the beginning of the contract period. Administrative
     costs, which are one component of the proposal, include costs associated with facilities,
     marketing, taxes, depreciation, reinsurance, interest, and other nonmedical compensation.
     CMS does not require a reasonable percentage or ceiling on the administrative cost rate
     proposed, as it does in other areas of the Medicare program.

     Finding: As a percentage of the total rate proposed, the administrative rate varied widely
     among MA organizations reviewed, regardless of the type of MA organization (individual
     practice association, group, or staff) or the tax status (profit or nonprofit). For the 1999 rate
     proposals, the amount allocated for administrative purposes ranged from a high of 32 percent
     to a low of 3 percent. In addition, our reviews of the administrative costs included in the
     1997 proposals submitted by nine MA organizations found that $66.3 million of the actual
     administrative costs incurred would have been recommended for disallowance had they been
     required to follow Medicare’s general principle of paying only reasonable costs. In a subsequent
     review of 10 MA organizations’ proposals for 2000, we found that $97.1 million in base-year
     administrative costs would have been recommended for disallowance had the MA organizations
     been required to follow Medicare’s general principle of paying only reasonable costs.

     Recommendation(s): CMS should institute a reasonable ceiling on the administrative costs
     permitted in an MA organization proposal.

      Savings:    TBD


     Status: CMS did not agree with our recommendation to institute a ceiling on the administrative
     costs included in MA organizations’ proposals. We will be updating our work to examine
     administrative costs under provisions of the MMA of 2003.

      Report(s): OAS-14-98-00210; issued 1/00                OAS-03-01-00017; issued 11/01
                 OAS-03-98-00046; issued 1/00




30   Previous Monetary Recommendations
Medicaid Reimbursement


Limit Upper Payment Limit Payments to Cost and Require That Medicaid Payments
Returned by Public Providers are Used To Offset the Federal Share

Background: Under Medicaid upper payment limit (UPL) rules, States are permitted to
establish payment methodologies that allow for enhanced payments to non-State-owned
government providers, such as county nursing facilities and hospitals. The enhanced
payments, which trigger Federal matching payments, are in addition to the basic payment
rates for Medicaid providers.

Finding: Enhanced payments to local-government-owned providers were not based on the
actual cost of providing services to Medicaid beneficiaries. In addition, a large portion of
the enhanced payments were not retained by the health care facilities to provide services to
resident Medicaid beneficiaries. Instead, some funds were transferred back to the States for
other uses.

Recommendation(s): We recommended that CMS provide States with definitive guidance
in calculating the upper payment limit, which should include using facility-specific upper
payment limits that are based on actual cost report data. We also recommended that CMS




                                                                                                      Recommendations
                                                                                                      Previous Monetary
require that the return of Medicaid payments by a county or local government to the State be
declared a refund of those payments and thus be used to offset the Federal share generated
by the original payment.

 Savings:     *$120 million


*In its January 2007 Notice of Proposed Rulemaking, CMS estimated that if payments to providers
operated by units of government were limited to cost and payments returned by providers were
considered refunds, Federal Medicaid outlays would be reduced by $120 million in the first year
and rise to $1.2 billion in the fifth year. CMS estimated in total that the final rule would result
in a reduction of Federal Medicaid outlays of $3.87 billion over 5 years.

Status: In a Notice of Proposed Rulemaking issued in January 2007, CMS proposed to
limit reimbursement for health care providers that are operated by units of government
to an amount that does not exceed the provider’s costs and to require providers to receive
and retain the full amount of total computable payments for services furnished under the
approved State plan.

 Report(s): OAS-03-00-00203;        issued   02/01        OAS-04-00-02165;     issued   03/01
            OAS-07-00-02076;        issued   02/01        OAS-04-00-02169;     issued   05/01
            OAS-05-00-00056;        issued   03/01        OAS-04-00-00140;     issued   06/01
            OAS-10-00-00011;        issued   03/01        OAS-03-00-00216;     issued   09/01




Previous Monetary Recommendations                                                                     31
     Medicaid Reimbursement

     Ensure Compliance With Requirements for Medicaid School-Based Health Services

     Background: Section 1903(c) of the Social Security Act (the Act) was amended in 1988 to
     make clear that Medicaid payment was allowable for covered Medicaid services that are
     included in an individualized education plan or individualized family service plan, as required
     by the Individuals With Disabilities Education Act (IDEA). Otherwise covered Medicaid
     services include early and periodic screening diagnosis and treatment services that meet
     Medicaid requirements and may also be required under IDEA.

     Finding: Our reviews identified Medicaid overpayments for school-based health services.
     The Federal share of the overpayments totaled an estimated $800 million. Many of the
     services claimed lacked a referral by an appropriate medical professional or were not provided
     by or under the direction of a qualified speech-language pathologist. These unallowable
     claims generally occurred because States did not provide sufficient guidance to and oversight
     of local education agencies, and rates were not developed in accordance with applicable
     Federal cost allocation requirements or CMS program guidelines.

     Recommendation(s): CMS should recover the overpayments identified during our audits of
     school-based claims in individual States. In addition, States should disseminate CMS guidance
     and other information to the local education agencies in a timely manner, monitor local
     education agencies to ensure compliance with Federal and State requirements, and assist the
     local education agencies in developing written policies and procedures that require service
     providers to document all health services and to retain those records for review.

     Savings:     TBD


     Status: CMS has begun taking action in individual States to recover overpayments. CMS has
     recently undertaken a significant effort to bring State plans into compliance with Federal law,
     regulations, and policy in the coverage areas that pertain to Medicaid services delivered in
     school settings. The President’s FY 2007 budget proposes to prohibit Federal Medicaid
     reimbursement for school-based administrative or transportation costs.

      Report(s): OAS-04-00-02161;        issued   11/01      OAS-05-02-00049;     issued   12/03
                 OAS-06-01-00077;        issued   10/02      OAS-06-02-00037;     issued   01/04
                 OAS-10-01-00011;        issued   05/02      OAS-07-02-02099;     issued   02/04
                 OAS-01-01-00006;        issued   06/02      OAS-01-02-00014;     issued   02/04
                 OAS-10-01-00006;        issued   08/02      OAS-04-01-00005;     issued   05/04
                 OAS-02-02-01018;        issued   12/02      OAS-02-03-01008;     issued   08/04
                 OAS-05-02-00023;        issued   03/03      OAS-01-02-00016;     issued   09/04
                 OAS-03-01-00224;        issued   03/03      OAS-01-03-00004;     issued   01/05
                 OAS-02-02-01022;        issued   04/03      OAS-01-04-00004;     issued   01/05
                 OAS-06-01-00083;        issued   04/03      OAS-07-03-00154;     issued   04/05
                 OAS-01-02-00006;        issued   05/03      OAS-02-02-01029;     issued   06/05
                 OAS-01-02-00009;        issued   07/03      OAS-05-02-00050;     issued   08/05
                 OAS-10-02-00008;        issued   07/03




32   Previous Monetary Recommendations
Medicaid Reimbursement

Address and Resolve Excessive Medicaid Disproportionate Share Hospital Payments

Background: Section 1923 of the Social Security Act (the Act), as amended by the OBRA
of 1993, requires that States make Medicaid disproportionate share hospital (DSH) payments
to hospitals that serve disproportionate numbers of low-income patients with special needs.
Section 1923(g) of the Act limits these payments to a hospital’s uncompensated care costs,
which are the annual costs incurred to provide services to Medicaid and uninsured patients
less payments received for those patients.

Finding: Nine of the ten States reviewed did not comply with the hospital-specific DSH
limits imposed by section 1923(g) of the Act. As a result, payments exceeded the hospital-
specific limits by about $1.6 billion ($902 million Federal share). About $679 million of the
$902 million was based on historical costs. States did not later adjust the payments using
actual costs. States also made about $223 million in excess payments because they included
unallowable costs in their calculations of hospital-specific limits. In addition, three States
required hospitals to return DSH payments totaling approximately $3.6 billion through
intergovernmental transfers.




                                                                                                  Recommendations
                                                                                                  Previous Monetary
Recommendation(s): CMS should ensure resolution of the monetary recommendations to
individual States regarding DSH payments that exceeded the hospital-specific limits. CMS
should establish regulations requiring States to (1) implement procedures to ensure that future
DSH payments are adjusted to actual incurred costs, (2) incorporate these procedures into
their approved State plans, and (3) include only allowable costs as uncompensated care costs
in their DSH calculations. CMS should strengthen its review and approval of State plans to
ensure consistency with Federal requirements and use results of audits conducted under the
MMA in its review process.

Savings:     TBD


Status: CMS agreed with our recommendations and is recovering overpayments from
individual States and developing a DSH program regulation. CMS has received comments
on a draft regulation and is currently working on issuing the final regulation.

 Report(s): OAS-06-03-00031; issued 03/06




Previous Monetary Recommendations                                                                 33
     Medicaid Reimbursement

     Eliminate or Reduce Transition Periods for Compliance With Revised Medicaid Upper
     Payment Limits

     Background: In a final rule published in January 2001, CMS revised the Medicaid UPL
     regulations to provide for three separate aggregate upper limits?one each for private, State,
     and non-State-government-owned facilities. The regulation included 5- and 8-year transition
     periods for States with approved rate enhancement State plan amendments. The applicable
     transition period depended on the effective date of these amendments.

     Finding: We believe that the transition periods included in the regulations are longer than
     needed for States to adjust their financial operations in response to the new UPLs.

     Recommendation(s): CMS should seek authority to eliminate or reduce the 8-year transition
     period included in the revised upper payment limit regulations.

      Savings:    TBD


     Status: CMS did not concur with our recommendation. According to CMS, the transition
     periods were established pursuant to either notice-and-comment rulemaking or legislation and
     offering new proposals at this time would undermine the consensus reached through those
     processes. CMS anticipates no further action on our recommendation. Five States remain
     with transition periods through September 1, 2008.

      Report(s): OAS-03-00-00216; issued 09/01




34   Previous Monetary Recommendations
Medicaid Reimbursement

Require That Medicaid Reimbursement for Brand-Name Drugs Accurately Reflects
Pharmacy Acquisition Costs

Background: Most States use the average wholesale price (AWP) minus a percentage
discount, which varies by State, as a basis for reimbursing pharmacies for drug prescriptions.
We estimated the actual acquisition cost for 200 brand name drugs with the greatest amount
of Medicaid reimbursement for CY 1999.

Finding: State pharmacy reimbursement formulas discount below the AWP averaged
10.31 percent nationally in 1999. We believe that this discount is not sufficient to ensure
that a reasonable price is paid for drugs. Our review, based on CY 1999 data, estimated that
the actual acquisition cost for brand-name drugs was an average of 21.84 percent below
the AWP, an increase of 19.3 percent over our previous estimate based on CY 1994 data.
We estimated that the Medicaid program could have saved as much as $1.08 billion if
reimbursement had been based on a 21.84-percent average discount below the AWP.
This projection was based on the 200 brand-name drugs with the greatest amount of
Medicaid reimbursement for CY 1999.




                                                                                                 Recommendations
                                                                                                 Previous Monetary
Recommendation(s): CMS should encourage the States to bring pharmacy reimbursement
more in line with the actual acquisition cost of brand-name drugs being realized by pharmacies
in their States. We recommended a four-tier approach to reimbursement as follows:
single-source innovator drugs, multiple-source innovator drugs without Federal upper
payment limits (FUL), multiple-source noninnovator drugs without FULs, and multiple-source
drugs with FULs.

 Savings:    *$1.08 billion

*Estimated savings are based on a 21.84-percent average discount below AWP for the 200 brand
name drugs with the greatest amount of Medicaid reimbursement for CY 1999.

Status: CMS concurred with our recommendation and is working with States to review their
estimates of acquisition costs in light of our findings. In addition, the President’s FY 2006
budget proposed a legislative change that would limit the Federal reimbursement to States for
Medicaid pharmacy payments to the amount that a State would have paid, in the aggregate,
for covered outpatient drugs based on the manufacturers’ average sales price (ASP). The
proposal was not included in the President’s FY 2007 budget. We will continue to monitor
the pricing of Medicaid drug reimbursements for brand-name drugs.

 Report(s): OAS-06-00-00023; issued 08/01              OAS-06-02-00041; issued 09/02




Previous Monetary Recommendations                                                                35
     Medicaid Reimbursement

     Require That Medicaid Reimbursement for Generic Drugs Accurately Reflects
     Pharmacy Acquisition Costs

     Background: Most States use the AWP minus a percentage discount, which varies by State,
     as a basis for reimbursing pharmacies for drug prescriptions. We estimated the actual
     acquisition cost for 200 generic drugs with the greatest amount of Medicaid reimbursement
     for CY 1999.

     Finding: State pharmacy reimbursement formulas discount below the AWP averaged
     10.31 percent nationally in 1999. We believe that this discount is not sufficient to ensure that
     a reasonable price is paid for drugs. Our review, based on calendar year 1999 data, estimated
     that the actual acquisition cost for generic drugs was an average of 65.93 percent below the
     AWP, an increase of more than 55 percent from our previous estimate, based on CY 1994
     data. We estimated, that changing the reimbursement policy consistent with our findings
     could have saved the Medicaid program as much as $470 million for the 200 generic drugs
     with the greatest amount of Medicaid reimbursement for CY 1999.

     Recommendation: CMS should encourage the States to bring pharmacy reimbursement
     more in line with the actual acquisition cost of generic drugs being realized by pharmacies
     in their States. We recommended a four-tier approach to reimbursement as follows: single-
     source innovator drugs, multiple-source innovator drugs without FULs, multiple-source
     noninnovator drugs without FULs, and multiple-source drugs with FULs.

     Savings:     *$470 million


     *Estimated savings are based on the 200 generic drugs with the greatest amount of Medicaid
     reimbursement for CY 1999.

     Status: CMS concurred with our recommendation. The agency is working with States to
     strongly encourage them to review their estimates of acquisition costs and will follow up to
     ensure that they take our findings into account.

     The DRA changes the Medicaid reimbursement rate for drugs to make payments more accurate.
     For generic drugs, the Federal Government will set a FUL on Medicaid drug payment that is
     equal to 250 percent of the lowest AMP for a generic version of a drug. The FY 2007
     President’s budget proposes to build on the DRA changes to the FUL for multiple-source
     drugs. The budget proposes to limit reimbursement for multiple-source drugs to 150 percent
     of the AMP. We will continue to monitor the pricing of Medicaid drug reimbursements for
     generic drugs.

      Report(s): OAS-06-01-00053; issued 03/02               OAS-06-02-00041; issued 09/02




36   Previous Monetary Recommendations
Medicaid Reimbursement

Add Qualified Drugs to the Medicaid Federal Upper Limit List

Background: Pursuant to 42 CFR § 447.332, CMS is required to establish FULs to reduce
the amount that Medicaid reimburses for multiple-source drugs. Prior to 2007, these
regulations set the FUL amount at 150 percent of the published price for the least costly
therapeutically equivalent product that can be purchased in quantities of 100 tablets or
capsules plus a reasonable dispensing fee. If the drug product is not available in quantities
of 100 or if the drug is a liquid, then the FUL amount should be based on a commonly
listed size. The regulations further instruct CMS to include a drug on the FUL list if the
FDA rates at least three versions of the drug as therapeutically equivalent and the drug has at
least three suppliers listed in national compendia. The DRA provides, as of January 1, 2007,
that FULs apply to multiple source drugs for which FDA has rated two or more products to
be therapeutically and pharmaceutically equivalent and the FUL amount is based on 250
percent of the lowest average manufacturer price of the drug.

Finding: We found that 90 drug products that met the established criteria were not included
on the FUL list in 2001. If 55 of these drug products had been included on the FUL list, the
Medicaid program could have saved about $123 million in 2001. We also found that CMS




                                                                                                     Recommendations
                                                                                                     Previous Monetary
does not consistently add qualified drugs to the FUL list in a timely manner. Of the 252
first-time multiple-source drugs approved between January 2001 and December 2003, 109
products met the statutory and regulatory criteria for inclusion. However, only 25 were
actually added. We estimated that Medicaid lost $167 million between 2001 and 2003 because
qualified drugs were not added to the FUL list in a timely manner.

Recommendation(s): CMS should take steps to ensure that all drugs meeting the criteria set
forth in Federal laws and regulations are included on the FUL list and establish an administrative
procedure and schedule to govern the determination and publication of FULs.

 Savings:     *TBD


*This represents potential Medicaid savings of $123 million for drug products that met the
established criteria but were not included on the FUL list in CY 2001. Qualified drugs that were
not added to the FUL list in a timely manner could have resulted in an additional $167 million
in potential savings between CY 2001 and 2003. The calculations were based on the difference
between the potential FUL amount and the average Medicaid reimbursement amount.

Status: CMS did not concur with our finding that 90 drug products that met the established
criteria were not included on the FUL list in 2001. They stated that our work did not follow
the same procedures CMS uses when establishing the FUL and included drugs for which a
FUL is irrelevant (i.e., the FUL exceeds the AWP). Effective January 1, 2007, the DRA sets
the FUL on Medicaid drug payment at 250 percent of the lowest AMP for a multiple-source
version of a drug and changes the criteria for drugs added to the FUL. CMS added 9 of the
90 products in the report (7 of 9 products accounted for $94 million of the $123 million in
savings we calculated for 2001). Of the nine products added, CMS added four in August
2003, one in March 2004, and the remaining four in June 2004.




Previous Monetary Recommendations                                                                    37
     Medicaid Reimbursement


     Add Qualified Drugs to the Medicaid Federal Upper Limit List (continued)

     CMS concurred with the intent of our recommendation to establish an administrative proce-
     dure and schedule to govern the determination and publication of FULs and has taken steps
     to support this objective. However, CMS did not concur with our methodology in performing
     this review and savings estimates. At a meeting for a follow-up study, CMS explained that it
     was looking into ways to better identify products that were qualified for the FUL. This
     includes subscribing to an electronic database that identified drugs that are no longer subject
     to patents, allowing CMS to anticipate when drugs would qualify.

      Report(s): OEI-03-02-00670; issued 02/04               OEI-03-04-00320; issued 12/04




38   Previous Monetary Recommendations
Medicaid Drug Rebates

Establish Connection Between the Calculation of Medicaid Drug Rebates and Drug
Reimbursement

Background: The OBRA of 1990 authorized States to collect rebates from drug manufacturers
for drug purchases made under the Medicaid program. Rebates are calculated using the
AMP, the manufacturer’s best price, and other factors. In contrast, most States reimburse
pharmacies for Medicaid prescription drugs based on the AWP of the drug. We calculated
the rebates for the 100 brand-name drugs that had the greatest amount of Medicaid
reimbursement for 1994 through 1996 using the AWP instead of the AMP.

Finding: Requiring manufacturers to pay Medicaid drug rebates using the same basis as
reimbursements made to pharmacies would (1) eliminate inconsistencies in the present
methods used by drug manufacturers to calculate AMPs; (2) establish a much-needed
connection between the calculation of Medicaid drug rebates and the calculation of
Medicaid reimbursement for drugs at the pharmacy level; and (3) reduce the burden of
administering the Medicaid drug rebate program at the Federal, State, and manufacturer levels.

Recommendation(s): CMS should seek legislation that would require Medicaid drug rebates




                                                                                                 Recommendations
                                                                                                 Previous Monetary
and reimbursements to be developed using the same basis or study viable alternatives to the
current program.

 Savings:     *100 brand-name drugs                    $1.15 billion
              All Drugs                                TBD


*Basing Medicaid rebates on the AWP rather than the AWP would have resulted in about
$1.15 billion in added rebates for CYs 1994 through 1996 for 100 brand-name drugs that had
the greatest amount of Medicaid reimbursement in these years.

Status: CMS agreed to pursue a change in the Medicaid drug rebate program similar to that
recommended. In accordance with the DRA of 2005, CMS provides the States with sales-
based sources of drug-pricing information that were not previously available for States’ use.
Beginning in July 2006, CMS provides States with AMP data on a monthly basis. However,
the DRA does not require States to use AMP data to revise their current reimbursement
formulas. In the future, States may start using AMP for reimbursement purposes. If they
do, this may establish a connection between reimbursement and rebates. We will continue
to monitor the issue.

 Report(s): OAS-06-97-00052; issued 05/98




Previous Monetary Recommendations                                                                39
     Medicaid Drug Rebates

     Implement an Indexed Best-Price Calculation in the Medicaid Drug Rebate Program

     Background: The OBRA of 1990 authorized States to collect rebates from drug manufacturers
     for drug purchases made under the Medicaid program. Rebates are calculated using the
     AMP, the manufacturer’s best price, and other factors. To discourage drug manufacturers
     from raising AMP amounts, the basic rebate amount is increased by the amount that the
     AMP increases over and above the consumer price index for all urban consumers. However,
     no similar indexing of best price is made, even though best price is part of the basic rebate
     calculation for brand-name drugs.

     Finding: Since the inception of the Medicaid drug rebate program, drug manufacturers
     have consistently increased best prices in excess of the Consumer Price Index for all urban
     consumers. To determine the potential effect that increases in best price (beyond the rate
     of inflation) had on rebates, we calculated the difference in rebates that would have resulted
     from using an indexed best price. We estimate that in 1993 drug rebates would have increased
     by about $123 million for the 406 drugs included in our review.

     Recommendation(s): CMS should pursue legislation to index the best-price calculation in
     the Medicaid drug rebate program to the Consumer Price Index-urban.

      Savings:     *$123 million


     *This savings estimate is based on the best price indexing in 1993 of the 406 drugs included in
     our review.

     Status: CMS disagreed with this recommendation. We are continuing to monitor the drug
     rebate program; audits will continue to focus on enhancing the collection of rebates and
     providing potential savings to the rebate program.

      Report(s): OAS-06-94-00039; issued 10/95




40   Previous Monetary Recommendations
Public Health
Heath Resources and Services

Eliminate Excessive Costs in the 340B Drug Discount Program

Background: Section 340B of the Public Health Service Act (the PHS Act) created the
340B Drug Discount Program to lower drug prices for more than 12,300 entities, including
community health centers, public hospitals, and various Federal grantees. Pharmaceutical
manufacturers calculate the 340B discount using a specified formula and must sell their
products at or below this price to continue to have their products covered by the Medicaid
program. The Health Resources and Services Administration’s (HRSA) Pharmacy Affairs
Branch administers the program for the 12,300 enrolled entities, estimated to spend
$3.4 billion on drugs in 2003.

Finding: Because of systemic problems with the accuracy and reliability of the
Government’s record of 340B ceiling prices, we found that HRSA cannot appropriately
oversee the 340B Drug Pricing Program. HRSA lacks the oversight mechanisms and
authority to ensure that 340B entities pay at or below the 340B ceiling price. We found that
in a single month in 2005, 14 percent of total purchases made by 340B entities exceeded
340B ceiling prices, resulting in total projected overpayments of $3.9 million.




                                                                                                    Recommendations
                                                                                                    Previous Monetary
Recommendation(s): We recommended that HRSA improve its oversight of the 340B
Program to ensure that entities are charged at or below the 340B ceiling price and that it
work with CMS to ensure accurate and timely pricing data for the Government’s official
record of 340B ceiling prices. HRSA should take four steps to strengthen its administration
of the 340B Drug Discount program: (1) establish detailed standards for the calculation of
340B ceiling prices, (2) institute oversight mechanisms to validate its 340B price calculations
and the prices charged to participating entities, (3) seek legislative authority to establish
penalties for violations of the PHS Act, and (4) obtain consistent unit of measure and
package size data to accurately calculate 340B ceiling prices.

 Savings:     *$46.8 million to federally supported covered entities


*Estimated savings based on $3.9 million in overpayments by federally supported covered entities
in 1 month in 2005, multiplied by 12 to calculate savings for 1 year. Additional indirect savings
to the Department are likely but cannot be calculated.

Status: HRSA has taken steps to more closely monitor the prices paid by 340B entities.
HRSA stated that it anticipates promulgating a penny price policy in conjunction with
formalizing the instructions for the calculation of 340B ceiling prices. HRSA has requested
that manufacturers voluntarily submit their prices for comparison with the agency’s ceiling
prices and will review the data that manufacturers and entities voluntarily submit, to the
extent that resources permit. Additionally, HRSA stated that it will explore the possibility of
seeking the authority and resources needed to impose fines and civil penalties for violations
of section 340B of the PHS Act.




Previous Monetary Recommendations                                                                   41
     Heath Resources and Services


     Eliminate Excessive Costs in the 340B Drug Discount Program (continued)

     HRSA and CMS negotiated a new Intra-agency Agreement and Data Use Agreement in
     which HRSA will receive pricing data from CMS effective during FY 2005 but will itself
     calculate the Government’s 340B ceiling price. CMS has agreed to reiterate the 30-day pricing
     data submission requirement for manufacturers and will consider referring appropriate cases
     of late submission to OIG to levy penalties. HRSA will work with CMS to maximize the
     acquisition of manufacturer’s data as well as resolve problems related to missing data.
     HRSA also agreed to publish detailed standards for the calculation of 340B ceiling prices
     on its Web site.

      Report(s): OEI-05-02-00072; issued 10/05             OEI-05-02-00073; issued 07/06




42   Previous Monetary Recommendations
Aging


Use Voluntary Contributions To Expand Services for the Elderly

Background: Current Administration on Aging (AoA) regulations permit States to use
voluntary contributions to meet cost-sharing or matching grant requirements. However,
during the audit period, this use of contributions is contrary to the Older Americans Act,
which requires that voluntary contributions be used to increase services for the elderly.

Finding: According to their financial status reports, 28 States and the District of Columbia
erroneously used $90.8 million in voluntary contributions in FY 1996 to meet cost-sharing
or matching grant requirements.

Recommendation(s): AoA should revise its regulations in accordance with the Older
Americans Act.

Savings:      *$90.8 million




                                                                                                      Recommendations
                                                                                                      Previous Monetary
*Estimated savings are based on information in FY 1996 financial status reports for all States, the
District of Columbia, and Puerto Rico.

Status: The Older Americans Act (OAA) Amendments of 2000 and 2006 (Public Laws
106-501 and 109-365, respectively) changed provisions relating to voluntary contributions.
AoA is in the process of determining which regulatory changes are needed for this section,
as amended, as well as for other provisions of the Act that were amended.

 Report(s): OAS-12-00-00002; issued 02/01




Previous Monetary Recommendations                                                                     43
     Departmentwide and Cross-Cutting Issues


     Advise States of Their Authorities To Collect From Noncustodial Parents With the
     Ability To Contribute Towards Their Children’s Medicaid or State Children’s Health
     Insurance Program Costs

     Background: Current regulations require the State Title IV-D agency to petition the court or
     administrative authority, unless the custodial parent and children have satisfactory health
     insurance other than Medicaid, to include health insurance that is available to the noncustodial
     parent at reasonable cost in new or modified orders for support. Title XXI of the Social
     Security Act, which authorizes SCHIP, is silent with regard to collecting SCHIP costs from
     noncustodial parents who have a medical support order.

     Finding: States can reduce State and Federal Medicaid costs by increasing the number of
     noncustodial parents who provide medical support for their children. Although Federal
     regulations authorize States to recover Medicaid costs from third-party payers,
     Title IV-D regulations do not provide specific guidance for collecting Medicaid costs
     from noncustodial parents who have the financial ability to pay and who do not have
     affordable employer-sponsored health coverage available. Moreover, Medicaid regulations
     do not address how State Medicaid agencies should coordinate with State Title IV-D
     and how the States should establish and administer Medicaid fee-for-service recoveries.

     States also have an opportunity to enroll uninsured Title IV-D children in SCHIP and provide
     a means for noncustodial parents to fulfill their medical support obligations. Unlike Federal
     Medicaid laws, SCHIP laws are silent with regard to an “assignment of rights” that would
     allow States to recover children’s medical expenses from their noncustodial parents. Although
     some States have taken steps to collect SCHIP costs from noncustodial parents, others have
     questioned their authority to do so, and others have expressed concern about the costs that
     will be incurred.

     Recommendation(s): ACF and CMS should (1) provide specific guidance to States on
     collecting Medicaid costs from noncustodial parents who have the financial ability to pay
     or who do not have affordable employer-sponsored health coverage available, (2) clarify
     third-party liability regulations to assist State Medicaid agencies in coordinating with State
     Title IV-D agencies to collect Medicaid costs from noncustodial parents with medical support
     orders, and (3) seek legislation that would allow States to accumulate medical support payments
     to offset Medicaid fee-for-service costs for a reasonable period.

     CMS should also (1) issue program guidance to advise States of their authorities under
     Federal law to collect SCHIP costs from noncustodial parents and (2) determine whether
     additional Federal funds are needed to assist States in interfacing their Title IV-D and SCHIP
     databases and implementing a process to collect SCHIP costs from noncustodial parents and,
     as appropriate, provide such funds.

      Savings:    *$99 million – Medicaid      **$14 million – SCHIP


     *Based on an eight-State review, we estimated that Title IV-D children who were enrolled in
     Medicaid had noncustodial parents who were financially able to contribute $99 million based on
     the most recent data available from each State in 2001 or 2002.



44   Previous Monetary Recommendations
Departmentwide and Cross-Cutting Issues


**Based on an eight-State review, we estimated that Title IV-D children who received SCHIP
benefits had noncustodial parents who could potentially contribute $14 million toward the SCHIP
premiums based on the most recent data available from each State in 2001 or 2002.

Status: On January 17, 2006, ACF shared the results of our review with States. In addition,
CMS provided guidance to States on the collection of Medicaid costs from available
noncustodial employer-sponsored health care coverage through a series of meetings sponsored
by ACF. CMS also agreed to work with OIG to draft legislation to allow States to accumulate
medical support payments and to consider whether third-party liability regulations needed
clarification; however, we continue to believe there is a need.

As to our recommendations concerning SCHIP costs, CMS did not believe that issuing
formal guidance was necessary but did alert States of their option to pursue the Federal and
State shares of these costs. As an additional effort to ensure that States are knowledgeable
about their authorities under Federal law to collect SCHIP costs from noncustodial parents,
CMS participated in the Medical Support Collaboration regional meetings sponsored by the
ACF in 2005 and 2006. CMS noted that States already have the ability to fund the administrative
costs of building an infrastructure with the State Title IV-D agency under their 10-percent




                                                                                                  Recommendations
                                                                                                  Previous Monetary
administrative SCHIP cap. We still believe that it may be necessary for CMS to consider
alternative methods to ensure that States receive adequate funds especially if States are at or
near their 10-percent administrative cap.

 Report(s): OAS-01-03-02501; issued 06/05              OAS-01-03-02502; issued 05/05




Previous Monetary Recommendations                                                                 45
New Nonmonetary Recommendations
Medicare and Medicaid
Medicare Hospitals

Improve Hospital Reporting of Deaths Related to Restraint and Seclusion

Background: This study determined whether hospitals reported restraint and seclusion related
deaths, as required by CMS, and evaluated CMS and State survey agency responsiveness, guid-
ance, and monitoring concerning the reporting requirement. In December 1997, CMS published
a proposed rule to revise all existing hospital conditions of participation (CoPs) and included
a new Patient’s Right. The new CoP was, in part, a response to reports of violations of
patients’ rights in hospitals. The Patient’s Right CoP establishes, among other things, a
reporting requirement for all hospital deaths associated with the use of restraints or seclusion
for behavior management (42 CFR § 482.13(f)(7)). CMS requirements establish timeframes
to ensure that investigations concerning hospital compliance with the Patient’s Rights CoP
are timely, and information about deaths related to restraint and seclusion is communicated
to the protection and advocacy agencies and the CMS central office in a timely manner.

Finding: Hospitals failed to report to CMS 44 of 104 documented deaths related to restraint
and seclusion between August 2, 1999, and December 31, 2004. CMS and State survey
agencies do not consistently take action in response to reported deaths in a timely manner.
State survey agencies did not disseminate information to hospitals about the reporting
requirement, which may contribute to hospitals’ lack of understanding of the reporting
requirements. Also, CMS does not maintain comprehensive and reliable information about
reported deaths related to restraint and seclusion.

Recommendation(s): CMS should seek legislation to establish intermediate sanctions for
hospitals that fail to report directly to CMS deaths related to restraint and seclusion; consider
regulatory changes that would require reporting all deaths related to the use of restraint
and seclusion; instruct its regional offices and State survey agencies to adhere to reporting
deadlines; encourage State survey agencies to provide to hospitals ongoing training about the




                                                                                                    Recommendations
                                                                                                    New Nonmonetary
reporting requirements; and instruct regional offices to request periodic updates about deaths
related to restraint and seclusion from other Federal and State agencies.

Status: CMS generally concurred with our recommendations. On December 8, 2006, the
Hospital CoP Patient’s Rights was published in the “Federal Register” as a final rule. The rule
finalizes the standards for death-reporting requirements. CMS will also issue a Survey and
Certification Memorandum to ensure the regional offices and survey agencies receive written
instructions that inform hospitals of new death-reporting timelines. However, CMS indicated
that to establish intermediate sanctions for hospitals would require legislative changes by
Congress.

 Report(s): OEI-09-04-00350; issued 9/06




New Nonmonetary Recommendations                                                                     49
     Medicare Hospitals


     Improve Carrier Determination of Copayments for Medicare Mental Health Services

     Background: The Medicare Supplementary Medical Insurance benefit program (Part B)
     covers physician services, outpatient care, and some other services not covered by Medicare’s
     Hospital Insurance benefit program (Part A). In general, beneficiaries are responsible for
     copayments of 20 percent of the approved amount for most of Part B services. Outpatient
     mental health services are covered under Part B. However, section 1833(c) of the Social
     Security Act limits Medicare payment to 62.5 percent of the expenses (Medicare-approved
     amount) for services in connection with the treatment of mental disorders described below.
     The limitation applies to services that are furnished in connection with the treatment of a
     mental, psychoneurotic, or personality disorder. Thus, for these services, beneficiaries have
     greater cost-sharing liability.

     Finding: We found that beneficiary copayments can be more than double for the same
     mental health services based on the beneficiary’s geographic location. Carriers inconsistently
     apply the “outpatient mental health treatment limitation” (the limitation), causing these
     disparities in copayments. In addition, carriers are incorrectly applying the limitation to
     claims for medical management services for beneficiaries diagnosed with Alzheimer’s disease
     and related disorders. Over a 4-year period, Medicare carriers overstated copayments for
     beneficiaries with Alzheimer’s disease and related disorders by approximately $27 million.

     Recommendation(s): CMS should (1) issue new guidance to carriers regarding the
     outpatient mental health treatment limitation and ensure that the limitation is consistently
     applied among all carriers and (2) require its carriers to adjust the copayment for beneficiaries
     who were overcharged.

     Status: CMS agreed to take steps to address our recommendations. CMS plans to issue
     more precise guidance that will establish policy for application of the outpatient mental
     health treatment limitation, create and post educational material on its Web sites; and, to the
     extent operationally feasible, require carriers to reopen and adjust incorrectly processed claims
     for patients with Alzheimer’s disease and related disorders.

      Report(s): OEI-09-04-00221; issued 10/06




50   New Nonmonetary Recommendations
Medicare Hospitals


Improve the Availability of Quality-of-Care Data in the Medicare End Stage Renal
Disease Program

Background: Patients with ESRD rely on dialysis treatment to compensate for kidney failure.
In 2000, both OIG and Government Accountability Office (GAO) issued reports documenting
problems with CMS oversight of ESRD facilities. National aggregate data suggest that dialysis
care has improved overall. However, questions remain about the quality of care provided at
some ESRD facilities. This study assessed the extent to which data were available to assist
ESRD Networks in identifying facilities with quality improvement needs.

Findings: We found that although Networks have access to multiple sources of data about
quality of care, each has limitations in assisting Networks to identify facilities with quality
improvement needs. Limitations include lack of facility-specific, comprehensive, and current
clinical performances measures (CPMs). CMS has taken action towards providing a streamlined
source of data that could assist Networks in identifying facilities with quality improvement
needs; however, it has not yet been implemented. In 2000, CMS stated that it was developing
a Core Data Set project that would collect facility-specific data on a comprehensive set of
clinical performance measures regularly. CMS has faced technical and resource challenges,
and the implementation of Core Data Set is not complete.

Recommendation(s): CMS should develop facility-specific quality improvement information
and increase its efforts towards regularly collecting data on all clinical performance measures
identified by CMS to address quality of care issues in the ESRD program.

Status: CMS has made progress in collecting data to improve the quality of care in the
ESRD program; however, opportunities for improvement still exist. CMS published proposed
revisions to the ESRD Conditions for Participation in February 2005, and a final rule is




                                                                                                  Recommendations
                                                                                                  New Nonmonetary
expected. Steps CMS has taken to improve quality of care for the ESRD program include
the development of CPMs, definition of the Core Data Set, and proposed regulations that
would require facilities to electronically submit all CPMs on all ESRD patients. CMS has also
committed to developing a new information system call Consolidated Renal Operations in a
Web-based Network (CROWN), which would consolidate existing data sources into one
system. CMS expects the CROWN to be completed in 2008.

 Report(s): OEI-05-05-00300; issued 11/06




New Nonmonetary Recommendations                                                                   51
     Nursing Homes


     Ensure That States Cease Imposing Fees on Nurse Aides Registration

     Background: The OBRA of 1987 includes numerous provisions intended to lead to
     improvement in the quality of care in long term care (LTC) facilities. The OBRA requires
     that each State establish and maintain a nurse aide registry. Sections 1819(e)(2) and 1919(e)(2)
     of the Social Security Act prohibit States from imposing any charges on individuals related to
     registration in the registry.

     Finding: CMS conducted limited oversight of all States regarding imposing registry fees and
     provided guidance on fees only to States that requested it. Almost half of the States
     imposed fees related to nurse aide registries, few States required aides to pay for placement
     on nurse aide registries, and others required fees on nurse aides as a requirement to work in
     LTC facilities.

     Recommendation(s): We recommended that CMS clarify the prohibition on charging fees
     related to nurse aide registries, conduct appropriate oversight to prevent States from charging
     inappropriate fees, and ensure that States cease imposing on nurse aides fees that violate
     Federal requirements.

     Status: CMS indicated that it will work through its regional offices to notify States found to
     impose fees in violation of Federal requirements that such practices must cease and ensure
     that proper revenue offset was made to claims for Federal financial participation. CMS has
     also indicated that it will ensure that all State Medicaid agencies review a written reminder of
     the statutory and regulatory provisions that prohibit the imposition of any charges on nurse
     aides relating to the nurse aide registry. Additionally, CMS has indicated that it will ensure
     that the regional offices will periodically perform focused reviews of States’ compliance with
     registry requirements.

      Report(s): OEI-07-05-00070; issued 12/05




52   New Nonmonetary Recommendations
Nursing Homes


Ensure That Only Registered Nurse Aides Without Substantiated Findings Are
Registered

Background: The OBRA of 1987 includes numerous provisions intended to lead to
improvement in the quality of care in LTC facilities. Federal regulations (42 CFR § 483.156)
require each State to establish and maintain a registry of individuals who have completed
training and whom the State finds competent to function as nurse aides. In addition, Federal
regulations (42 CFR § 483.13(c)(1)) prohibit LTC facilities from employing individuals who
have substantiated adverse findings entered into the State nurse aide registry or who have
been found guilty in a court of law for abusing, neglecting, or mistreating LTC facility resi-
dents.

Finding: Some States failed to update registries with substantiated adverse findings, and
some LTC staff reported checking only their own State’s registries before hiring an
employee. Many States reported failure to remove records of inactive nurse aides from
registries, and some individuals with substantiated adverse findings in one State were actively
certified in other States. Some States reported using State-specific practices that could make
it more difficult to prevent certain individuals from working as nurse aides. We also found
that some facilities employed nurse aides without the required registration longer than the
allowed 4 months.

Recommendation(s): CMS should (1) ensure that States update information regarding nurse
aides with substantiated adverse findings timely and remove registry records of nurse aides
who have not performed nursing or nursing-related services for 24 consecutive months,
(2) reduce the potential for nurse aides with substantiated findings to offend again in another
State and work with States to ensure that registry records contain current information on
nurse aides, (3) utilize existing communication channels (e.g., survey and certification processes)




                                                                                                       Recommendations
                                                                                                       New Nonmonetary
to ensure that LTC facilities comply with Federal regulations that require them to check the
nurse aide registries of other States that they believe will contain information about an individual
and to not employ individuals as nurse aides for more than 4 months without registration,
and (4) ensure in other States that LTC facilities use available resources to ensure that nurse
aides with substantiated adverse findings or criminal backgrounds are not employed.

Status: CMS developed and disseminated the “Abuse and Neglect Detection and Prevention
Training Manual” to provide surveyors and other reviewers with additional resources to
support the detection and prevention of abuse and neglect. CMS indicated that it will issue
additional communications to States affirming the law, CMS policy, and the importance of
the nurse aide registries. CMS indicated that it will also consider a variety of methods of
working with States to be effective in implementing background checks.

 Report(s): OEI-07-03-00380; issued 02/05                 OEI-07-04-00140; issued 07/05




New Nonmonetary Recommendations                                                                        53
     Nursing Homes


     Strengthen Oversight of Nursing Home Complaint Investigations

     Background: Sections 1819(g)(4) and 1919(g)(4) of the Social Security Act require that each
     State maintain procedures and adequate staff to investigate and report the nursing home
     complaints they receive. The CMS “State Operation Manual” (SOM) outlines the process
     that State agencies must follow when managing complaint investigations.

     Finding: We found that CMS oversight of complaint investigations is limited and that
     State agencies did not investigate some of the most serious complaints within the required
     timeframes. We also found that State agencies have not taken full advantage of the ASPEN
     Complaints/Incidents Tracking System (ACTS) and that some of the States’ complaint
     policies do not incorporate some CMS guidelines for complaint investigations.

     Recommendation(s): CMS should strengthen oversight of nursing home complaint investiga-
     tions by requiring State agencies to meet the 10-day timeframe for investigating complaints
     alleging actual harm. CMS should conduct additional followup to the State Performance
     Review and consider eliminating the 2-week advance notice for the Federal Oversight and
     Support Survey required in the SOM to allow regional offices the option of overseeing complaint
     investigations for the most serious nursing home complaints. CMS should also offer the
     State agencies further training targeted to complaint management and continue to train its
     regional office staff on the ACTS functions, especially related to overseeing State agencies.

     Status: CMS is planning to release in 2007 a multipurpose video training module that States
     may use to instruct staff in conducting complaint investigations. In August 2006, CMS
     revised the language in the State Performance Standard for FY 07 to better reflect the
     language articulated in the SOM. Namely, according to the policy, the State agency must
     initiate an onsite survey within 10 working days for nursing home intakes assigned a priority
     of “Non-Immediate Jeopardy-HIGH.” Additionally, CMS indicated that it will assess the
     extent to which additional improvements can be made with existing resources and indicated
     it will assess whether performance expectations for “Non-Immediate Jeopardy” allegations
     should be adjusted to reflect resource limitations or additions.

      Report(s): OEI-01-04-00340; issued 07/06




54   New Nonmonetary Recommendations
Nursing Homes


Strengthen Federal Certification Standards for Nursing Home Emergency Plans
Including Specific Elements for Emergency Planning Investigations

Background: Sections 1819(b)(c)(d) and 1919 (b)(c)(d) of the Social Security Act establish
requirements for nursing home participation in the Medicare and Medicaid programs. Under
sections 1819(f)(1) and 1919 (f)(1), the Secretary for the Department of HHS is responsible
for ensuring that these requirements and their enforcement are adequate to protect the
health, safety, welfare, and rights of residents and to promote the effective and efficient use
of public monies. Pursuant to Federal regulations 42 CFR § 483.75 (m)(1), certified facilities
are required to have “detailed written plans and procedures to meet all potential emergencies
and disasters,” and must “train employees in emergency procedures when they begin work
in the facility, periodically review procedures, and carry out unannounced staff drills.” The
SOM also requires that facilities consider the development of plans and training applicable
to the geographic location and the types of residents served.

Finding: We found that although 94 percent of selected nursing homes in the Gulf States
affected by hurricanes met Federal emergency plan standards and that 80 percent had sufficient
emergency training. All the nursing homes had experienced problems whether they had
evacuated or sheltered in place. Nursing homes that evacuated faced problems, such as
transportation contracts that were not honored, lengthy travel times, host facilities that were
unavailable or inadequately prepared, inadequate staffing, insufficient food and water, and
difficult reentry to facilities. We also found that nursing home administrators and staff
often did not follow their emergency plans during hurricanes, that the emergency plans were
often missing suggested provisions, and that a lack of collaboration between State and local
emergency entities and nursing homes impeded emergency planning and response.

Recommendation(s): We recommended that CMS strengthen certification standards for




                                                                                                  Recommendations
                                                                                                  New Nonmonetary
nursing home emergency plans by including requirements for specific elements of emergency
planning. We also recommended that CMS encourage communication and collaboration
between States and local emergency entities and nursing facilities.

Status: CMS concurred with these recommendations and is exploring ways to strengthen
Federal certification standards for emergency preparedness and to promote better coordination
between Federal, State, and local emergency management entities. CMS plans to implement
a communication strategy to disseminate policies, procedures, interpretive guidance, and other
communications to State Survey Agencies, CMS regional offices, and health care facilities.
CMS indicated that regulatory changes may be undertaken as a long term strategy while other
strategies can be taken in the short term to ensure resident and staff safety. Several CMS
workgroups have been reviewing the current Federal emergency preparedness requirements
to determine the most appropriate methods of improving the preparedness standards appli-
cable to health care facilities. CMS is also participating in several departmental interagency
workgroups that are developing recommendations and guidance for improving coordination
and collaboration among Federal, State, and local emergency entities.

 Report(s): OEI-06-06-00020; issued 08/06




New Nonmonetary Recommendations                                                                   55
     Medicare Drugs


     Evaluate the Calculation of Volume-Weighted Average Sales Prices for Medicare Part
     B Prescription Drugs

     Background: In 2005, Medicare began paying for most Part B drugs using a new pricing
     methodology based on the ASP. Under Section 1847 (A)(b)(1) of the Social Security Act
     (the Act), Medicare’s payment for most drugs is equal to 106 percent of the volume-weighted
     ASPs for those drugs. Section 1847A(b)(2) of the Act specifies the unit that manufacturers
     must use when submitting the ASP data to CMS. This section also specifies the way to
     calculate a volume-weighted ASP for an HCPCS code based on manufacturer-reported ASP
     data. Exercising discretion permitted by this section, CMS opted to modify the unit of ASP
     submission, making it necessary to alter the method for calculating a volume-weighted ASP.

     Finding: The method CMS uses to calculate a volume-weighted ASP is mathematically
     incorrect. Therefore, CMS’s equation may not always yield a volume-weighted ASP that is
     consistent with the volume-weighted ASP derived from the calculation set forth in section
     1847A(b)(3) of the Act. Consequently, Medicare Part B prescription drug reimbursement
     amounts may not be accurate. Furthermore, CMS’s calculation affects statutory mandates
     to monitor and adjust drug reimbursement amounts.

     Recommendation(s): We recommended that CMS change its calculation of volume-weighted
     ASPs and adopt an alternate equation that produces a volume-weighted ASP that is both
     mathematically correct and consistent with the results of the calculation set forth in section
     1847A(b)(3) of the Act.

     Status: CMS stated it will consider the report’s findings in its ongoing effort to enhance
     implementation of the new ASP payment methodology. CMS published the current AMP
     calculation in a final regulation on November 21, 2005, (70 FR 70116, 70218). CMS indicated
     that as it gains more experience with the ASP and data and other sources of information
     become available, it may consider altering the methodology of establishing exceptions as
     suggested by some of the public comments.

      Report(s): OEI-03-05-00310; issued 02/06




56   New Nonmonetary Recommendations
Medicare Drugs


Ensure That Prescription Drug Plan Sponsors’ Compliance Plans Address All
Requirements

Background: Federal regulations (42 CFR 423.504(b)(4)(vi)) require prescription drug plan
(PDP) sponsors, approved to provide Medicare Part D benefits, to establish compliance
plans. PDP sponsors’ compliance plans must address eight elements as specified in Federal
regulations. Additionally, CMS Part D guidance documents state that PDP compliance plans
must address 17 requirements regarding the 8 compliance plan elements presented in Federal
regulations.

Finding: We found that all PDP sponsors had compliance plans that covered the
79 stand-alone PDP contracts, yet 72 of the 79 compliance plans did not address all of
CMS’s requirements regarding the eight compliance plan elements. Many compliance plans
also lacked detail regarding requirements involving compliance processes and programs.
Additionally, we learned that while all compliance plans addressed the fraud and abuse
element in some way, only 15 of the 79 plans addressed all 11 CMS recommendations
regarding fraud detection, correction, and prevention that were included in the review.

Recommendation(s): We recommended that CMS ensure that PDP sponsors’ compliance
plans address all requirements within its guidelines regarding the eight elements set forth in
the regulations. In addition, CMS should encourage sponsors to provide sufficient detail in
their compliance plans to clearly demonstrate how sponsors are actually implementing the
compliance plan requirements.

Status: CMS agreed that effective compliance plans are an important tool for monitoring
fraud, waste, and abuse in PDP sponsors’ Part D plans and concurred with our recommenda-
tion. CMS also stated that routine audits, beginning in 2007, will review the required compli-




                                                                                                 Recommendations
                                                                                                 New Nonmonetary
ance plan elements and that sponsors will be accountable for meeting all requirements.

 Report(s): OEI-03-06-00100; issued 12/06




New Nonmonetary Recommendations                                                                  57
     Other Medicare and Medicaid Issues

     Improve Centers for Medicare & Medicaid Services Performance Evaluation Process
     for Program Safeguard Contractors

     Background: The Health Insurance Portability and Accountability Act of 1996 (HIPAA)
     (Public Law 104-191), section 202, authorized CMS to contract with entities to fulfill program
     integrity functions for the Medicare program and required a competitive process for awarding
     contracts. CMS entered into the first contract under this authority in 1999. Entities awarded
     such contracts are called program safeguard contractors (PSC). Once under contract, PSCs
     are then awarded task orders to carry out specific duties.

     Finding: We found that performance evaluation reports issued by CMS contained minimal
     information about PSC achievements related to detecting and deterring fraud and abuse
     under benefit integrity task orders. Because these reports are limited in their description of
     the results PSCs may be achieving, they provide limited information on which to base task
     order renewal decisions. We also found that 72 percent of final performance evaluation
     reports for the period 1999 through 2004 were issued on time. However, only 5 of 32 final
     reports were issued 3 months before the task order ended, which is the time when CMS is
     required to notify the PSC whether the contract will be renewed. The unavailability of mile-
     stone dates prevented us from identifying where delays occurred in the evaluation process.

     Recommendation(s): We recommended that to improve the evaluation process CMS
     (1) address PSC results in performance evaluation reports and include quantitative as well as
     qualitative information, (2) include information about required fraud and abuse detection and
     deterrence activities in the reports, (3) ensure that all draft and final reports are issued on
     time, and (4) establish a means to track and save evaluation milestone dates.

     Status: CMS concurred with the third and fourth recommendations. CMS partially disagreed
     with our first two recommendations regarding what should be addressed in PSC performance
     evaluation reports. With regard to the first recommendation, CMS stated that quantifying
     results may compromise investigations and create perverse incentives. Our recommendation
     was not to establish a quota system for performance; rather, we recommended that there
     should be a combination of qualitative and quantitative results information included in
     PSC evaluation reports. It would be difficult to determine PSC effectiveness without this
     information. With regard to the second recommendation, CMS stated that resources sometimes
     prevent it from addressing all PSC activities in the evaluation reports. We continue to recommend
     that activities required in PSC task orders should be addressed in evaluation reports.

      Report(s): OEI-03-04-00050; issued 03/06




58   New Nonmonetary Recommendations
Public Health
Agency for Healthcare Research and Quality

Improve Monitoring of Patient Safety Grants

Background: Congress enacted the Healthcare Research and Quality Act of 1999 (Public
Law 106-129), which established AHRQ within HHS. Congress directed AHRQ to designate
funds from its appropriation for grants to study patient safety in H.R. Rep. No. 106-645, at
102 (2000). For FYs 2001 through 2003, AHRQ awarded 120 grants totaling $128 million to
conduct research on improving patient safety and reducing medical errors. Federal regulations
and departmental policies (e.g., Grant Policy Directives from the Office of Grants) govern
HHS grants monitoring.

Finding: We found that based on a sample of 39 grant files, we found that most Financial
Status Reports were not received or were late. Of the required reports, 30 percent were not
received and 43 percent were not received promptly, representing a combined total of $50.6 million
in dispensed grant funds. In contrast, the submission of the performance reports generally
complied with Federal requirements. We also found that AHRQ did not ensure that Federal
requirements for grant closeouts were met. Of the sampled grants, seven official grant
files were eligible for closeout. Two grants were closed in accordance with Federal
requirements. Three grants lacked documentation of required closeout reports, liquidation
of assets, and/or results of the final research. The remaining two grant files contained all
required closeout documents, although AHRQ staff had not completed the closeout process.

Recommendation(s): We recommended that AHRQ (1) require submission of interim
financial information of prior year expenditures before future funding is authorized,
(2) establish a tracking system for Financial Status Reports, (3) require grantees with no-cost
extensions to submit Financial Status Reports in compliance with Federal requirements,
and (4) ensure that grants awaiting closeout are closed promptly.




                                                                                                     Recommendations
                                                                                                     New Nonmonetary
Status: AHRQ responded that it agrees with the findings in the report and that the
recommendations are reasonable. AHRQ indicated that the recommendations reinforce
ongoing improvements begun subsequent to the FYs that we reviewed or support ongoing
improvement activities.

 Report(s): OEI-07-04-00460; issued 06/06




New Nonmonetary Recommendations                                                                      59
     Food and Drug Safety


     Update and Maintain an Accurate New Drug Code Directory

     Background: The Drug Listing Act of 1972 requires drug firms engaged in manufacturing,
     preparing, propagating, compounding, or processing drugs to report all drug products to
     FDA. Drug products are uniquely identified and reported using a three-segment number,
     called the National Drug Code (NDC), which is a universal product identifier for human
     drugs. FDA assigns the first segment and drug firms assign the other two segments. FDA
     inputs the full NDC number and information submitted as part of the listing process into a
     database known as the Drug Registration and Listing System. FDA extracts information
     from this database several times a year and publishes that information in the NDC Directory.
     As drug firms introduce a new drug product or discontinue a product, they must report the
     complete NDC and associated information to FDA as part of the drug product listing
     process.

     Finding: We found that the Directory is neither complete nor accurate. An estimated 9,187
     prescription drug products are missing, while another 5,150 drug products have not cleared
     the listing process. Further, an estimated 34,257 listed drug products listed are no longer on
     the market or are listed in error. Problems with the Directory result primarily from drug
     firms’ failure to report when drugs are placed on or taken off the market and their failure to
     provide sufficient and accurate information to complete the listing process.

     Recommendation(s): We recommended that FDA finalize the draft listing instructions
     referenced on its Web site, provide greater control over the assignment of NDCs, continue
     efforts to implement electronic submission of listing forms by firms, implement a mechanism
     to routinely identify drug product omissions and inaccuracies, resolve the status of currently
     pending drug product listings, enhance communication with drug firms to facilitate accurate
     and complete reporting of drug products, and identify and take appropriate action against
     drug firms that consistently fail to list drug products and update information.

     Status: FDA concurred with our recommendations and requested access to our data files to
     follow up on identified problems. FDA delineated a number of initiatives it expects will
     improve the Directory’s completeness and accuracy, such as conversion to an electronic listing
     system for use by drug firms. FDA has updated the draft listing instructions referenced on
     its Web site. FDA published a proposed rule on August 29, 2006, that will clarify listing
     requirements, enhance control of the drug establishment registration and drug listing process,
     and improve data accuracy and completeness. In December 2006, FDA held a public hearing
     on the proposed rule that would change the NDC system. This hearing allowed industries
     affected by the proposed rule to testify on the impact that NDC system changes would have
     on their companies or industries.

      Report(s): OEI-06-05-00060; issued 08/06




60   New Nonmonetary Recommendations
Food and Drug Safety


Improve Postmarketing Oversight

Background: FDA requires all new drugs to undergo clinical testing to demonstrate their
safety and efficacy prior to approval for sale in the United States. FDA has the authority to
require postmarketing study commitments in certain situations (e.g., accelerated approval),
but most postmarketing study commitments are requested by FDA and agreed to by drug
applicants. The Food and Drug Administration Modernization Act of 1997 (FDAMA)
provided FDA with new authorities for monitoring certain types of postmarketing studies.
The FDAMA requires that drug applicants submit annual status reports (ASRs) that provide
information on the status of certain postmarketing studies. Reviewers within FDA’s Center
for Drug Evaluation and Research (CDER) are charged with validating the accuracy of
these reports.

Finding: We found that between FYs 1990 and 2004, 48 percent of new drug applications
involved at least one postmarketing study commitment. We identified vulnerabilities that raise
concerns that FDA is not able to readily determine whether or how timely postmarketing study
commitments are progressing toward completion. We found that about one-third of ASRs
were missing or incomplete and that they contained information that was of limited utility.
We also found limitations associated with the management information system for monitoring
postmarketing study commitments. Further, we found that monitoring postmarketing study
commitments is not a top priority at FDA.

Recommendation(s): We recommended that FDA instruct drug applicants to provide
additional, meaningful information in their ASRs; improve the management information
system for monitoring postmarketing study commitments; ensure that postmarketing study
commitments are being monitored and ensure that ASRs are being reviewed.




                                                                                                 Recommendations
                                                                                                 New Nonmonetary
Status: FDA agreed with our recommendations to improve the management information
system for monitoring postmarketing study commitments and to ensure that postmarketing
study commitments are being monitored and ASRs are validated. FDA emphasized the
seriousness with which it takes its obligation to monitor the progress of postmarketing
study commitments and stressed that it makes some information regarding the commitments
publicly available. The agency highlighted ongoing efforts to enhance its postmarketing study
commitment database and reporting capabilities, train its review division staff on ASR valida-
tion procedures, and standardize the process by which postmarketing study commitments are
requested and reviewed. FDA’s ongoing efforts are aimed at enhancing the postmarketing
commitments (PMC) database and reporting functionalities; completing specialized training
for the review division on the overall management of PMCs with the focus on the procedures
for validating ASRs; and hiring outside contractors to conduct a thorough analysis of the
PMC process to gain greater internal consistency regarding how FDA requires, requests
facilitates, and reviews PMCs.

 Report(s): OEI-01-04-00390; issued 06/06




New Nonmonetary Recommendations                                                                  61
     National Institutes of Health


     Improve Oversight and Review of Outside Activities of Senior-Level National
     Institutes of Health Employees

     Background: Employees of HHS are allowed to work and interact privately with non-Federal
     entities on their personal time through outside activities, which may require prior approval.
     These activities must not conflict with employees’ official duties and may or may not involve
     financial compensation. Pursuant to 18 U.S.C. § 208(a), and 5 CFR § 2635.502, an actual
     conflict of interest arises when an employee personally and substantially participates, in an
     official capacity, in a particular matter in which he or she has a personal or imputed financial
     interest if the matter will have a “direct and predictable effect” on that interest. Additionally,
     pursuant to 5 CFR § 2635.502, the appearance of a loss of impartiality arises when an
     employee participates, in an official capacity, in a matter in which he has certain defined
     associations or interests that would “cause a reasonable person to question his impartiality
     in the matter.”

     Finding: We found that between 2001 and 2003, 40 percent of NIH senior-level employees
     at NIH received approval for 319 outside activities. About half of these outside activities
     involved teaching or consulting and most were compensated. We identified several vulnera-
     bilities that inhibit NIH’s ability to effectively review outside activities. Employees submitted
     limited information regarding their outside activities. There are also several problems in the
     review process itself, including approvals after the start date, limited use of written recusals,
     and inadequate followup of ongoing outside activities.

     Recommendation(s): We recommended that NIH improve the quality and extent of the
     information it receives for outside activities and address inadequacies in the review process
     for outside activities.

     Status: HHS and NIH have already undertaken a variety of initiatives to address inadequacies
     in the review and approval process for outside activities. NIH is in the process of revising
     procedures for submission and approval of outside activity requests. NIH has increased
     training and has centralized the review of certain types of outside activity requests. NIH
     created an Ethics Advisory Committee to centralize the review process and expects to continue
     the ongoing centralization of the outside activities review process. NIH is updating online
     training modules to reflect recent ethic program changes. In addition, the NIH Director and
     Deputy Director forwarded all employees periodic e-mail messages that transmit guidance
     on the ethics issues and links to ethics related training, FAQs, policies, and regulations.
     Furthermore, in February 2005, HHS issued an interim final rule that placed several restrictions
     on the types of outside activities in which NIH employees are allowed to participate and
     placed a limit on the outside activity approval period of 1 year.

      Report(s): OEI-01-04-00150; issued 02/06




62   New Nonmonetary Recommendations
Health Resources and Services


Improve Health Resources and Services Administration Alert List Practices

Background: The Alert List is posted on the HHS Intranet site for all agencies that award
grants. If an awarding agency has concerns about a grantee because of inexperience in
handling Federal funds, financial instability, inadequate management systems, a history of
poor programmatic performance, or other reasons, the agency may place the grantee on the
Alert List. The purpose of the Alert List is to safeguard HHS funds by alerting other agencies
to potential risks.

Finding: We found that HRSA does not consistently follow Alert List policies including
placing, checking, consulting, monitoring, and justifying retaining grantees on the Alert List.
Specifically, we determined that HRSA does not (1) consistently place grantees on the Alert
List, (2) consistently check the Alert List or accurately document checking it, (3) regularly
consult with other agencies to obtain information about grantees, (4) consistently document
certain monitoring activities for Alert List grantees, (5) provide justification for retaining
grantees whose names appear on the Alert List for more than 2 years, or (6) use the information
on the Alert List to make grant decisions.

Recommendation(s): We recommended that HRSA develop methods to ensure that grants
officers follow Alert List policies.

Status: HRSA believes that the consolidation of its grants management operations into a
single operating unit, with standardized operating procedures and uniform guidance, will
prevent a recurrence of the types of adverse findings identified in the report. HRSA intends
to continue to adhere to departmental guidance on the Alert List and is working closely with
grants officers to ensure that Alert List procedures are followed.




                                                                                                  Recommendations
                                                                                                  New Nonmonetary
 Report(s): OEI-02-03-00011; issued 05/06




New Nonmonetary Recommendations                                                                   63
     Health Resources and Services

     Report Medical Malpractice Cases to the National Practitioner Data Bank

     Background: According to an October 15, 1990, HHS policy directive, all settled or
     adjudicated HHS medical malpractice cases must be reported to the National Practitioner
     Data Bank (NPDB).

     Finding: We found that, as of October 2004, HHS agencies had failed to report as many
     as 474 medical malpractice cases to the NPDB. Individual agency underreporting was as
     follows: IHS, 290 cases; HRSA, 179 cases; and NIH, 5 cases.

     This departmentwide underreporting was caused by a number of factors, including: (1) lost
     medical malpractice files; (2) incomplete information in medical malpractice files; (3) a decision
     by the HHS peer review entity, the Medical Claims Review Panel, not to identify practitioners
     who met the standard of care (a decision that was inconsistent with existing policy); and
     (4) the failure to replace a key Program Support Center claims official or to reassign his or
     her reporting duties.

     Recommendation(s): We recommended that IHS, HRSA, and NIH each take steps to:
     (1) implement a corrective action process that would address unreported cases, (2) improve
     internal controls involving file management, and (3) assign staff to assume responsibility
     for addressing practitioner questions/complaints and data entry of reports to the NPDB.

     Status: The HRSA Administrator, who responded on behalf of the Secretary, indicated that
     HHS is working to develop a final action plan that will include policy decisions relating to
     future reporting, including ensuring agency compliance.

     As of February 2007, IHS had submitted 205 additional reports of practitioners to the
     NPDB, HRSA had submitted 121 reports, and NIH had not submitted any reports. NIH
     indicated that it will not submit reports until a revised departmental policy is issued. All cases
     submitted by IHS and HRSA involve practitioners who did not meet the standard of care.
     Neither agency is submitting cases where the standard of care was met.

      Report(s): OEI-12-04-00310; issued 11/05




64   New Nonmonetary Recommendations
Children, Families, and Aging
Administration on Aging

Increase Participation in Cost Sharing of Older Americans Act Services

Background: In 2000, amendments to the OAA allowed States to implement cost-sharing
for certain OAA services. AoA defines cost sharing as a method of allowing a recipient to
share in the cost of the service received. The amendments include a number of requirements
that are intended to protect low-income older individuals’ access to services.

Finding: We found that States’ implementation of cost sharing has been limited. Twelve
States have implemented cost sharing for at least one OAA service in at least one part of
the State. None of these States has implemented cost sharing for all allowed OAA services.
AoA has provided limited guidance to States about implementing cost sharing. States have
not implemented cost sharing in accordance with the OAA requirements designed to protect
low-income individuals’ access to services. Also, AoA’s participation data cannot be used
to determine any impact of cost sharing on participation, primarily because States report
participation data in the National Aging Program Information System/State Program
Reports (NAPIS/SPR) differently.

Recommendation(s): We recommended that AoA ensure that States’ cost-sharing practices
comply with OAA requirements, provide additional guidance to States about cost sharing,
and improve the quality of its data so that any effects of cost sharing can be determined.

Status: AoA has implemented actions to address our recommendations. AoA senior staff
meet regularly with the six AoA Regional Administrators. Past discussions focused on technical
assistance that has been made available to States. AoA is also communicating with each of
the 12 States identified in the study to review OAA cost-sharing requirements and establish
the need for technical assistance. In addition, letters of guidance have been sent to all State
Units on Aging assuring them that technical assistance regarding OAA cost sharing is readily




                                                                                                  Recommendations
                                                                                                  New Nonmonetary
available to all States. AoA did not concur with the recommendation to improve the quality
of the NAPIS/SPR data. AoA has made several improvements to NAPIS/SPR over the last
5 years, many of which are noted in the report. Although we recognize these improvements,
we found that States participating in cost sharing report their participation data in the
NAPIS/SPR differently and include different populations in their counts. Therefore, this
issue remains important because it has implications beyond cost sharing, particularly because
these data provide essential information for AoA, including performance outcome information
required by the Government Performance and Results Act and the Performance Assessment
Rating Tool.

 Report(s): OEI-02-04-00290; issued 09/06




New Nonmonetary Recommendations                                                                   65
     Other Children, Families, and Aging Issues
     Foster Care

     Improve Children’s Use of Health Care Services While in Foster Care Series

     Background: The Medicaid program provides health care to low-income persons and
     long term care to persons with disabilities and low-income elderly individuals. It is
     administered by CMS and jointly funded by the Federal and State governments. Section
     1902(a)(10)(A)(i)(I) of the Social Security Act (the Act) states that children in foster care
     who are covered under Title IV-E of the Act are eligible for Medicaid. Children in foster
     care who are not eligible for Title IV-E usually qualify for Medicaid through other eligibility
     categories set forth by each State. Federal Early and Periodic Screening, Diagnosis, and
     Treatment (EPSDT) guidelines require each State to make preventive health care services
     available to Medicaid-eligible individuals under the age of 21 at intervals that meet reasonable
     State medical and dental practices, as outlined in sections 1902(a)(43) and 1905(r) of the Act.

     Finding: We evaluated and issued reports for eight States (Georgia, Kansas, Illinois, New
     Jersey, New York, North Dakota, Oregon, and Texas), which together represented 24 percent
     of the total foster care population. We found that, even though sampled States utilized
     differing approaches to provide Medicaid services to children in foster care, all of the 400
     sampled children included in these studies were covered by their States’ Medicaid program
     and that most had made Medicaid claims for health care services. Through our use of mixed
     methods, in which we reviewed both Medicaid claims and case-file documentation in five of
     the eight States, we found that the experiences of sampled children varied in the receipt of
     required services. Mental health screening requirements also varied, ranging from generally
     requiring that legal custodians provide for the mental health of children in their custody to
     specifically requiring that a developmental or psychological evaluation be completed within
     specific timeframes. Many foster care providers (i.e., foster parent or residential care facility
     staff) interviewed reported not receiving medical histories or other medical information
     about children in their care.

     Recommendation(s): We made various recommendations calling generally for ACF and
     CMS to work with each State to improve foster care children’s access to State Medicaid
     services, provide medical services in a timely manner, and help States ensure that the most
     complete medical histories are shared with the children’s caregivers.

     Status: In general, ACF and CMS agreed with the recommendations of the report series.
     Both noted that they were willing to work with all the States evaluated in our series to ensure
     the implementation of our recommendations. There is some evidence of action by ACF and
     CMS in addressing these issues. ACF, for example, noted that it is actively working with the
     North Dakota Division of Medical Services to promote the importance of obtaining medical
     histories and providing medical information to foster care providers. ACF also said that it is
     working with Texas to accomplish goals established in its Program Improvement Plan devel-
     oped because of a Child and Family Services Review (CFSR). Similarly, CMS indicated that it
     is available to provide technical assistance to Texas to promote provider education regarding
     the frequency schedule requirements and appropriate documentation of vision and hearing
     screenings. Despite these efforts, however, the statuses of the implementation for some of
     the recommendations offered remain unclear. CMS, for instance, presented no plan of action




66   New Nonmonetary Recommendations
Foster Care

for addressing our recommendations for New York, Kansas, and North Dakota. Moreover,
we have no knowledge of proactive steps taken by ACF or CMS to implement our
recommendations beyond the States studied in the report series.

 Report(s): OEI-02-00-00360;      issued   07/03   OEI-02-00-00363;   issued   06/04
            OEI-07-00-00640;      issued   08/03   OEI-07-00-00643;   issued   08/04
            OEI-07-00-00641;      issued   02/04   OEI-07-00-00644;   issued   01/05
            OEI-07-00-00642;      issued   03/04   OEI-02-00-00362;   issued   06/05




                                                                                       Recommendations
                                                                                       New Nonmonetary




New Nonmonetary Recommendations                                                        67
     Foster Care


     Improve Oversight of State Standards and Practices for Content and Frequency of
     Caseworker Visits to Children in Foster Care

     Background: Caseworker visits are critical elements in maintaining the safety and well-being
     of children in foster care. There are no Federal requirements regarding specific activities that
     caseworkers must perform during visits with children in foster care. However, ACF reviews
     caseworker visits as part of its CFSRs. During CFSRs, ACF determines, for approximately
     50 cases per State, whether the frequency of caseworker visits with children was sufficient
     to ensure adequate monitoring of the child’s safety and well-being and whether visits were
     focused on issues pertinent to case planning, service delivery, and goal attainment. Our
     evaluation focused exclusively on State standards for children in foster care, including an
     analysis of States’ written standards for the content and frequency of visits, as well as reported
     content activities for States without written standards and State capacity to produce statewide
     reports on the frequency of caseworker visits.

     Finding: We found that nearly all States have statewide written standards addressing the
     frequency of caseworker visits with children in foster care. In 43 States, standards call for
     caseworkers to visit children at least once a month. Twenty States demonstrated their ability
     to produce statewide reports detailing how often children were visited by caseworkers in
     FY 2003. Seven of those 20 reports indicated that fewer than half of children were visited
     monthly on average during FY 2003.

     Forty-one out of 51 States reported having statewide written standards addressing the content
     of caseworker visits. Three of the 41 States reported having written documents addressing
     the content of caseworker visits as part of broader program areas. Ten States did not have
     written standards.

     Recommendation(s): ACF should promote the development of automated systems, such as
     the Statewide Automated Child Welfare Information System, for those States with limited or
     nonexistent automated capacity to record the frequency of caseworker visits and produce
     statewide reports. For States that already have this capacity, we recommended that ACF work
     with them to ensure that visitation data are recorded in automated systems. Such automated
     reports could be particularly useful for States cited during the ACF CFSRs as needing
     improvement in the area of frequency of caseworker visits.

     Status: ACF participated in a national conference call with States in which our report
     findings and recommendations were outlined, along with information regarding technical
     assistance available from States already capturing visitation data and producing reports. In
     addition, following the issuance of this report, the Child and Family Services Improvement
     Act (CFSI) of 2006 (Public Law 109-288) added new provisions to Title IV-B, subpart 1,
     related to caseworker visits with children in foster care.

     First, the new law adds a new Title IV-B, subpart 1, State plan requirement at section 422
     of the Social Security Act, which requires that States and Tribes describe standards for the
     content and frequency of caseworker visits for children in foster care, which, at a minimum,
     must be monthly and focus on case planning and service delivery (effective October 1, 2007,
     section, 422(b)(17) of the Social Security Act.)




68   New Nonmonetary Recommendations
Foster Care


Second, the CFSI Act added section 424(e) to Title IV-B, subpart 1, of the Social Security
Act. Section 424(e)(1) and (2) of the Act requires that States submit data to ACF, which, for
FY 2007, show the percentage of children in foster care visited monthly by their caseworkers
and the percentage of visits that occurred in the children’s residences in order to receive
Title IV-B, subpart 1, funds for FY 2008.

Furthermore, the new law requires that States develop and achieve annual goals to ensure
that 90 percent of the children in foster care are visited by their caseworkers monthly by
October 1, 2011. State funds are reduced if a State does not achieve its annual goal or the
goal of 90 percent by 2011.

Guidance has been issued to States in the form of an informational memorandum,
ACYF-CB-IM-06-05, and a program instruction, ACYF-CB-PI-07-02, concerning the CFSI
Act. The new provisions to Title IV-B, subpart 1, related to caseworker visits with children
in foster care, are described in those documents.

 Report(s): OEI-04-03-00350; issued 12/05             OEI-04-03-00351; issued 12/05




                                                                                                Recommendations
                                                                                                New Nonmonetary




New Nonmonetary Recommendations                                                                 69
Previous Nonmonetary Recommendations
Medicare and Medicaid
Hospitals

Improve Oversight of Rural Health Clinics

Background: The Rural Health Clinic (RHC) program created in 1977 by Public Law 95-210
is intended to increase access to health care for rural medically underserved areas and to
expand the use of mid-level practitioners in rural communities. In 1996, OIG and GAO
issued reports that raised concerns about the inappropriate growth and locations of RHCs.
Both offices recommended changes that would ensure that RHCs are located in areas that
would otherwise be underserved.

Finding: We found that RHCs and associated Medicare and Medicaid expenditures have
grown substantially since 1990. Four interrelated factors appear to be driving the recent
growth of RHCs: providing access to care, reimbursement, managed care, and the certification
process. RHCs may be increasing access to care in some areas but not in others. They paid
based on their costs, which may be inflated or inappropriate but are difficult and sometimes
impossible to verify or audit without significant resource expenditure by the Government.

Sixty-one percent of RHCs are located in areas that are not designated as shortage areas and
39 percent are located in urbanized areas.

Recommendation(s): CMS, in conjunction with HRSA, should modify the certification
process to increase State involvement and ensure more strategic placement of RHCs.
CMS should expedite the issuance of the regulations under development and should take
immediate steps to improve the oversight and functioning of the current cost reimbursement
system, with a long term goal of implementing an improved method of reimbursement.

Status: CMS concurred with the intent of our recommendations. The BBA of 1997 refines
the requirements for RHC designations and provider-based reimbursement. CMS developed
a program memorandum consolidating and clarifying the policy regarding provider-based and
free-standing designation conditions. CMS published a final rule amending, among other
things, the criteria for designating a clinic as an RHC. However, because the date on which
CMS published this rule was 3 years beyond that of the proposed rule, contrary to statutory
requirement, CMS determined that the rule needed to be republished as a notice of proposed
rulemaking. The proposed rule is currently in the Department for clearance and publication.




                                                                                               Recommendations
                                                                                               Previous Nonmonetary
 Report(s): OEI-05-94-00040; issued 07/96             OEI-05-03-00170; issued 08/05




Previous Nonmonetary Recommendations                                                           73
     Hospitals


     Improve Quality Oversight of Ambulatory Surgical Centers in the Medicare Program

     Background: ASCs are one of the fastest growing settings for ambulatory surgery in the
     Medicare program. CMS is responsible for the oversight of care provided in this health care
     setting. The quality of oversight is determined by how well an ASC meets Medicare’s
     Conditions of Coverage, an established set of minimum health and safety standards with
     which ASCs must comply to qualify for Medicare reimbursement. ASCs must become
     Medicare certified by a State survey and certification agency or be privately accredited to
     show that they meet the Conditions of Coverage. ASCs are free to choose either a State
     agency or a private agency to become certified.

     Finding: We found that the number of Medicare ASCs more than doubled from 1990 to
     2000, and major procedures performed within ASCs increased by 730 percent. Medicare’s
     system of quality oversight is not sufficient in that one-third of ASCs certified by State
     agencies had not been recertified in 5 or more years when this review was performed in 2000.
     CMS does little to hold State certification agencies and accreditors accountable to the
     Medicare program and the public.

     Recommendation(s): CMS should determine an appropriate minimum cycle for surveying
     ASCs certified by State agencies and hold State agencies and accreditors fully accountable to
     the Medicare program for their performance in overseeing ASCs. CMS should ensure that
     State agency certification and accreditation strike an appropriate balance between compliance
     and continuous quality improvement.

     Status: CMS has reported significant progress implementing the Quality Improvement
     Evaluation System and the Automated Case Tracking System to continually monitor and
     refine the State survey agencies’ performance standards. The MMA of 2003 directs that a
     new payment system for ASC services be implemented no later than January 1, 2008.
     Pursuant to the MMA, CMS expects to conduct a comprehensive reevaluation of the ASC
     benefit including the improvement of quality oversight.

      Report(s): OEI-01-00-00450; issued 02/02




74   Previous Nonmonetary Recommendations
Hospitals


Improve Oversight of Medicare-Approved Heart Transplant Centers

Background: CMS has not established ongoing performance standards for Medicare-
approved heart transplant centers since establishing coverage standards in 1987. The 1987
coverage decision stated that CMS’s policy regarding the initial approval as a heart transplant
center was to require that centers perform 12 heart transplant procedures on 12 patients in
each of the two preceding 12-month periods and on 12 patients prior to that. It also
required centers to have achieved a 73-percent 1-year survival rate and a 65-percent 2-year
survival rate for recipients.

Finding: We used initial approval criteria to assess the ongoing performance of Medicare-
approved heart transplant centers. We found that from 1987 to 2000, 68 of 90 Medicare-
approved heart transplant centers failed, at least once, to meet the initial approval criteria for
volume and/or survival rate. From 1992 to 2000, 15 percent of Medicare beneficiaries who
received heart transplants did so in Medicare-approved centers that fell below the initial
approval performance levels. CMS rarely received data from heart transplant centers on their
volume and survival rate, limiting its ability to detect and address potential quality concerns.

Recommendation(s): CMS should develop standards for continuing approved centers as
well as for levels of performance that trigger specific responses from CMS. In the short
term, we also recommended that CMS improve its oversight of centers by entering into an
arrangement with HRSA for regular exchange of volume and survival rate data.

Status: On February 4, 2005, CMS published proposed rule (70 FR 6140), “Hospital
Conditions of Participation: Requirements for Approval and Reapproval of Transplant
Centers to Perform Organ Transplant.” The notice of proposed rulemaking established the
requirements for approval and reapproval of transplant centers to perform organ transplants.
The approval requirements include data submission, outcome measures, and process require-
ments. CMS’s projected publication date for the final rule is 2007. HRSA has partnered with
CMS in developing outcome measures for the proposed rule and will continue to act as a
liaison between CMS and the Scientific Registry of Transplant Recipients to provide assis-
tance to review data on transplant center(s) performance.

 Report(s): OEI-01-02-00520; issued 02/04



                                                                                                     Recommendations
                                                                                                     Previous Nonmonetary




Previous Nonmonetary Recommendations                                                                 75
     Nursing Homes


     Develop Nurse Staffing Standards for Nursing Homes

     Background: The OBRA of 1987 requires nursing facilities to have sufficient nursing staff
     to provide nursing and related services to attain or maintain the highest practicable physical,
     mental, and psychosocial well-being of each resident.

     Finding: We found that many of the most frequently cited nursing home deficiencies are
     directly related to reported shortages of direct care staff. The failure to provide proper treat-
     ment to prevent or treat pressure sores illustrates the lack of direct care staff to ensure that
     residents are properly hydrated, nourished, and turned frequently.

     Recommendation(s): We recommended that CMS develop staffing standards for registered
     nurses and certified nurse assistants in nursing homes to ensure sufficient staff on all shifts
     and to enable residents to receive proper care. Staffing standards should account for the
     intensity of care needed, qualifications of the staff, and the specific characteristics of both
     the nursing home and the residents.

     Status: At the request of Congress, CMS conducted a study examining the relationship of
     staffing levels to the quality of care received by nursing home residents. A Phase I Report to
     Congress was delivered in July 2000. A Phase II Report to Congress was delivered in 2002.
     Phase II indicated a strong relationship between staffing ratios and quality of nursing home
     care outcomes. In addition, the report identified staffing thresholds that maximize quality
     outcomes. Although many States will look to the report for standards upon which to base
     minimum staffing requirements under their respective State licensure authority, CMS does not
     think there is currently sufficient information upon which to base a Federal requirement for
     all certified nursing homes. CMS identified a number of short-term, interim options for
     improving the current Online Survey and Certification Reporting (OSCAR) reporting system,
     which will enable better nurse staffing reporting on Nursing Home Compare. CMS is
     reviewing a comprehensive study identifying longer-term options for an adequate system for
     public reporting.

      Report(s): OEI-02-98-00331; issued 03/99




76   Previous Nonmonetary Recommendations
Nursing Homes


Update Nursing Home Nurse Aide Training Curriculum

Background: The OBRA of 1987 mandated the Nurse Aide Training and Competency
Evaluation Program to establish minimum requirements for nurse aide competency.

Finding: Ninety percent of surveyed nursing home experts reported that the medical and
personal care needs of today’s nursing home residents have changed since the implementation
of the OBRA. We found that training has not kept pace with the demands of the changing
care environment. We also found that teaching methods are often ineffective, clinical
exposure was too short, and in-service training may not be meeting Federal requirements.

Recommendation(s): We recommended that CMS improve nurse aide training and compe-
tency program requirements to ensure that the content of the training curriculum and testing
remain relevant to the current complex resident care needs. We also recommended that CMS
continue to work with States to ensure that training is effective and efficient and that nursing
homes are in compliance with in-service training requirements.

Status: CMS concurred with our recommendations and intends to use its current contract
with Abt Associates to more extensively document the problem and develop specific policy
and program options for improvement. Phase I of the contract assessed existing State
programs. Phase II is underway to develop specific training programs for States. CMS
also proposed to add a requirement to the conditions of participation that nursing homes
document when in-service training is conducted to address the weaknesses identified in nurse
aides’ performance reviews. CMS’s research revealed several areas for policy improvement
and development that will be addressed in a report currently under clearance.

 Report(s): OEI-05-01-00030; issued 11/02




                                                                                                   Recommendations
                                                                                                   Previous Nonmonetary




Previous Nonmonetary Recommendations                                                               77
     Nursing Homes

     Improve Guidance to State Agencies on Citing Nursing Home Deficiencies

     Background: The OBRA of 1987 expanded requirements that nursing homes must comply
     with prior to Medicare certification and defined the State survey and certification process for
     determining compliance with Federal standards of care.

     Finding: Using the OSCAR data system, we found that nursing home deficiencies have
     increased by 8 percent since 1998. We found that 89 percent of the nursing homes had at
     least one deficiency. We also found that wide variation exists among States in the number of
     deficiencies they cite. The average deficiency rate indicated in nursing home surveys in 2001
     was 6.2 percent. Also, States differ in determining specific deficiency citations with four
     major factors contributing to the variation: (1) inconsistent survey focus, (2) unclear
     guidelines, (3) lack of a common review process for draft survey reports, and (4) high
     surveyor turnover.

     Recommendation(s): We recommended that CMS should continue to improve guidance to
     State agencies on citing deficiencies by providing guidelines that are both clear and explicit.
     We also recommended that CMS, together with States, should develop common review
     criteria for draft survey reports.

     Status: CMS concurred with our recommendations and recognized that the standard of
     quality has been ill-defined, particularly with regard to the nature and severity of harm, or
     potential harm, to residents caused by the failure to provide optimal psychosocial care and
     services. In August 2003, CMS provided additional guidance regarding specific types of
     deficiencies. In November 2004, CMS also issued guidance on assessing the severity of
     deficiencies relating to quality of care and quality of life. CMS is currently developing
     guidance for other deficiencies.

      Report(s): OEI-02-01-00600; issued 03/03




78   Previous Nonmonetary Recommendations
Nursing Homes

Improve Accuracy of Nursing Home Compare

Background: In 1998, the HHS launched the Nursing Home Compare Web site. The site is
maintained by CMS. Nursing Home Compare provides information about the past performance
of all Medicare - and Medicaid-certified nursing homes in the country. The site also serves as
a source of public information on nursing home quality. Consumers can use the information
provided on the site to help them choose the nursing home that best fits their needs.
Therefore, it is important that the site accurately portray all Medicare-and Medicaid-certified
nursing homes.

Finding: We determined that Nursing Home Compare contains nearly all Medicare- and
Medicaid-certified nursing homes. However, Nursing Home Compare did not include one or
more surveys for 19 percent of nursing homes. Furthermore, one or more deficiencies were
missing from the inspection results of 11 percent of nursing homes. For 15 percent of
nursing homes, Nursing Home Compare presented deficiencies not found in State survey
documentation. These inaccuracies leave consumers with incomplete information about the
nursing homes’ survey results and complaint histories.

Recommendation(s): We recommended that CMS require State agencies to verify that the
most recent inspection results are in CMS databases and establish a single point of contact
for reporting discrepancies on the Web site.

Status: CMS agreed with our first recommendation. CMS indicated that it will consider
adding regional office contact information to Nursing Home Compare to facilitate corrections
to the Web site. CMS is currently working with the Web site designers and the regional
offices to develop the most efficient means of providing CMS oversight of State survey
agency data entry.

 Report(s): OEI-01-03-00130; issued 06/04




                                                                                                  Recommendations
                                                                                                  Previous Nonmonetary




Previous Nonmonetary Recommendations                                                              79
     End Stage Renal Disease


     Improve Quality Improvement Processes in Dialysis Facilities

     Background: This study presented lessons learned by the five largest dialysis corporations
     regarding the use of clinical performance measures to hold facilities accountable for the
     quality of care provided to dialysis patients.

     Finding: Based on the experiences of large dialysis corporations in using performance data
     to support quality improvement in dialysis facilities, we learned that medical directors and
     attending physicians are vital to successful quality improvement programs. Collecting a
     broad set of measures, establishing minimum performance standards, disseminating timely
     comparative feedback data, stressing facility-level projects, and using performance data to
     identify possible problems in facilities were also key concepts in successful quality
     improvement programs.

     Recommendation(s): We recommended that CMS revise the Conditions for Coverage to
     require facility medical directors to exercise leadership in quality improvement, require dialysis
     facilities to conduct their own quality of improvement projects, examine ways to foster the
     commitment of attending physicians to performance measures, develop more effective
     intervention strategies for facilities, and work with the corporations to share experiences
     and minimize reporting burdens on dialysis facilities.

     Status: CMS concurred with most of our recommendations. The Conditions for Coverage
     proposed rule was published in February 2005, had a 90-day public comment period, and
     has not yet been published as a final regulation. The proposed conditions would require an
     outcome-oriented Quality Assessment and Performance Improvement (QAPI ) program,
     increased participation of attending physicians in patient care and in supporting the facility
     QAPI program, an increased medical director role, and electronic clinical measure reporting.

      Report(s): OEI-01-99-00052; issued 01/02




80   Previous Nonmonetary Recommendations
Medicare Durable Medical Equipment


Improve Medical Equipment Suppliers’ Compliance With Medicare Standards

Background: CMS reported that payments for Durable Medical Equipment, Prosthetics,
Orthotics and Supplies (DMEPOS) reached $10 billion in FY 2005. DMEPOS suppliers
must enroll in the Medicare program and comply with Medicare supplier standards pursuant
to 42 CFR § 424.57(c) to sell or rent medical equipment and supplies to Medicare beneficiaries
and to submit claims for Medicare reimbursement. There were only 11 standards at the time
of this study.

Finding: Less than 1 percent of medical equipment suppliers did not have a physical
presence at their business address of record. In addition, all suppliers complied with delivery,
warranty, repairs, returns, complaints, and disclosing ownership standards. Finally, some
suppliers failed to comply with inventory, liability insurance, and licensure standards; and half
of the suppliers did not comply with the standard to provide consumer information.

Recommendation(s): OIG recommended that CMS strengthen the Medicare DMEPOS
supplier enrollment process and ensure that suppliers meet Medicare supplier standards.

Status: CMS concurred with our recommendations and stated they would consider the
options outlined by OIG for strengthening the Medicare DMEPOS supplier enrollment
process and ensuring that supplies meet Medicare supplier standards.

 Report(s): OEI-04-99-00670; issued 08/01




                                                                                                    Recommendations
                                                                                                    Previous Nonmonetary




Previous Nonmonetary Recommendations                                                                81
     Medicare Durable Medical Equipment


     Ensure Appropriate Use of Surrogate Physician Identification Numbers

     Background: Medicare beneficiaries covered under Part B are eligible to receive medical
     equipment that is ordered by a physician or nonphysician provider and furnished by a
     supplier who has been issued a billing number by Medicare. If the ordering physician has
     not been assigned a UPIN, the supplier must use a temporary or surrogate number when
     submitting claims.

     Finding: We found that for a sample of services for which a surrogate number was used for
     billing DME claims, 61 percent of services should have been ordered using the prescribing
     physician’s permanent identification number rather than a surrogate. Further, supporting
     documentation was missing or incomplete for 45 percent of the sampled services. Medicare
     paid an estimated $61 million for such improperly billed services in 1999.

     Recommendation(s): CMS should perform targeted reviews of claims for medical equipment
     ordered with surrogate numbers and should continue to educate suppliers and physicians
     about the use of accurate identification on claims.

     Status: CMS concurred with our recommendations. In September 2002, CMS issued to
     intermediaries and carriers a program memorandum that contained specific instructions on
     the proper use of surrogate UPINs for placement in intermediary and carrier bulletins and
     Web sites.

      Report(s): OEI-03-01-00270; issued 08/02




82   Previous Nonmonetary Recommendations
Medicare Reimbursement


Ensure That Appropriate Mental Health Services Are Delivered in Nursing Homes

Background: Medicare covers mental health services delivered to beneficiaries, subject to a
20-percent coinsurance by beneficiaries. Such services are covered when medically necessary
and rendered by a psychiatrist, clinical social worker, or psychologist.

Finding: Our review of nursing home medical records revealed a series of problems in
the delivery of mental health services to patients in nursing homes, including patients not
receiving needed care and fewer skilled individuals providing services.

Recommendation(s): CMS should take a series of steps to ensure that appropriate services,
including educational activities and guidelines, are delivered.

Status: CMS concurred with the recommendation and has taken several steps to ensure that
appropriate services are delivered. The Carrier Medical Directors workgroup developed and
distributed a final model medical review policy to address Medicare coverage of psychiatry
and psychology services. CMS has also made revisions to its training curriculum for nursing
home surveyors. In addition, CMS offered a national satellite broadcast, “Mental Illness in
Nursing Homes,” in 2001. The QIOs increased the focus on depression management and
treatment beginning August 2005.

 Report(s): OEI-02-91-00860; issued 05/96




                                                                                              Recommendations
                                                                                              Previous Nonmonetary




Previous Nonmonetary Recommendations                                                          83
     Medicare Reimbursement


     Equalize Medicare Reimbursement for Home Dialysis

     Background: Section 1881(b)(7) of the Social Security Act allows CMS to pay for continuous
     cycling peritoneal dialysis that is purchased from a DME supplier an amount up to 130
     percent of the composite (Method I) rate applicable to other forms of dialysis services.

     Finding: We found that Medicare pays for all dialysis modalities under all payment methods
     at the same rate, with the exception of continuous cycling peritoneal dialysis purchased
     from a DME supplier. This payment inequity caused Medicare and its beneficiaries to pay
     $15.3 million more for dialysis in calendar year 2000 than would have been paid for the same
     services under payment Method I.

     Recommendation(s): We recommended that CMS revise its regulation to limit payment for
     continuous cycling peritoneal dialysis under Method II to the amount paid under Method I.

     Status: CMS did not concur with our recommendation of changing regulations to limit
     payment for Method II continuous cycling peritoneal dialysis supplies to that under
     Method I. CMS believes the statute clearly intends that payment limits for continuous
     cycling peritoneal dialysis supplies should be set at a higher level than that under the
     composite rate methodology. CMS agreed to take corrective action to ensure that claims
     are not paid unless a valid method selection form has been recorded and that improper
     overpayments should be recovered.

      Report(s): OEI-07-01-00570; issued 05/03




84   Previous Nonmonetary Recommendations
Medicare Reimbursement


Strengthen Managed Care (Part C) and Prescription Drug (Part D) Benefit Payment
Cycles

Background: The CMS Medicare benefits expense is composed of two major components:
fee-for-service and managed care. Fee-for-service expenditures are processed and paid for
by Medicare contractors, whereas managed care expenditures are processed and paid for by
the central office. In January 2006, CMS completed a system conversion to the Medicare
Advantage Prescription Drug System (MARx) for payments to the managed care organizations
and for the Medicare prescription drug program, which resulted in the accrual of more than
$1 billion in liabilities and receivables and the disclosure of a gain contingency.

Finding: The FY 2006 financial statement audit noted that CMS lacked a comprehensive
control environment related to the managed care benefits payment cycle and the oversight
of managed care contractors, which include MA organizations. The existence of a payment
process outside of CMS’s Office of Financial Management and the lack of integration of
accounting processes within operation procedures related to MCOs creates an environment
in which the risk of inaccurate payment is not sufficiently mitigated. Also, the auditors noted
additional inadequacies with lack of documentation and procedures to determine eligibility
of organizations and with oversight and monitoring of managed care organizations by the
central and regional offices. In addition, the regional offices did not retain documentation to
support exception items in reviews of MCOs. Finally, the audit identified a lack of tailored
policies and procedures to monitor reviews related to demonstration projects.

CMS policies and procedures were not sufficient to adequately reduce the risk of benefit
payment errors or their timely correction. Systems errors have gone for more than 7 months
without being rectified. In addition, CMS’s policies and procedures to review and process
managed care and prescription drug payments were inadequate. However, MARx payment
errors have been identified and were in the process of being corrected or accrued at the plan
level during FY 2006.

Recommendation(s): CMS should (1) ensure that the management system is updated in
a timely manner in order to provide the information necessary for adequate management
oversight; (2) ensure that established policies address standard documentation and retention
requirements for regional office monitoring reviews of the managed care organizations;
(3) establish policies for regional office monitoring of demonstration projects that include tailored
procedures to address the unique requirements or risks of each demonstration project;

                                                                                                        Recommendations
                                                                                                        Previous Nonmonetary
(4) perform extensive beneficiary data and payment information analysis to identify potential
errors, unusual variances, or inappropriate payment trends; (5) perform a timely reconciliation
of authorized payments made by Treasury and establish a log to document anomalies and
errors that are resolved as part of the authorization process to further support decisions
made as part of the authorization process; and (6) develop a process to perform reconciliations
of beneficiary-level data to plan payments, including plan-level adjustments.

Status: During FY 2006, CMS achieved the following: (1) developed a number of tools
to oversee the Medicare Prescription Drug Benefit, including a Part D audit guide, audit
checklists and worksheets, a Part D audit discussion guide, a Part D audit standard operating




Previous Nonmonetary Recommendations                                                                    85
     Medicare Reimbursement


     Strengthen Managed Care (Part C) and Prescription Drug (Part D) Benefit Payment
     Cycles (continued)

     procedure, and a Part D Health Plan Management System audit module; (2) moved forward
     in the development of error rates for Part C, Part D, and Retiree Drug Subsidy programs and
     developed policies and procedures to document core and critical elements of managed care
     operations; and (3) executed protocols with Medicare Health Support and the Care
     Management for High Cost Beneficiary organizations that outline CMS activities to monitor
     programs and services.

     Nonetheless, CMS lacks a comprehensive control environment related to the managed care
     and prescription drug benefits cycle and the oversight of managed care contractors which
     include MA Organizations. The existence of a payment process outside of the Office of
     Financial Management and lack of integration of accounting processes within operating
     procedures related to managed care organizations and prescription drug plans contribute to
     furthering an environment where the risk of inaccurate payments is not sufficiently mitigated.

      Report(s): OAS-17-97-00097;       issued   04/98      OAS-17-02-02002;    issued   01/03
                 OAS-17-98-00098;       issued   02/99      OAS-17-03-03003;    issued   11/03
                 OAS-17-00-00500;       issued   02/00      OAS-17-04-02004;    issued   12/04
                 OAS-17-00-02001;       issued   02/01      OAS-17-05-02005;    issued   11/05
                 OAS-17-01-02001;       issued   02/02      OAS-17-06-02006;    issued   11/06




86   Previous Nonmonetary Recommendations
Medicare Reimbursement


Eliminate Inappropriate Payments for Mental Health Services

Background: Section 1862(a)(1)(A) of the Social Security Act requires all services (including
mental health) to be reasonable and necessary for the diagnosis or treatment of an illness or
injury or to improve the functioning of a malformed body member.

Finding: We found that Medicare may have inappropriately paid over $200 million for
mental health services in nursing homes, physicians’ offices, beneficiaries’ homes, community
mental health centers, and custodial care facilities. Claims were found to be inappropriate
because of a lack of medical necessity, poor documentation, lack of records, incorrect billing,
and unqualified providers. We noted particular problems with inappropriate and excessive
psychological testing and with provision of services to beneficiaries whose level of cognitive
impairment rendered them unable to benefit from psychotherapy services.

Recommendation(s): CMS should promote provider awareness of documentation and
medical necessity requirements; develop a comprehensive list of psychological testing tools
that can be correctly billed; target problematic services for prepayment edits or postpayment
medical review; and encourage carriers to take advantage of the Minimum Data Set, a standard
form that includes a mental health evaluation and establishes the need for psychological
services especially for its assessment of patient cognitive level.

Status: CMS generally concurred with our recommendations. It plans to explore a variety
of educational efforts and refer the reports to the carrier clinical workgroup on psychiatric
services. According to CMS, carriers will conduct data analysis of psychological testing and
psychotherapy claims and conduct medical reviews, if indicated. CMS provided training for
providers concerning Medicare payments for Part B mental health services via Medlearn in
April 2003.

 Report(s): OEI-03-99-00130; issued 05/01              OEI-02-99-00140; issued 01/01




                                                                                                  Recommendations
                                                                                                  Previous Nonmonetary




Previous Nonmonetary Recommendations                                                              87
     Medicare Reimbursement


     Ensure Accuracy of Carrier Payment Dates

     Background: Pursuant to the “Medicare Carriers Manual,” certain claims-processing standards
     must be met by the carriers, including a “payment floor” standard. Under these standards,
     carriers are instructed to hold payment of electronic claims for 13 days; claims should not be
     paid before the 14-day floor.

     Finding: According to CMS’s National Claims History File data, it appears that Medicare
     paid over 80 percent of Part B claims prior to the 14-day floor requirement. Contrary to this,
     CMS’s Contractor Reporting of Operational and Workload Data (CROWD) system shows
     that payments for less than 1 percent of these Part B claims were made prior to the 14-day
     floor. Information from both CMS and carrier staff indicated that data from the National
     Claims History File did not accurately reflect the carriers’ actual dates of payment.

     Recommendation(s): CMS should conduct a review of the carriers’ claims-processing data
     to examine the scheduled date of payment entered on claims sent to the Common Working
     File. We recommended that if there is no correlation between the claims payment date
     variable and the carriers’ actual date of payment, CMS should define what data should be
     entered into this field and indicate how they should be calculated and/or revise the current
     variable definition to clarify for National Claims History data users that the scheduled date
     of payment is not an accurate reflection of the actual date of the payment. CMS should
     also review the carriers’ claims-processing data to determine the accuracy of the information
     contained in the CROWD system.

     Status: At the time we issued our report, CMS stated that a review to compare data contained
     in the National Claims History File with data at the carrier level was underway. In addition,
     CMS has approved two new edits that will enforce the payment floor standards on claims
     sent to the Common Working File.

      Report(s): OEI-03-00-00350; issued 09/00




88   Previous Nonmonetary Recommendations
Medicare Managed Care


Improve Enrollment and Certification Processes in the Clinical Laboratory
Improvement Amendments Program

Background: The Clinical Laboratory Improvement Amendments of 1988 (CLIA) established
quality standards for all laboratory testing to ensure the accuracy and timeliness of test
results. The CLIA waives the standards for laboratories that use only tests that the Secretary
has determined have insignificant risk of erroneous result. Laboratories conducting only
such simple tests must apply for a certification of waiver from the Secretary. Regulations
require that laboratories eligible for a certification of waiver follow the manufacturer’s
instructions when conducting waived tests.

Finding: We found significant vulnerabilities in the CLIA certification process for laboratories
performing waived procedures and provider-performed microscopy. Many certificates of
waiver and provider-performed microscopy laboratories do not follow manufacturers’
instructions or conduct testing that is beyond the scope of their certification. Moderate
and high complexity laboratories also failed to meet requirements for waived testing.

Recommendation(s): We recommended that CMS provide educational outreach and self-
assessment tools to laboratories, require laboratories applying for certificates of waiver or
provider-performed microscopy to identify which test systems they use, and conduct
inspections of a random sample of waived and provider-performed microscopy laboratories
each year to assess compliance within the program.

Status: CMS concurred with all OIG recommendations to decrease vulnerabilities in the
CLIA enrollment and certification processes; however, it noted that resource limitations could
affect implementation. CMS worked collaboratively with CDC on developing a document
outlining good laboratory practices for waived testing, which was published in November
2005 in the “Morbidity and Mortality Report.”

 Report(s): OEI-05-00-00251; issued 08/01




                                                                                                   Recommendations
                                                                                                   Previous Nonmonetary




Previous Nonmonetary Recommendations                                                               89
     Prescription Drugs


     Provide Additional Guidance to Drug Manufacturers To Better Implement the
     Medicaid Drug Rebate Program

     Background: Section 1927 of the Social Security Act (the Act) requires drug manufacturers
     to enter into and comply with rebate agreements with the Secretary for States to receive
     Federal funds for a manufacturer’s covered outpatient prescription drugs. The Secretary may
     also authorize States to enter into agreements with drug manufacturers directly. In accor-
     dance with section 1927 of the Act, manufacturers are required to report their AMPs to CMS
     for each covered outpatient drug for a base period. On a quarterly basis, the manufacturer is
     required to report the AMP and the best price for each covered outpatient drug. We evaluated
     the methods used by selected manufacturers to determine the AMP and the best price and
     verified the accuracy of pricing information supplied to CMS by the drug manufacturers.

     Finding: We found that although manufacturers’ best price determinations were acceptable,
     calculations of AMPs were inconsistent. The variations occurred because CMS had not
     provided manufacturers with sufficiently detailed instructions on acceptable methods for
     calculating the AMP. The method used affects the AMP; the resulting rebates; and the
     accuracy, reliability, and consistency of the pricing information provided to CMS.

     Recommendation(s): CMS should survey manufacturers to identify the various calculation
     methods used to determine AMPs. CMS also should develop a more specific policy for
     calculating AMPs that would protect the interests of the Federal Government and be
     equitable to the manufacturers.

     Status: CMS did not concur, stating that the drug rebate law and the rebate agreements
     already established a methodology for computing AMPs. CMS officials also indicated that
     they had reexamined their policy to make it clear that manufacturers are not to inappropriately
     exclude prices from AMPs. We continue to support our recommendation. In addition, based
     upon ongoing audits, the method to determine the AMP still varies among manufacturers.
     The rebate law and agreements defined the AMP but did not provide specific written
     methodology for computing it. A proposed rule issued in December 2006 modified the
     definition of AMP to remove customary prompt pay discounts extended to the wholesalers
     from the AMP calculation. The proposed rule also appears to allow for the AMP to be a
     more transparent calculation. However, CMS still needs to provide oversight to determine
     whether the methods used to calculate AMPs are consistent among manufacturers.

      Report(s): OAS-06-91-00092; issued 11/92




90   Previous Nonmonetary Recommendations
Other Medicare and Medicaid Issues


Establish a National Medicaid Credit Balance Reporting Mechanism

Background: CMS does not require State agencies to routinely monitor providers’ efforts to
identify and refund Medicaid credit balances in patient accounts.

Finding: Previous OIG reports indicated that significant outstanding Medicaid credit
balances existed nationwide. Currently, many State agencies’ efforts are inadequate to
ensure that, nationwide, providers are identifying the majority of Medicaid credit balances
and remitting overpayments in a timely manner.

Recommendation(s): CMS should establish a national Medicaid credit balance reporting
mechanism similar to the Medicare Part A credit balance reporting procedures. Also, CMS
should require its regional offices to actively monitor the reporting mechanism established.

Status: CMS agreed to recover estimated outstanding credit balances and to evaluate State
agencies’ oversight activities. Initially, CMS also agreed with the recommendation to establish
a national Medicaid credit balance reporting mechanism similar to that used for Medicare Part
A. Upon reexamination, CMS decided not to do so, citing the uncertain but minimal savings
potential and the administration’s commitment to enhancing States’ flexibility and, specifically,
to avoiding the imposition of an unfunded mandate.

 Report(s): OAS-04-92-01023; issued 03/93               OAS-05-93-00107; issued 05/95




                                                                                                    Recommendations
                                                                                                    Previous Nonmonetary




Previous Nonmonetary Recommendations                                                                91
     Other Medicare and Medicaid Issues


     Increase the Accountability of Dialysis Facilities for Quality of Services

     Background: Section 1881(c) of the Social Security Act established ESRD Networks to
     ensure the “effective and efficient administration of the ESRD benefits.” Also, State agencies
     assess compliance of ESRD facilities with Medicare Conditions for Participation, listed at
     42 CFR § 405, subpart U.

     Finding: We found that CMS needs to improve its quality oversight of ESRD facilities
     through greater accountability of the facilities, ESRD Networks, and State agencies that
     contract with CMS to provide oversight.

     Recommendation(s): We recommended that CMS hold ESRD facilities more accountable
     through the following actions: revising the conditions of participation to promote accounta-
     bility and quality of care, strengthening the complaint system, instituting minimum cycle
     times for surveys, requiring Network/State agency joint initial surveys, and facilitating a
     method for public accountability regarding serious medical injuries. We recommended that
     CMS improve Network and State agency accountability by developing performance-based
     evaluations of Networks, improving assessment of surveys, and increasing public disclosure
     of both.

     Status: CMS generally concurred with our recommendations. Since 2002, CMS has surveyed
     dialysis facilities every 3 years. In addition, CMS provides facility data reports and ESRD
     Network data to State survey agencies to assist them in targeting facilities for surveys. CMS
     has also worked to improve the relationship and cooperation between the ESRD Networks
     and State survey agencies. In 2002, CMS hosted a joint meeting of 154 representatives from
     the State survey agencies and the ESRD Networks to help them understand their roles and
     responsibilities and to discuss collaboration and information sharing. CMS continues to
     facilitate discussions between the State agencies and ESRD Networks. The proposed ESRD
     Notice of Proposed Rulemaking was published in the “Federal Register” on February 4, 2005
     (70 FR 6183), with a 90-day comment period. Final regulations are pending. The proposed
     conditions require an internal facility complaint/grievance process and posting the ESRD
     Network and State Survey Agency’s complaint phone numbers and list of patient rights in a
     prominent area. In addition, the proposed facility-level quality assessment and performance
     improvement program must address medical injuries and medical errors identification.

      Report(s): OEI-01-99-00050; issued 06/00




92   Previous Nonmonetary Recommendations
Other Medicare and Medicaid Issues


Improve Medicare Information Systems Controls

Background: The Federal Financial Management Improvement Act of 1996 requires Federal
agencies to maintain acceptable accounting systems. Also, the Federal Managers’ Financial
Integrity Act of 1982 requires agencies to develop, maintain, and test their internal controls
and financial management systems and to report any material weaknesses and planned
corrective actions.

Finding: In FY 2006, CMS continued to make progress in identifying and addressing weak-
nesses in its automated Medicare processing systems. Although our review disclosed no
exploitation of any identified vulnerability, the weaknesses noted could result in unauthorized
access and updates to sensitive systems, programs, and data without proper authorization.
For example, the auditors noted that employees who did not require direct access to data
and application software programs to perform their job responsibilities had inappropriate
standing update access to Medicare data and application software programs. In addition,
the auditors noted that application changes were, in some cases, being implemented without
documented testing and approval and that application change control procedures were not
followed at all sites tested. We noted no change in the controls for the Entitywide Security
Program and Service Continuity Planning and Testing areas when compared with FY 2005;
in these areas, CMS sustained, but did not improve upon, the FY 2005 audit results.
The auditors noted slippage from FY 2005 with controls over systems software, including
the change control process for the MARx system.

Recommendation(s): For its Medicare contractors and system maintainers, CMS should
continue to (1) target contractor access control policies and procedures to ensure their
sufficiency and enforcement; (2) ensure the proper segregation of duties for application
and system programmers by limiting update access to Medicare data and/or programs;
(3) continue to assess the enforcement of change request (CR) 3862 with regard to the
approval of changes to the shared system coded edits and CR 3011 with regard to maintaining
audit trails, testing, and approval of program code; and (4) encourage the use of automated
tools to monitor, detect, and report to the CMS Information Security Office all noncompliance
by contractors and maintainers with CMS headquarters platform security configuration
standards for distributed servers.

Status: During the FY 2006 audit, we noted that CMS continued to make improvements
regarding the assessment of risks, the identification of controls to reduce risk, overall security

                                                                                                     Recommendations
                                                                                                     Previous Nonmonetary
policies and procedures, and the training of security personnel. Also, CMS continued to
review contractors through SAS 70 audits, an extensive contractor self-assessment program
and reporting process, and greater central oversight by contractor management. In addition,
the FY 2006 audit noted that CMS had made significant progress by continuing its reviews
of contractors, including penetration tests and reviews of configuration setting on servers.
Finally, CMS undertook a campaign to review, analyze, and thoroughly discuss the proposed
corrective action plans of contractors and CMS headquarters. However, CMS sustained but
did not improve upon the FY 2005 audit results. Numerous issues were noted in the areas
of direct update access to Medicare claims data and controls over changes to edits and proper
edit settings for the Fiscal Intermediary Shared System, Multi-Carrier System and Viable




Previous Nonmonetary Recommendations                                                                 93
     Other Medicare and Medicaid Issues


     Improve Medicare Information Systems Controls (continued)

     Information Processing Systems’ Medicare Systems were not in use during the most of the
     period under audit. In addition, no change in the controls for Entitywide Security Program
     and Service Continuity Planning and Testing areas were noted. In the area of systems
     software, security settings for platforms were not consistent with NIST standards and failed
     to provide sufficient security settings for computer platforms.

      Report(s): OAS-17-98-00098;       issued   02/99      OAS-17-02-02002;     issued   01/03
                 OAS-17-00-00500;       issued   02/00      OAS-17-04-02002;     issued   12/04
                 OAS-17-00-02001;       issued   02/01      OAS-17-05-02005;     issued   11/05
                 OAS-17-01-02001;       issued   02/02      OAS-17-06-02006;     issued   11/06




94   Previous Nonmonetary Recommendations
Public Health
Food and Drug Safety

Strengthen Food and Drug Administration Oversight of Clinical Investigators

Background: To ensure the quality and integrity of data submitted to the agency and to
protect the rights and welfare of human subjects, FDA’s bioresearch-monitoring program
inspects clinical investigators involved in the development and testing of new drugs,
medical devices, and biologicals. In most cases, these inspections occur after clinical work
is complete. FDA staff from the Office of Regulatory Affairs conduct onsite inspections as
part of FDA’s review of applications for experimental products.

Finding: We found that in general, oversight of clinical investigators by sponsors, institu-
tional review boards (IRB), and FDA is limited and problematic. We found that data
integrity concerns, more than human subject protections, drive FDA’s oversight of clinical
investigators and that the bioresearch-monitoring program lacks clear and specific guidelines.

Recommendation(s): FDA should define cross-center goals for the bioresearch-monitoring
program and develop criteria to determine whether the program is achieving these goals.
In addition, FDA should develop internal guidance on the thresholds that violations must
meet to justify disqualifying a clinical investigator from receiving investigational products.

Status: FDA has completed a number of activities to strengthen institutional review board
(IRB) oversight, but acknowledges that efforts are ongoing. In July 2004, FDA issued a pro-
posed rule to require institutional review boards (IRBs) to register at sites maintained by HHS
(69 FR 40556). In 2003 and 2004, the Office for Human Research Protections (OHRP), part-
nering with FDA and other Federal agencies and departments, sponsored national and regional
training conferences for IRBs, clinical investigators, clinical staff, and institutional officials on
good clinical practice and human subject protection issues. FDA also provided faculty for out-
reach programs and other activities with universities and professional societies and has created a
Web site to provide current information about FDA requirements and guidance for the conduct
of clinical studies. FDA and OHRP are also working to develop a coordinated process for joint
review of protocols under subpart D regulations of 21 CFR § 50.54 and 45 CFR § 46.407,
regarding the funding of research not approved by an IRB. FDA has established a new unit,
the Good Clinical Practice (GCP) Program, within the Office of Science Coordination in the
Commissioner’s Office, to coordinate and direct human subject protection, GCP, and biore-
search-monitoring program policy. In June 2006, FDA announced an initiative to strengthen
its oversight and protection of subjects in clinical trials and the integrity of resulting data as
part of the Critical Path Initiative. As part of this initiative, FDA intends to define cross-center

                                                                                                        Recommendations
                                                                                                        Previous Nonmonetary
goals and develop a quality system for the bioresearch-monitoring program. FDA has also
established a working group to examine the process for disqualification of clinical investigators
and develop internal guidelines on the threshold for disqualification. In December 2006,
FDA and OHRP published guidelines describing a coordinated process for joint review
of protocols under subpart D regulations of 21 CFR § 50.54 and 45 CFR § 46.407
(http://www.fda.gov/OHRMS/DOCKETS/98fr/06d-0172-gdl0002.pdf). Other highlights
of the Bioresearch-Monitoring Initiative include the issuance of guidance documents in 2006 on
using a centralized IRB process in multicenter clinical trials; the establishment and operation
of clinical trial data monitoring committees; and the publication of information sheet guidance
for IRBs, clinical investigators, and sponsors.

 Report(s): OEI-05-99-00350; issued 06/00



Previous Nonmonetary Recommendations                                                                    95
     Biomedical Research


     Protect Human Research Subjects by Strengthening Institutional Review Boards

     Background: In June 2000, Office for Protection from Research Risks moved from NIH
     to the Office of the Secretary and is now housed in OHRP. OHRP provides leadership for
     all 17 Federal agencies that carry out federally funded research under the Common Rule.
     OHRP works with NIH and FDA in new initiatives for research involving human subjects.
     FDA retains its enforcement authority to ensure researcher compliance with HHS patient
     protection and patient consent requirements in FDA-authorized drug and medical device
     clinical trials.

     Finding: We found that the effectiveness of IRBs is jeopardized by inadequate review time,
     unavailability of subject matter expertise, inadequate continuing reviews of approved
     research, conflicts that threaten IRB independence, and inadequate training for investigators
     and board members.

     Recommendation(s): We recommended jointly to NIH, OHRP, and FDA that they: (1) recast
     Federal IRB requirements so that they grant IRBs greater flexibility and hold them more
     accountable, (2) strengthen continuing protections for human subjects participating in
     research, (3) enact Federal requirements that help ensure that investigators and IRB members
     are adequately educated about and sensitized to human subject protection, (4) help insulate
     IRBs from conflicts that can compromise their mission in protecting human subjects,
     (5) recognize the workload pressures that many IRBs face and take actions to moderate
     them, and (6) reengineer the Federal oversight process.

     Status: As part of the Federal-Wide Assurance (FWA) process, OHRP recommended that
     institutions and their designated IRBs establish educational training and oversight mechanisms
     to ensure that research investigators, IRB members and staff, and other appropriate personnel
     maintain continuing knowledge of, and comply with, relevant ethical principles, relevant
     Federal regulations, written IRB procedures, OHRP guidance, other applicable guidance,
     State and local laws, and institutional policies for the protection of human subjects. OHRP
     recommends that IRB members, staff, and research investigators complete relevant educational
     and institutional training before reviewing or conducting human subject research. In April
     2001, FDA published an interim final rule when establishing additional safeguards for
     children in clinical trials involving FDA-regulated products (66 FR 20598). In addition,
     FDA has created a new Office of Pediatric Therapeutics, as well as a full Pediatrics Advisory
     Committee. NIH now requires Data and Safety Monitoring Boards to share summary
     information with IRBs and has implemented the requirement for monitoring plans for
     Phase and Phase II trials, and FDA has issued new draft DSMB guidance. In 2003 and 2004,
     OHRP, FDA, and other Federal agencies sponsored regional training workshops for IRBs,
     clinical investigators, and clinical staff on good clinical practice and human subject protection
     issues. In May 2004, to address conflict-of-interest concerns, HHS issued a final guidance
     document, “Financial Relationships and Interests in Research Involving Human Subjects:
     Guidance for Human Subject Protection,” (69 FR 226393). In July 2004, OHRP and FDA
     simultaneously issued proposed rules to require IRBs to register at sites maintained by HHS
     (69 FR 40556 and 69 FR 40584, respectively). In February 2005, HHS announced new
     electronic FWA forms required for OHRP approval to simplify the registration process.




96   Previous Nonmonetary Recommendations
Biomedical Research


HHS agencies also worked with the Office for Civil Rights on guidance related to HIPAA
privacy issues. In February 2006, FDA announced the Information Sheet Guidance Initiative
to update its process for developing, issuing, and making available guidance intended for
IRBs, clinical investigators, and sponsors. These guidances, known as “Information Sheets,”
provide recommendations for IRBs, clinical investigators, and sponsors to assist them in
carrying out their responsibilities to protect human subjects who participate in research
regulated by FDA. As part of the initiative, FDA plans to rescind Information Sheets that
are obsolete, revise and reissue Information Sheet Guidance that address current issues,
and develop new Information Sheet Guidance as needed. As of December 2006, FDA and
OHRP were working to develop a coordinated process for joint review of protocols under
subpart D regulations of 21 CFR § 50.54 and 45 CFR § 46.407. FDA is also announcing
the availability of five revised Information Sheet Guidances.

 Report(s): OEI-01-97-00193; issued 06/98            OEI-01-97-00197; issued 04/00




                                                                                              Recommendations
                                                                                              Previous Nonmonetary




Previous Nonmonetary Recommendations                                                          97
     Health Resources and Services


     Improve Hospital Reporting to the National Practitioner Data Bank

     Background: Section 423 of the Health Care Quality Improvement Act (42 U.S.C. § 11133)
     requires that each hospital or health care entity that takes a professional review action that
     adversely affects the clinical privileges of a physician or dentist for a period of longer than
     30 days report to the NPDB.

     Finding: We found that there are indications that hospitals may not be complying with the
     reporting requirements of the NPDB and that approximately half of hospitals have never
     reported an adverse action to the NPDB.

     Recommendation(s): We recommended that HRSA more fully encourage hospitals to follow
     the intent of Section 423 of the Health Care Quality Improvement Act by proposing legislation
     that would establish a civil monetary penalty of up to $10,000 for each instance of a hospital’s
     failure to report to the NPDB.

     Status: HRSA fully supported the recommendations and awarded a contract to
     PricewaterhouseCoopers to look at the feasibility of assessing compliance with the NPDB
     reporting requirements. The results of the PricewaterhouseCoopers studies clearly indicated
     that the vast majority of hospitals and other health care entities, specifically managed care
     entities, would not release the professional review materials supporting their actions in the
     absence of clear legal authority requiring them to do so. According to HRSA, the existing
     legislation is inadequate to force NPDB reporters to reveal information needed to allow
     audits of reporting compliance. Without voluntary cooperation from reporters, adequate
     audits of reporting compliance cannot be performed.

      Report(s): OEI-12-99-00250; issued 07/99




98   Previous Nonmonetary Recommendations
Health Resources and Services


Improve Monitoring of Ryan White CARE Act Grantees and Subgrantees

Background: The Ryan White Comprehensive AIDS Resources Emergency Act (Public
Law 101-381) was passed in 1990 and reauthorized in 1996 and 2000. Most recently,
Congress enacted the Ryan White HIV/AIDS Treatment Modernization Act of 2006 (Public
Law 109-415). Title I provides emergency relief grants to cities disproportionately affected
by HIV/AIDS. Title II provides grants to States to improve the organization of health and
support services. States distribute Title II funds to subgrantees. In FY 2001, $597.3 million
was provided under Title I and $977.4 million under Title II.

Finding: We found that Title I and Title II project officers are not adequately monitoring
sampled grantees (e.g., progress reports were missing, monitoring visits were not conducted,
and grantee applications were not used as a management tool). HRSA provides limited
support to project officers to systematically monitor grantees (e.g., little guidance/training,
lack of corrective action plans, high staff turnover, and minimal coordination). Grantees’
monitoring of subgrantees is limited (75 percent of the sampled grantees did not have
comprehensive documentation to demonstrate that they were monitoring subgrantees).

Recommendation(s): HRSA should (1) specify and enforce standards and policies regarding
how project officers should monitor grantees, (2) address ongoing training of project officers,
(3) standardize a corrective action process, (4) increase the number of site visits, (5) improve
project officer continuity and coordination, (6) set standards for grantees’ monitoring of
subgrantees, (7) require grantees to report how they monitor subgrantees, and (8) increase
efforts to monitor grantees’ oversight of subgrantees.

Status: HRSA concurred with our recommendations and indicated that significant adminis-
trative changes had occurred since the study had been conducted. For example, HRSA
consolidated its grants management offices, relocated most Title II monitoring responsibilities
from regional offices to headquarters, and redefined the Office of Field Operations as the
Office of Performance Review.

 Report(s): OEI-02-01-00640; issued 03/04               OEI-02-01-00641; issued 03/04




                                                                                                   Recommendations
                                                                                                   Previous Nonmonetary




Previous Nonmonetary Recommendations                                                               99
      Children, Families, and Aging
      Children, Youth, and Family Services

      Improve Methods of Recruiting Foster Parents

      Background: The Administration for Children and Families (ACF) has regulatory oversight
      of the Title IV-E Foster Care program, an entitlement program. It is designed to assist States
      in covering the costs for children in foster care by providing States with unlimited matching
      funds for children who meet income eligibility and other program requirements.

      Finding: We found that current recruitment methods are general in nature and do not focus
      on finding foster parents for children with special needs. Moreover, more could be done to
      effectively use current foster parents for this purpose, as they themselves may be the most
      effective recruitment tool. Both recruitment and retention efforts are hampered by a negative
      public image of foster care. We also found that foster parents wish to have more caseworker
      support and help in obtaining necessary services (e.g., medical and dental). States are unable
      to measure the success of their recruitment and retention methods.

      Recommendation: ACF and State foster care program managers should collaborate with
      national organizations to promote more positive media coverage of foster care. ACF should
      enhance information sharing and assessment of recruitment efforts. ACF should provide
      States with guidance focused on enhancing the effectiveness of States’ recruitment efforts.
      In addition, to the extent that resources are available, ACF should provide technical assistance
      to assist States in improving retention through the (1) development of outcome-based retention
      strategies to determine why families choose not to continue fostering, (2) development of
      data-tracking tools to collect retention information, (3) establishment of benchmarks and
      performance indicators, and (4) collection of retention data.

      Status: Although ACF concurred with our findings and recommendations, it did not indicate
      how it planned to address them. ACF noted that States may use some Federal funds for child
      care and respite care services. In addition, ACF supplied relevant adoption rate data.

       Report(s): OEI-07-00-00600; issued 05/02




100   Previous Nonmonetary Recommendations
Departmentwide and Cross-Cutting Issues

Update Cost Principles for Federally Sponsored Research Activities

Background: The cost principles at 45 CFR, Part 74, Appendix E, were published more
than 25 years ago when the research environment and Federal funding rules were less complex.

Finding: HHS’s hospital cost principles for federally sponsored research activities contained
in Appendix E of Part 74 are not current and do not always provide clear guidance for
determining the allowable costs and their allocation.

Recommendation(s): The Assistant Secretary for Resources and Technology (ASRT) should
modernize and strengthen the cost principles applicable to hospitals by either (1) revise
Appendix E (known as OASC-3) where applicable, for consistency with Office of
Management and Budget (OMB) Circular A-21 or (2) working with OMB to extend Circular
A-21 coverage to all hospitals.

Status: ASRT is working on an update to hospital cost principles.

 Report(s): OAS-01-92-01528; issued 05/93




                                                                                                Recommendations
                                                                                                Previous Nonmonetary




Previous Nonmonetary Recommendations                                                            101
      Departmentwide and Cross-Cutting Issues


      Improve Financial Analysis and Reporting Processes

      Background: The Government Management Reform Act of 1994 requires that many
      Federal agencies, including HHS, prepare annual financial statements. Government Auditing
      Standards and OMB Bulletin 06-03, “Audit Requirements for Federal Financial Statements,”
      provide auditors with guidance to audit and report on the Federal financial statements. OMB
      Bulletin A-127 requires that financial statements be the culmination of a systemic accounting
      process. The statements are to result from an accounting system that is an integral part of a
      total financial management system containing sufficient structure, effective internal control,
      and reliable data.

      Finding: The FY 2006 financial statement audit noted that the lack of an integrated financial
      management system(s) and weaknesses in internal controls made it difficult for HHS to
      prepare timely and reliable financial statements. For example, the CORE accounting system,
      which supports net outlays in excess of $93 billion, is a legacy accounting system and does
      not support all functionality required by the United States General Legend and Joint Financial
      Management Improvement Program standards. Also, CMS’s Medicare contractors continue to
      rely on labor-intensive manual processes that are subject to an increased risk of inconsistent,
      incomplete, or inaccurate information being submitted to HHS. In addition, HHS compiles
      its financial statements through a multistep process using a combination of manual and automated
      procedures, as a result of system limitations that have many components recording accounting
      entries outside the general ledger system and using spreadsheets and database queries to prepare
      financial statements.

      Recommendation(s): HHS should continue its efforts to establish an integrated financial
      management system to promote consistency and reliability in recording and reporting finan-
      cial information. Also, HHS should establish appropriate policies, procedures, and protocols
      to address situations or transactions that require cross-functional involvement to determine
      the appropriate accounting treatment. In addition, HHS should update the policies and
      procedures for the preparation of the financial statements to ensure compliance through
      a monitoring process.

      Status: HHS acknowledged that it continues to have internal control weaknesses in its
      financial systems and processes. HHS’s long-term strategic plan to resolve these weaknesses
      is to replace the existing accounting systems and certain other financial systems with a
      Unified Financial Management System (UFMS). The UFMS will be implemented in accordance
      with the approval implementation plan, allowing HHS to comply with the requirements for
      the Federal Financial Management Improvement Act by the end of FY 2009. HHS plans
      to implement the UFMS departmentwide by 2009.

       Report(s): OAS-17-98-00015;       issued   04/98       OAS-17-02-00001;     issued   01/03
                  OAS-17-98-00015;       issued   01/99       OAS-17-04-00001;     issued   12/04
                  OAS-17-99-00002;       issued   02/00       OAS-17-05-00001;     issued   11/05
                  OAS-17-01-00001;       issued   02/01       OAS-17-06-00001;     issued   11/06
                  OAS-17-00-00014;       issued   02/02




102   Previous Nonmonetary Recommendations
Departmentwide and Cross-Cutting Issues


Strengthen State Protections for Persons With Disabilities in Residential Settings

Background: Several HHS operating divisions fund programs or services that play a role in
protecting persons with disabilities from abuse or neglect. For facilities receiving Medicare
or Medicaid funds, including intermediate care facilities for persons with mental retardation,
nursing homes, and psychiatric facilities, CMS has established conditions of participation
requiring that residents and patients be protected from abuse or neglect. ACF and SAMHSA
provide States with grants to establish protection and advocacy systems for investigating
allegations of abuse or neglect. Finally, FDA oversees the regulation of medical devices,
including physical restraints, and receives information on deaths that occurred during the
use of restraints.

Finding: We found that approximately 90 percent of persons with disabilities reside in facilities
that are not subject to CMS oversight and rely solely on protections offered by State
systems to identify, investigate, and resolve reports of abuse or neglect, including the misuse
of restraints and seclusion. The level of protection provided by State systems varies widely.
Limited Federal standards, due in part to HHS’s limited statutory authority to set requirements
for many facilities and homes, have left persons with disabilities more vulnerable in residential
settings in which State systems are not well developed. Also, HHS is at a disadvantage in
identifying systemic problems because it receives limited information on occurrences of
abuse or neglect.

Recommendation(s): CMS, ACF, SAMHSA, and FDA should work cooperatively to provide
information and technical assistance to States that would (1) improve the reporting of potential
abuse or neglect of persons with disabilities, (2) strengthen investigative and resolution
processes, (3) assist in analyzing incident data to identify trends indicative of systemic problems,
and (4) identify the nature and cause of incidents to prevent future abuse.

Status: We received positive feedback from the responsible operating divisions that detailed
actions that they were taking or planning to improve safeguards. For example, SAMHSA has
a grant program, begun in FY 2001, to identify effective alternative practices, (e.g., training
efforts,) to reduce restraint and seclusion practices and will promote the application of the
findings from these grants.




                                                                                                       Recommendations
                                                                                                       Previous Nonmonetary
 Report(s): OAS-01-00-02502; issued 05/01




Previous Nonmonetary Recommendations                                                                   103
      Departmentwide and Cross-Cutting Issues


      Improve Safeguards for Long Term Care Residents

      Background: Under CMS statute and regulations, residents of nursing homes and other
      LTC facilities have the right to reside in safe and secure environments, free from abuse and
      neglect. There is no Federal requirement to conduct criminal background checks of current
      or prospective employees of nursing facilities apart from those specifically addressing nurse
      aides.

      Finding: We found that there is no assurance that nursing home staff who could place
      elderly residents at risk of abuse or neglect are systematically identified and excluded from
      employment. Not all States require criminal background checks of applicants or onboard
      staff; however, the States requiring background checks believe that they have reduced the
      instances of abuse. Screening nurse aide registries can also be an effective tool in identifying
      known abusers, but in one State reviewed, the registry did not always record findings
      of abuse and convictions. Additionally, although use of the OIG exclusion list can make
      screening more effective, none of the nursing homes surveyed in six States was aware
      of this database or its availability on the Internet.

      Recommendation(s): We recommended that (1) CMS and AoA work collaboratively with
      the States to improve the safety of LTC residents and to strengthen safeguards against the
      employment of abusive workers, (2) CMS consider establishing Federal requirements and
      criteria for performing criminal checks, and (3) CMS consider developing a national abuse
      registry or expanding the current State registries to include all workers in facilities receiving
      Federal reimbursement.

      Status: CMS and AoA agreed with our recommendations and have planned or taken some
      actions to improve safeguards for LTC residents in nursing homes. For example, the MMA
      of 2003 established the framework for a program to evaluate national and State background
      checks on direct patient access employees of LTC facilities or providers. The program, which
      may include up to 10 States, will identify efficient, effective, and economical procedures for
      LTC facilities or providers to conduct background checks.

       Report(s): OAS-12-97-00003; issued 09/98




104   Previous Nonmonetary Recommendations
List of Acronyms
Acronyms

ACF        Administration for Children and Families
AHRQ       Agency for Healthcare Research and Quality
AMP        Average Manufacturer Price
AoA        Administration on Aging
ASC        Ambulatory Surgical Centers
ASP        Average Sales Price
AWP        Average Wholesale Price
BBA        Balanced Budget Act of 1997
BBRA       Balanced Budget Refinement Act of 1999
CFSR       Child and Family Service Review
CDC        Centers for Disease Control and Prevention
CMS        Centers for Medicare & Medicaid Services
CY         Calendar Year
DME        Durable Medical Equipment
DRA        Deficit Reduction Act of 2005
DRG        Diagnosis-Related Group
ESRD       End-Stage Renal Disease
FDA        Food and Drug Administration
FUL        Federal Upper Payment Limits
FY         Fiscal Year
GAO        Government Accountability Office
GCP        Good Clinical Practice
HHS        Department of Health and Human Services
HRSA       Health Resources and Services Administration
IHS        Indian Health Service
IRB        Institutional Review Board
LTC        Long Term Care
MCO        Managed Care Organization
MMA        Medicare Prescription Drug, Improvement, and Modernization Act of 2003
NIH        National Institutes of Health
NPDB       National Practitioner Data Bank
OAA        Older Americas Act
OBRA       Omnibus Budget Reconciliation Act of 1981
OBRA       Omnibus Budget Reconciliation Act of 1986
OBRA       Omnibus Budget Reconciliation Act of 19879
OBRA       Omnibus Budget Reconciliation Act of 1989
OBRA       Omnibus Budget Reconciliation Act of 1990
OBRA       Omnibus Budget Reconciliation Act of 1993
OHRP       Office for Human Research Protection
OIG        Office of Inspector General
OMB        Office of Management and Budget
OSCAR      Online Survey and Certification Reporting
PPS        Prospective Payment System
QIO        Quality Improvement Organization
                                                                                     Acronyms




SAMHSA     Substance Abuse and Mental Health Services Administration
SCHIP      State Children’s Health Insurance Program
SOM        State Operations Manual
TBD        To Be Determined
UPIN       Unique Physician Identification Number
UPL        Upper Payment Limit

Acronyms                                                                            107
                                                                                                                    Unimplemented
                                                                                                                      Office of Inspector General
                                                                                                                     Recommendations




                                          Compendium of Unimplemented Office of Inspector General Recommendations
Department of Health and Human Services
Office of Inspector General

330 Independence Avenue, S.W.
Washington, D.C. 20201




                                          May 2007




www.hhs.gov
www.oig.hhs.gov
                                                   www.oig.hhs.gov




                                                                                                                                        May 2007
